COMBINED DNA INDEX SYSTEM
OPERATIONAL AND LABORATORY
     VULNERABILITIES

      U.S. Department of Justice
    Office of the Inspector General
             Audit Division

         Audit Report 06-32
             May 2006
                         EXECUTIVE SUMMARY

       The Federal Bureau of Investigation (FBI) serves as one of the primary
components in the Department of Justice’s efforts to further develop the
nation’s capacity to prevent and control crime and administer justice fairly
and effectively. The FBI assists in these efforts through various means,
including providing direct technical support to state, local, and tribal law
enforcement. One of the most powerful law enforcement tools that the FBI
provides is the Combined DNA Index System (CODIS), a national
DNA-profile matching service comprised of databases containing DNA
profiles from crime scenes, convicted offenders, and sources involving
missing persons.

      DNA, or deoxyribonucleic acid, is a chemical contained in the nucleus
of a cell that carries the genetic instructions, or blueprint, for making living
organisms. In the context of criminal investigations, scientists examine the
DNA that varies widely among people to develop a profile that will be
uniquely identifying (except in the instance of identical twins). DNA
analysis, a relatively new law enforcement tool, can provide compelling
evidence for solving crimes or exonerating suspects. The FBI began the
CODIS Program as a pilot project in 1990, allowing participating laboratories
to compare DNA profiles obtained from crime scenes and convicted offenders
to generate investigative leads.

      This Office of the Inspector General (OIG) audit report examines
various aspects of CODIS operations and management to discern whether
vulnerabilities exist in the FBI’s administration of CODIS.


Background

      The FBI implemented CODIS as a database, distributed over three
hierarchical levels, that enable federal, state, and local crime laboratories to
compare DNA profiles electronically. The National DNA Index System,
(NDIS), which became operational in 1998, is the highest level in the CODIS
hierarchy. It enables the laboratories participating in the CODIS Program to
compare DNA profiles on a national level. Each state maintains a State DNA
Index System (SDIS), and participating local laboratories across the country
each maintain a Local DNA Index System (LDIS). DNA profiles are entered
into CODIS by local and state laboratories, which then flow to the state and
national levels where they are compared to determine if a convicted offender
can be linked to a crime, if crimes can be linked to each other, or if missing
or unidentified persons can be identified.
       The CODIS Program is operated by the CODIS Unit, within the FBI
Laboratory Division, Scientific Analysis Section, Forensic Analysis Branch.
The CODIS Unit is charged with overseeing CODIS and NDIS operations and
administration, and ensuring that those operations comply with applicable
legislated requirements.

      As of November 2005, 175 laboratories were participating in NDIS.
These laboratories collectively uploaded nearly 2.9 million profiles to NDIS,
including:

   •   2,743,068 convicted offender profiles;

   •   123,835 crime scene (forensic) profiles;

   •   1,481 relatives of missing person profiles;

   •   621 unidentified human remains profiles; and

   •   269 missing person profiles.

      The success of CODIS is measured primarily through the number of
cases that CODIS assists through a “hit” (a match between DNA profiles
produced by CODIS that would not otherwise have been developed), also
referred to as “investigations aided.” Through November 2005, CODIS aided
29,666 investigations in 49 states and 2 federal laboratories.


Prior Audits of CODIS

       The OIG previously conducted an audit to determine the extent of
state and local laboratory participation in CODIS, particularly for those
entities receiving laboratory grants, and to evaluate the FBI’s
implementation and monitoring of CODIS. 1 As part of that audit, we
reviewed eight individual laboratories to determine their compliance with
applicable statutes and FBI standards. 2 That audit report, issued in 2001,
concluded that:




       1
       Department of Justice, Office of the Inspector General. Audit Report No. 01-26,
The Combined DNA Index System, September 2001.
       2
         Of the eight laboratories, three were in Florida and one each in California, Illinois,
North Carolina, Pennsylvania, and Virginia. See Appendix V, “FY 2000” list, for further
details.

                                             - ii -
     •   The FBI needed to improve its oversight of CODIS-participating
         laboratories to ensure the laboratories were in compliance with
         applicable legislation, the FBI’s Quality Assurance Standards (QAS), and
         the FBI requirements for laboratories participating in NDIS.

     •   The FBI needed to initiate procedures to ensure that DNA profiles in
         CODIS are complete, accurate, and allowable.

As a result of these findings, we made the following recommendations to the
FBI:

     •   Require that the accuracy, completeness, and allowability of the DNA
         profiles in NDIS be routinely verified through audits or other means.

     •   Ensure that analysts performing DNA testing at laboratories uploading
         DNA profiles to NDIS are aware of the NDIS participation
         requirements, particularly those requirements delineating the types of
         allowable profiles.

     •   Develop and implement a process to ensure that laboratories
         adequately resolve all deficiencies noted during the QAS-required
         audits.

      Since the issuance of the 2001 audit report, the OIG has completed an
additional 24 CODIS laboratory audits. 3 This audit report follows up on our
previous report and assesses the FBI’s administration of CODIS operations.


Audit Approach

     This audit was designed to assess the status of CODIS operations and
CODIS trends and vulnerabilities. The specific objectives of the audit were
to:

1.       assess the adequacy of the FBI’s administration of CODIS, including its
         oversight of NDIS;

2.       analyze findings from DNA laboratory audits, both OIG-conducted
         audits and external quality assurance audits, to determine if they
         reveal trends and vulnerabilities; and



         3
             See Appendix V for a complete listing of the CODIS laboratory audits conducted by
the OIG.

                                              - iii -
3.     evaluate the FBI’s implementation of corrective actions in response to
       findings from the OIG’s September 2001 audit, The Combined DNA
       Index System.

      To accomplish these objectives, we reviewed various data and
documentation provided to us by FBI officials, evaluated the results of past
OIG CODIS laboratory audits, interviewed members of the CODIS Unit staff,
and collected and analyzed documentation from select NDIS-participating
laboratories.

      Additionally, to obtain the viewpoints of state and local
NDIS-participating laboratories, we surveyed CODIS administrators at those
laboratories (not including the FBI).


Summary of OIG Findings

      We identified several recommendations for the FBI to: (1) improve its
administration of CODIS, (2) track and respond to CODIS trends and
vulnerabilities, and (3) improve or complete its corrective action to our 2001
audit, as summarized in the following sections.


FBI Administration of CODIS

       The FBI received an overall positive evaluation of its administration of
CODIS from the CODIS administrators we surveyed. We determined that
the FBI also has given attention to CODIS infrastructure, development, and
staffing. However, based on our analysis of the survey responses and FBI
documentation, we have identified several areas in need of further
improvement. For example:

1.     QAS compliance within the CODIS community can be improved and
       workloads reduced if the FBI ensures that all CODIS administrators
       receive QAS auditor training; 4

2.     CODIS Unit responsiveness can be improved through sufficient staffing
       and tracking of information requests;




       4
          The FBI conducts training courses for auditors assessing compliance with the QAS
within the DNA community. The primary focus of these courses is to ensure a consistent
understanding of the QAS and consistent application of the FBI's audit document.

                                          - iv -
3.     CODIS community understanding and compliance with profile
       allowability restrictions can be enhanced through increased emphasis
       on written sources of guidance available to all CODIS users;

4.     NDIS Audit Review Panel (Review Panel) timeliness can be improved if
       guidance is disseminated to the appropriate members of the
       community, who can ensure that submissions to the Review Panel are
       complete; 5 and

5.     The FBI can improve information sharing through better use of the
       CODIS intranet website to disseminate written guidance to the
       community that is easy to navigate, consistent, and practical.

       In addition, from our review of historical staffing data, we found that in
the several years prior to 2004, the FBI failed to staff the CODIS Unit
commensurate with growing demands and participation, and thereby put at
risk the ability of CODIS staff to properly oversee and administer the CODIS
Program. However, in February 2004, FBI management took action to
increase CODIS staffing and reaffirm the importance of a sufficient number
of program manager positions. Yet, progress in filling the positions assigned
to the CODIS Unit has been limited due to a variety of delays and difficulties.
Of particular concern is the on-going lack of an NDIS Program Manager,
especially in light of the trends and vulnerabilities we identify in our report
related to the compliance of NDIS-participating laboratories with standards
governing participation. Therefore, we recommend that the FBI make
concerted efforts to bring the CODIS Unit up to full staffing levels.

       Further, in the written documents provided to us, the FBI appears to
capture the mission, goals, objectives, strategies, and performance
measurements for the CODIS Unit. These documents are interlinked in a
way that allows the performance measurements to be meaningful and
measurable. However, we identified three activities which are not reflected
in the CODIS Unit’s performance measurements that are an essential part of
the Unit accomplishing its mission: (1) auditing of NDIS data; (2) providing
training on QAS compliance; and (3) overseeing the activities of the Review
Panel. These three activities comprise the CODIS Unit’s primary means of
monitoring and assisting NDIS-participants’ compliance with the QAS and
verifying the integrity of NDIS data. Consequently, we recommend that
these three activities should be formalized and clearly reflected as the

       5
          The NDIS Audit Review Panel is a group of volunteer members of the DNA
community who meet specific requirements, as well as FBI DNA staff members. The panel
reviews all external QAS audits conducted at NDIS-participating laboratories across the
country, with the purpose of ensuring consistent and thorough application of the QAS by the
auditors and appropriate and complete corrective action by the laboratories.

                                           -v-
CODIS Unit’s responsibilities in its objectives and performance
measurements.

       The FBI has taken measures to provide for the operations,
maintenance, and security of the CODIS system for the near future.
However, continued progress is needed to ensure that the development
contract process planned for fiscal year (FY) 2006 is completed, and that the
development contract awarded allows for continued responsiveness to
legislated changes to CODIS operations.


Trends and Vulnerabilities in the CODIS Community

       In assessing the results of the OIG CODIS laboratory audits completed
in FY 2004 and FY 2005 (a total of 18 audits), we found that common
findings occurred with greatest frequency in the two areas of review that are
not audited by QAS auditors within the DNA community: compliance with
NDIS participation requirements and the proper upload of forensic profiles to
NDIS. Further, the FBI does not intend to have CODIS Unit auditors, once
hired, routinely audit compliance with NDIS requirements. Instead, the FBI
relies upon the annual CODIS user certifications as the primary means of
ensuring the compliance of NDIS data. 6 From the trends we noted, we
concluded that this reliance is insufficient, for the following reasons.

   •   We noted 13 incidents where forensic profiles in NDIS violated some
       aspect of NDIS requirements. This occurred in 11 of the
       18 laboratories we audited, and suggests that the annual certification
       forms have not been successful in ensuring CODIS user compliance
       with profile allowability restrictions.

   •   We found that 6 of 18 laboratories we audited had not completed the
       annual user certification forms as required. The forms are completed
       by laboratories on a self-certification basis and are not required to be
       submitted to the FBI.

     In addition to our assessment of the OIG CODIS laboratory audits, we
examined 41 state and local external QAS audits conducted by QAS auditors



       6
         At the beginning of each calendar year, each laboratory’s CODIS Administrator is
required by NDIS procedures to ensure that each CODIS user is reminded of the categories
of DNA data accepted at NDIS. As part of that, the CODIS Administrator has individual
users certify that they have received their annual reminder and understand and will abide
by what DNA data is accepted at NDIS.

                                          - vi -
within the DNA community. 7 We identified trends in findings that implicate
significant aspects of laboratory operations, such as chain-of-custody
documentation; labeling of evidence and security of evidence storage; and
proper monitoring of critical reagents, equipment, and procedures. Further,
10 percent of the findings noted were overturned after examination by the
Review Panel, in some cases without full disclosure of the overturned
findings to the audited laboratories. 8 In addition, we determined that the
FBI is not systematically and completely tracking common and overturned
findings. Without a thorough understanding of trends in common findings,
the FBI cannot properly provide the CODIS community additional guidance
needed to remedy and prevent compliance weaknesses in the trend areas.
Without an understanding of trends in overturned findings, the FBI also
cannot take the necessary steps to guide all QAS auditors toward a
consistent interpretation and application of the standards and to ensure that
QAS auditors obtain feedback on their performance.

       Overall, we believe the weaknesses we identified leave the FBI
potentially vulnerable to undetected inadvertent or willful non-compliance by
CODIS participants and consequently could undermine the integrity of the
CODIS Program. We conclude that the FBI needs to develop internal
controls over compliance of NDIS data beyond its current reliance on the
annual certification forms, and should track audit findings to obtain the type
of information that will be beneficial to auditors and audited laboratories.


Implementation of Corrective Action

      Previous OIG audit findings identified the need to verify the compliance
of NDIS data, to ensure NDIS user compliance with NDIS requirements, and
to ensure that laboratories remedy QAS audit findings.

       The FBI’s corrective action approach to the need to verify NDIS data
was two-fold. First, the FBI began requiring FBI QAS auditors to review
CODIS profiles as part of their case file reviews (this action was initiated in
June 2004). Second, the FBI began taking steps to hire auditors who would
systematically audit the profiles contained in NDIS. In assessing this action,
we determined that the FBI QAS auditor methodology for reviewing profiles
is deficient due to its limited scope. In addition, the FBI does not intend to

       7
       We use the term “QAS auditors” to refer to the scientists within the DNA
community who perform QAS audits.
       8
           The Review Panel overturns a finding when it determines that the finding was not
justified based upon the commonly accepted interpretation of the QAS. Often, for this to
occur, the audited laboratory must challenge the finding before the Review Panel.

                                           - vii -
have the CODIS Unit auditors, once hired, expand the current methodology
to include broader profile reviews. Further, the FBI has not implemented a
mechanism to document and track how many profiles are confirmed during
these reviews, or the frequency with which these reviews are conducted.

       To address the need to ensure NDIS user compliance with NDIS
requirements, the FBI instituted a requirement for annual CODIS user
certifications, completed on a self-certification basis. However, the process
for completing these forms does not provide the FBI with the information it
needs to confirm that all CODIS users have completed the forms as
required. Further, the continued reliance on self-certification perpetuates
the weakness we noted in the 2001 audit.

      Finally, the FBI implemented various corrective action measures in
response to the need for greater oversight of QAS compliance and the
adequacy of laboratories’ responses to QAS audit findings. These measures
included conducting QAS auditor training courses, implementing a DNA
community-wide audit document, and creating the Review Panel to ensure
complete and appropriate corrective action to QAS audit findings. However,
we identified the need for improved Review Panel timeliness and improved
consistency in training through an emphasis on written guidance.


Conclusion and Recommendations

       We found that while the FBI has made improvements to several
aspects of CODIS operations, the FBI needs to make further improvements
to ensure that it properly oversees the CODIS Program and CODIS
participants. Further, we identified several opportunities for data tracking
and information sharing that would enable the FBI to better assist the
CODIS community in its understanding of and compliance with the QAS and
NDIS participation requirements.

      Accordingly, we made 22 recommendations for corrective actions that
are needed for the FBI to improve its administration of CODIS. Among these
recommendations are for the FBI to:

   •   Develop and implement a plan to ensure that all CODIS administrators
       attend the FBI QAS auditor training.

   •   Improve information sharing through enhancements to the CODIS
       website.




                                    - viii -
•   Develop communication policies that will allow the CODIS Unit to
    provide guidance to members of the DNA community in writing.

•   Develop a staffing plan that identifies current hindrances to filling
    vacant positions in the CODIS Unit, solutions to those hindrances, and
    a timeline of action.

•   Incorporate the three activities we identified (auditing of NDIS
    data, providing training on QAS compliance, and overseeing the
    activities of the Review Panel) into the CODIS Unit’s objectives and
    measurements to fully reflect the CODIS Unit’s efforts to address its
    mission.

•   Ensure that the internal controls over the compliance of NDIS data are
    strengthened beyond the current reliance on self-certification annual
    reminder forms.

•   Implement a formal mechanism for tracking findings in audits
    reviewed by the NDIS Audit Review Panel and for tracking QAS auditor
    performance.




                                  - ix -
                               TABLE OF CONTENTS

INTRODUCTION ................................................................................ 1

       CODIS Development and Design ................................................... 1

       CODIS Contents and Growth ........................................................ 2

       CODIS Management and Measurements......................................... 8

       Prior Reviews ........................................................................... 10

       Audit Approach ......................................................................... 12

FINDINGS AND RECOMMENDATIONS.............................................. 14

I.     FBI’S ADMINISTRATION OF CODIS NEEDS IMPROVEMENT .... 14

       Administrator Survey Identifies Opportunities for Improvement....... 14

       Inadequate CODIS Unit Staffing.................................................. 29

       Additional Performance Measurements Needed.............................. 34

       Current Progress on CODIS Infrastructure .................................... 39

       Recommendations..................................................................... 44

II.    TRENDS AND VULNERABILITIES REVEALED THROUGH
       AUDIT RESULTS ..................................................................... 46

       Need for Additional Verification of Compliance with
       NDIS Requirements................................................................... 46

       Flaws in the FBI’s Oversight of QAS Audits ................................... 48

       Recommendations..................................................................... 53

III.   ADDITIONAL CORRECTIVE ACTION NEEDED TO ADDRESS
       PREVIOUS FINDINGS ............................................................. 55

       Verifying the Compliance of Data in NDIS..................................... 55

       Continued Reliance on Self-certification........................................ 57

       Improvement in Oversight of QAS Audits ..................................... 57
      Recommendations..................................................................... 62

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ...... 64

      DNA Identification Act of 1994 .................................................... 64

      Justice for All Act of 2004........................................................... 64

STATEMENT ON INTERNAL CONTROLS............................................ 66

APPENDIX I        – OBJECTIVES, SCOPE, AND METHODOLOGY ...........67

APPENDIX II –         LIST OF SURVEYED LABORATORIES .....................73

APPENDIX III – AUDIT CRITERIA ..................................................82

APPENDIX IV – AUDIT CRITERIA FOR CODIS
              LABORATORY AUDITS ..........................................87

APPENDIX V        –   DOJ OIG CODIS LABORATORY AUDITS
                      FYs 2000 – 2006.................................................. 93

APPENDIX VI – CODIS USER ANNUAL REMINDER FORM................96

APPENDIX VII – OIG CODIS ADMINISTRATOR SURVEY ..................98

APPENDIX VIII – FBI RESPONSE TO DRAFT REPORT......................130

APPENDIX IX – OIG ANALYSIS AND SUMMARY OF ACTIONS
              NECESSARY TO CLOSE THE REPORT....................143
                                 INTRODUCTION

CODIS Development and Design

      The Federal Bureau of Investigation (FBI) has provided the law
enforcement community with the Combined DNA Index System (CODIS), a
national DNA-profile matching service comprised of databases containing
DNA profiles from crime scenes, convicted offenders, and missing persons.

       CODIS began as a pilot project in 1990. The DNA Identification Act of
1994 formalized the FBI’s authority to establish a National DNA Index
System (NDIS) for law enforcement purposes and NDIS became operational
in 1998. 1 The Act authorized the FBI to establish an index of DNA
identification records of persons convicted of crimes, and analyses of DNA
samples recovered from crime scenes and from unidentified human remains.
The Act further specified that the index include only DNA information that is
based on analyses performed in accordance with the FBI’s Quality Assurance
Standards (QAS).

       The FBI implemented CODIS as a database with three hierarchical
levels that enables federal, state, and local crime laboratories to compare
DNA profiles electronically. As illustrated on the following page, the three
distinct levels are: NDIS, managed by the FBI as the nation’s DNA database
containing DNA profiles uploaded by participating states; the State DNA
Index System (SDIS), serving as each state’s DNA database containing DNA
profiles from local laboratories; and the Local DNA Index System (LDIS),
used by local laboratories. DNA profiles originate at the local or state level
and flow upward to the state (if from the local level) and national levels. For
example, the local laboratory in the Palm Beach, Florida, Sheriff’s Office
sends its profiles to the state laboratory in Tallahassee, which then uploads
the profiles to NDIS. A laboratory’s profiles need to be uploaded to NDIS
before they benefit the system as a whole.

      NDIS is the highest level in the CODIS hierarchy and enables the
laboratories participating in the CODIS Program to compare DNA profiles on
a national level. Each state participating in CODIS has one designated SDIS
laboratory. The SDIS laboratory maintains its own database and is
responsible for overseeing NDIS communications for all CODIS-participating
laboratories within the state.




      1
          Pub. L. No. 103-322 (1994).

                                        -1-
          Figure 1 – Example of System Hierarchy within CODIS 2


                                               NDIS




 SDIS                            SDIS                             SDIS
 Laboratory                      Laboratory                       Laboratory
 Richmond, CA                    Springfield, IL                  Tallahassee, FL



                                   LDIS Laboratories (partial list):
                                   DuPage County Sheriff’s Office
                                   Illinois State Police, Chicago
                                   Illinois State Police, Rockford

  LDIS Laboratories (partial list):                       LDIS Laboratories (partial list):
  Orange County Sheriff’s Department                      Broward County Sheriff’s Office
  San Bernardino County Sheriff’s Department              Miami-Dade Police Department
  San Diego Police Department                             Palm Beach Sheriff’s Office


Source: OIG analysis of CODIS system hierarchy

       The FBI has distributed CODIS software free of charge to state or local
law enforcement laboratory performing DNA analysis. Before a laboratory is
allowed to participate at the national level and upload DNA profiles to NDIS,
a Memorandum of Understanding (MOU) must be signed between the FBI
and the applicable state’s SDIS laboratory. The MOU defines the
responsibilities of each party, includes a sublicense for the use of CODIS
software, and delineates the standards that laboratories must meet in order
to utilize NDIS. Although officials from LDIS laboratories do not sign an
MOU, LDIS laboratories that upload DNA profiles to an SDIS laboratory are
required to adhere to the MOU signed by the SDIS laboratory.


CODIS Contents and Growth

      As of November 2005, NDIS contained nearly 2.9 million profiles in the
following five indices (or databases): (1) the Convicted Offender database,
(2) the Forensic database, (3) the Unidentified Human Remains database,
(4) the Missing Persons database, and (5) the Relatives of Missing Persons

      2
         The Department of Justice Office of the Inspector General developed this system
hierarchy example using information obtained from the FBI.



                                               -2-
database. The first two databases work together to form CODIS’ crime-
solving capabilities, since they can be searched against one another to assist
law enforcement personnel in solving crimes. The remaining three
databases can be searched against one another in order to identify missing
and unidentified persons.

       The Convicted Offender database contains DNA profiles from persons
convicted of qualifying federal or state crimes where the applicable
jurisdiction requires the creation of a DNA record for the convicted person.
The Forensic database contains DNA profiles from persons whose identity is
not known with certainty; these DNA profiles come from evidence either left
at or removed from a crime scene. The DNA profiles in the two databases
are compared to determine if a convicted offender can be linked to a crime
or if crimes can be linked to each other.

       The Unidentified Human Remains database contains DNA profiles from
the remains of individuals that cannot be identified by fingerprint, dental,
medical, or anthropological examinations, and of individuals who are living,
but are unidentifiable using typical investigative methods (such as children
and others who cannot or refuse to identify themselves). The Relatives of
Missing Persons database contains DNA profiles generated from the relatives
of known missing individuals, while the Missing Persons database contains
DNA records of missing persons obtained from their effects or deduced from
their relatives’ profiles. Profiles in these two databases are compared to
DNA profiles from unidentified remains or unidentified individuals in an
attempt to make an identification.

       CODIS has been expanded through various means since NDIS first
became operational in 1998, as described below. Laws governing which
profiles can be included in NDIS have expanded at both state and federal
levels, creating additional databases within CODIS. Further, the number of
participating and contributing laboratories has grown significantly. These
factors have caused the number of profiles in NDIS to increase dramatically.


Expanding Federal Legislation

      The DNA Identification Act of 1994 authorized the FBI to establish
NDIS but did not authorize the collection of DNA samples from federal
offenders. Enactment of the DNA Analysis Backlog Elimination Act of 2000
remedied this by authorizing collection of DNA samples from federal
offenders and from those who commit qualifying crimes in the District of




                                    -3-
Columbia, the military, and on tribal reservations. 3 Additionally, in response
to the events of September 11, 2001, the USA Patriot Act of 2001 expanded
the list of offenses for which offender samples would be collected to include
acts of terrorism and all crimes of violence. 4

      The Justice for All Act, signed into law on October 30, 2004, authorized
the FBI to expand NDIS to include an additional index for DNA profiles of
indicted persons. 5 As a result, those state and local laboratories located in a
state where the law authorizes the collection of DNA samples from indicted
persons may include the DNA profiles of indicted persons in NDIS.
Accordingly, the FBI added the Indicted Persons Index to NDIS in January
2005. The Act also required the state to have expungement procedures in
place for removing the implicated profiles in the event that charges are
dismissed or prosecution of the charges results in an acquittal. In addition,
the Act expanded the list of offenses that require collection of a DNA sample
when committed in the District of Columbia, the military, and on tribal
reservations to include all felony and comparable military offenses.

       The Justice for All Act also authorized the FBI to permit
NDIS-participating laboratories to perform a one-time search of certain DNA
profiles, which were not allowed to be stored in NDIS, against NDIS
databases. Specifically, NDIS-authorized users “may also access that index
[NDIS] for purposes of carrying out a one-time keyboard search on
information obtained from any DNA sample lawfully collected for a criminal
justice purpose except for a DNA sample voluntarily submitted solely for
elimination purposes.” The Act further defines keyboard searches as “a
search under which information obtained from a DNA sample is compared
with information in the index [NDIS] without resulting in the information
obtained from a DNA sample being included in the index [NDIS].”

       The FBI concluded that “DNA samples lawfully obtained for a criminal
justice purpose” included: (1) DNA samples obtained by a state in
accordance with applicable state law that are not otherwise authorized for
inclusion in NDIS, such as an arrestee sample; or (2) DNA samples obtained
by a state or relevant law enforcement agency in accordance with a judicial
court order, such as a suspect exemplar obtained pursuant to court order.

      Finally, on January 5, 2006, the DNA Fingerprint Act of 2005 was
signed into law, and further changed the scope of NDIS as follows:

      3
          Pub. L. No. 106-546 (2000).
      4
          Pub. L. No. 107-56 (2001).
      5
          Pub. L. No. 108-405 (2004).

                                        -4-
   •   Federal arrestee profiles can be submitted to NDIS.

   •   Federal detainee profiles can be submitted to NDIS.

   •   States with legislation authorizing collection of arrestee profiles can
       submit those profiles to NDIS.

   •   The responsibility for initiating expungement procedures for profiles in
       the indicted persons index was reassigned to the person whose
       charges were dismissed or not prosecuted.

   •   These changes eliminated the need for the one-time search provision
       authorized by the Justice for All Act of 2004, because many of the
       profiles that could have been searched using that provision can now be
       added directly to NDIS for routine searches.

According to the CODIS Unit Chief, in January 2006, the FBI assessed the
implications of this new law, and made changes to the NDIS procedures to
reflect this expansion of NDIS. As a result of this new law, and in
conjunction with additional administrative changes, the following indices
were added to NDIS in January 2006:

   •   Arrestee Index, which consists of DNA records of persons who have
       been arrested or indicted or charged in an information with a crime
       and are required by law to provide DNA samples. This index replaces
       the Indicted Persons Index created in 2005 as a result of the Justice
       for All Act.

   •   Legal Index, which consists of DNA records of persons whose DNA
       samples are collected under applicable legal authorities, when the
       resulting profiles do not belong in one of the other index categories.

   •   Spouse Index, which consists of the DNA records of a presumptive
       parent of a common child of a missing person. These records will help
       deduce the profile of a missing parent when the child’s DNA profile is
       available.


Expanding State Legislation

       Individual states also have gradually expanded legislation, particularly
as it pertains to the offenses for which, if convicted, a person must supply a
DNA sample to that state’s CODIS convicted offender database. States also
have moved toward requiring a DNA sample from all convicted felons, rather

                                       -5-
than limiting their collections to offenders convicted of sexual or violent
offenses. Figure 2 displays three snapshots, showing the dramatic increase
in offender DNA sample collection legislation across the United States.

            Figure 2 – Expansion of State Legislation Governing
                      Offender DNA Sample Collection


   1999 - 6 States                 2002 - 21 States                2005 – 43 States




        = States that began collecting DNA from all convicted felons previously
        = States that began collecting DNA from all convicted felons in the year shown

Source: Smith Alling Lane, a professional services corporation

These legislative expansions at the state level have resulted in a dramatic
increase through the years in the NDIS offender DNA database, as shown on
page 7.


Increasing Number of CODIS Participants

       Another means of expansion to NDIS has been the increasing number
of participating and contributing state and local laboratories. For example,
in May 1999, 32 laboratories in 12 states and 1 federal agency (the FBI)
participated in NDIS. At the start of our audit in May 2005, 176 laboratories
in 50 states and 2 federal agencies (the FBI and the Army) participated in
NDIS. 6 These numbers translate to a 450-percent increase in the number of
NDIS-participating laboratories in a 6-year period.

      Within these numbers is a secondary area of increase in the number of
contributing NDIS laboratories. For a variety of reasons, not every
“participating” laboratory was able to immediately contribute profiles to



       6
         These statistics reflect the fact that one laboratory that participated in NDIS in the
past was suspended pending facility renovation or relocation.

                                             -6-
NDIS in the past. 7 For example, as of May 1999, only 10 of 12 participating
states had contributed offender DNA profiles to NDIS, and only 28 of
32 laboratories had contributed forensic DNA profiles to NDIS. However, as
of May 2005, all 176 NDIS-participating laboratories had contributed profiles
to NDIS.


Increasing Number of Profiles in NDIS

       The preceding factors of expansion, including federal and state
legislation and increasing numbers of participants, have caused a dramatic
increase in the number of profiles contained in the NDIS databases. The
following figures and data demonstrate the increases observed.

                           Figure 3 – NDIS Offender Database
                               Cumulative Totals by Year


                    3.0

                    2.5




                                                                              2.7
      In Millions




                    2.0

                    1.5                                           2.0
                                                       1.5




                    1.0
                                            1.2
                                  0.8




                    0.5
                           0.5




                    0.0
                          2000   2001     2002       2003        2004       2005 *
      * through November 2005
                                        Offender Profiles
     Source: FBI CODIS Unit Chief

      Figure 3 illustrates the significant increase from less than
500,000 profiles in 2000 to over 2.7 million profiles by November 2005. Just
as dramatic is the increase in forensic profiles, from approximately 22,000 in
2000 to nearly 122,000 by November 2005, as shown in Figure 4.

        7
         These reasons can include such factors as technology changes, limited laboratory
resources, or the strain placed upon a laboratory’s productivity by changing legislation.

                                          -7-
                           Figure 4 – NDIS Forensic Database
                               Cumulative Totals by Year


                    140
                    120




                                                                122
     In Thousands




                    100




                                                        94
                     80




                                                 71
                     60
                     40

                                         46
                     20
                                  28
                           22




                      0
                          2000   2001   2002    2003   2004    2005 *

    * through November 2005             Forensic Profiles

    Source: FBI CODIS Unit Chief



CODIS Management and Measurements

      The FBI’s CODIS Unit has only existed since June 2003, following a
reorganization within the FBI Laboratory Division. The predecessor of the
CODIS Unit, the Forensic Science Systems Unit, managed other Laboratory
Division databases in addition to the CODIS Program. The reorganization
transferred those other databases to the operational unit counterparts to
which they pertained. The Forensic Science Systems Unit, encompassing the
CODIS Program and NDIS, was transferred from the Forensic Science
Support Section, Operational Support Branch to the Scientific Analysis
Section, Forensic Analysis Branch, effective June 2003. With this transfer
came the name change to the CODIS Unit.

      The CODIS Unit is charged with overseeing CODIS and NDIS
operations and administration and ensuring that those operations comply
with applicable requirements. As part of those efforts, the FBI contracted
with Scientific Applications International Corporation (SAIC) in 1995 to
develop CODIS software and software upgrades, to provide training and
technical assistance to software users, and to physically maintain and secure



                                          -8-
NDIS. SAIC continues to maintain and operate the CODIS software and
system.

      According to the CODIS Unit Chief, as of November 2005,
175 laboratories were participating in NDIS. 8 These laboratories collectively
uploaded nearly 2.9 million profiles to NDIS, of which 96 percent were
convicted offender profiles. Specifically, NDIS includes:

   •   2,743,068 convicted offender profiles;

   •   123,835 forensic profiles;

   •   1,481 relatives of missing person profiles;

   •   621 unidentified human remains profiles; and

   •   269 missing person profiles.

      The success of CODIS is primarily measured through the number of
cases that CODIS assists through a “hit” (a match between DNA profiles
produced by CODIS that would not otherwise have been developed), also
referred to as “investigations aided.” Through November 2005, CODIS aided
29,666 investigations in 49 states and 2 federal laboratories, as shown in
Figure 6.




       8
        The decrease of one laboratory from May 2005 is due to the fact that the NDIS
database was moved to the FBI’s laboratory building, eliminating one of the NDIS sites.

                                          -9-
                  Figure 6 – Investigations Aided by CODIS
                            As of November 2005




           Source: FBI, December 2005

     The FBI also provides CODIS software to foreign law enforcement
agencies with DNA capabilities to aid in criminal justice investigations. As of
November 2005, 39 sites in 24 countries had received CODIS software. 9


Prior Reviews

       The Department of Justice Office of the Inspector General (OIG)
previously conducted an audit to determine the extent of state and local
laboratory participation in CODIS, particularly for those entities receiving
laboratory grants, and to evaluate the FBI’s implementation and monitoring
of CODIS. 10 At the time of that audit, the FBI did not have the resources to
directly evaluate laboratory compliance with the QAS and NDIS
requirements. Consequently, oversight was limited to self-certification with
the QAS and NDIS participation requirements on the part of each laboratory.
We deemed self-certifications to present a high risk that FBI management
would not detect instances of non-compliance by NDIS-participating

      9
         The 24 countries are Belgium, Botswana, Canada, Chile, Colombia, Croatia, Czech
Republic, Denmark, England, Estonia, Finland, France, Hong Kong, Hungary, Italy,
Netherlands, Norway, Poland, Portugal, Singapore, Slovakia, Spain, Sweden, and
Switzerland.
      10
        Department of Justice, Office of the Inspector General. Audit Report No. 01-26,
The Combined DNA Index System, September 2001.

                                         - 10 -
laboratories. Consequently, we audited eight individual laboratories to
determine compliance with applicable standards. 11 The collective results of
these efforts were described in the OIG’s 2001 audit report. In that report
we concluded that:

   •   The FBI needed to improve its oversight of CODIS-participating
       laboratories to ensure the laboratories were in compliance with
       applicable legislation, the FBI’s quality assurance standards, and the FBI
       requirements for laboratories participating in NDIS. Our audits of eight
       state and local laboratories disclosed that four laboratories did not fully
       comply with the FBI’s quality assurance standards and NDIS participation
       requirements. Also, we noted that the FBI did not have a process in
       place to ensure that laboratories instituted appropriate corrective action
       for findings of quality assurance audits.

   •   The FBI needed to initiate procedures to ensure that DNA profiles in
       CODIS are complete, accurate, and allowable. At six of the eight
       laboratories audited, we found 49 unallowable or incomplete forensic
       profiles in CODIS out of the 608 forensic profiles reviewed. The
       unallowable profiles were from a known person other than a suspected
       perpetrator, such as a victim, an entry that is strictly prohibited from
       inclusion in CODIS. Further, at 2 of the 8 laboratories we identified
       6 incomplete or unallowable convicted offender profiles in CODIS out of
       the 700 convicted offender profiles we reviewed. We found that the
       unallowable profiles in CODIS were uploaded either inadvertently or
       because a laboratory did not fully understand the rules governing
       acceptable profiles.

As a result of these findings, we made the following recommendations to the
FBI:

   •   Require that the accuracy, completeness, and allowability of the DNA
       profiles in the national index be routinely verified through audits or
       other means.

   •   Ensure that analysts performing DNA testing at laboratories uploading
       DNA profiles to the national index are aware of the NDIS
       requirements, particularly those requirements delineating the types of
       allowable profiles.



       11
          Of the eight laboratories, three were in Florida and one each in California, Illinois,
North Carolina, Pennsylvania, and Virginia. See Appendix V, “FY 2000 Audits” list, for
further details.

                                            - 11 -
     •   Develop and implement a process to ensure that laboratories
         adequately resolve all deficiencies noted during the QAS-required
         audits.

      When we issued the report, we considered the status of each
recommendation resolved because the FBI and the OIG agreed on the
finding noted, and the FBI had planned but not completed its corrective
action. In resolving the findings, we relied on:

     •   Documentation that the FBI was working to develop a plan to routinely
         verify the accuracy, completeness, and allowability of the DNA profiles
         uploaded to the national index system.

     •   A draft policy the FBI intended to implement requiring forensic
         laboratories participating in NDIS to advise DNA analysts of the
         requirements concerning allowable DNA profiles on an annual basis.

     •   Documentation that the FBI initiated a program to monitor laboratory
         quality assurance audits through a review panel of qualified scientists
         (referred to as the NDIS Audit Review Panel) to verify that the
         appropriate standards were used and, when applicable, that the
         laboratory had taken appropriate corrective actions for audit findings.

      Since the issuance of that audit report, the FBI has implemented
several corrective action measures, which are further analyzed in Finding III.
In addition, since that time, the OIG has completed an additional 24 CODIS
laboratory audits. (See Appendix V for a complete listing of these audits.)


Audit Approach

     This audit was designed to determine the present status of CODIS
operations. The objectives of our audit were to:

1.       assess the adequacy of the FBI’s administration of CODIS, including its
         oversight of the national DNA database;

2.       analyze findings from DNA laboratory audits, both OIG-conducted
         audits and external quality assurance audits, to determine if they
         reveal trends and vulnerabilities; and

3.       evaluate the FBI’s implementation of corrective actions in response to
         findings from the OIG’s September 2001 audit.



                                       - 12 -
      To accomplish these objectives, we reviewed various data and
documentation provided to us by FBI officials, evaluated the results of past
OIG CODIS laboratory audits, interviewed members of the CODIS Unit staff,
and collected documentation from select NDIS-participating laboratories to
analyze:

  •   CODIS unit staffing and responsibilities;

  •   the accuracy of NDIS Audit Review Panel (Review Panel) records;

  •   the timeliness of the Review Panel process;

  •   CODIS program goals, objectives, and measurements;

  •   CODIS unit oversight and monitoring of participants;

  •   weaknesses in compliance with QAS or NDIS participation
      requirements;

  •   the adequacy of the FBI’s corrective actions to our previous
      recommendations;

  •   the FBI’s implementation of legislated changes to NDIS; and

  •   the FBI’s management of CODIS operations and infrastructure.

      Additionally, to obtain the viewpoints of state and local
NDIS-participating laboratories, we surveyed CODIS administrators at
NDIS-participating laboratories (not including the FBI). The results of our
audit are detailed in the Findings and Recommendations section of this
report, and the audit objectives, scope, and methodology are presented in
Appendix I.




                                    - 13 -
                 FINDINGS AND RECOMMENDATIONS

I.     FBI’S ADMINISTRATION OF CODIS NEEDS IMPROVEMENT

       The FBI received an overall positive assessment of its administration of
       CODIS from the CODIS administrators we surveyed. The FBI has
       given attention to CODIS infrastructure, development, and staffing.
       However, based on our analysis of the survey responses and FBI
       documentation, we have identified several areas in need of further
       improvement, including improved compliance, responsiveness,
       timeliness, and information sharing. In addition, the FBI needs to
       identify the current obstacles that prevent the CODIS Unit from
       achieving full staffing levels, reflect all activities in its performance
       measurements, and continue the progress made with the system
       infrastructure.


Administrator Survey Identifies Opportunities for Improvement

       Each NDIS-participating laboratory is required by the MOU governing
its participation to have an administrator who oversees CODIS operations at
that laboratory. The administrator is the liaison between the FBI and CODIS
users and is expected to relay necessary information to aid in compliance
with NDIS participation requirements. Consequently, the CODIS
administrators have an influential role in the CODIS community and have an
opportunity to interact with the FBI in a way that would provide them with
the experience needed to assist us in assessing the effectiveness of the FBI’s
administration of CODIS. As part of our effort to assess the FBI’s
administration of CODIS, we conducted a survey of 174 CODIS
administrators. 12

       Our analysis of survey results revealed an overall positive assessment
of the FBI’s administration of CODIS. However, we identified several
opportunities for improvement. For example: (1) QAS compliance within
the CODIS community can be improved and workloads reduced if the FBI
ensures that all CODIS administrators receive QAS auditor training;
(2) CODIS Unit responsiveness can be improved through sufficient staffing,
tracking of information requests, and the use of other organizational tools;
(3) CODIS community understanding and compliance with profile allowability
restrictions can be enhanced through increased emphasis on written sources
of guidance that should be available to all CODIS users; (4) Review Panel

       12
          See Appendix II for a list of laboratories corresponding to the CODIS
administrators we surveyed.

                                          - 14 -
timeliness can be improved if guidance is disseminated to the appropriate
members of the CODIS community who can ensure that submissions are
complete; and (5) the FBI can improve information sharing through better
use of the CODIS intranet website by disseminating written guidance to the
CODIS community that is consistent, practical, and easy to navigate. These
results are further described in the following sections.


Survey Distribution and Design

      Our survey was designed to provide feedback from CODIS
administrators on a variety of topics. The survey contained 46 primary
questions and 25 secondary and multi-part questions, resulting in 71 total
questions. (See Appendix VI for a complete listing of the survey questions
and responses received.) Of the total, 26 questions allowed respondents to
provide supplemental comments in which to clarify or explain their answer.
Supplemental comments were generally added when respondents gave a
negative answer. In total, we received 636 supplemental comments.

      We developed questions from our analysis of the trends in the OIG’s
former audits of CODIS laboratories, recommendations from members of the
CODIS community, and the findings contained within the OIG’s 2001 audit
report. In addition, the FBI provided suggestions for survey questions.

      We divided the questions into seven topics, covering the major issues
we identified as potential areas of weakness in the FBI’s administration of
CODIS, which were applicable for comment by the administrators. Six of the
seven topics contained questions in which respondents could provide
additional comment. The seven topics were: (1) demographics, (2) FBI
CODIS Unit responsiveness, (3) allowability of DNA profiles, (4) laboratory
quality, (5) general CODIS operations, (6) NDIS Audit Review Panel, and
(7) FBI guidance to the CODIS community. 13

      We provided administrators with 1 month (including a deadline
extension) to submit their responses. In addition, we offered those states
not represented in the responses received by the deadline a further
opportunity to respond. We received 144 responses from 47 states, which




      13
        The demographics category did not contain questions that would require
supplemental comment.

                                        - 15 -
represents an 83-percent response rate. 14 Included in these responses were
surveys from 49 SDIS laboratories and 95 LDIS laboratories. With such a
large number of both SDIS and LDIS respondents, we believe the responses
fairly represent the views of CODIS administrators within the NDIS
community.

       We analyzed survey results to detect commonalities of response and
consensus of opinions. As part of this analysis we tabulated responses for
all questions, calculated a consensus for each question, identified trends in
supplemental comments, and determined if vulnerabilities were identified by
the consensus responses and comment trends. The results of our analysis of
the CODIS administrator survey results follow and are referenced throughout
this report where applicable. The complete listing of survey questions and
responses can be found in Appendix VII.


Survey Results and Analysis

     While we generally note positive results below we also identify
potential areas for improvement.

       Demographics. We began our survey with questions that would help
us ascertain the variety of experience, size of laboratories, and duties and
activities of the administrators. Responses indicated that the average time
the respondents had spent as a CODIS administrator was 3 to 5 years and
the average size of the respondents’ DNA laboratories was 6 to 10 positions
(including all staff specific to the DNA portion of their laboratory). Most
respondents (65 percent) were administrators who also had casework
analysis duties, and additional respondents (8 percent) were administrators
who also performed casework and offender analysis duties. In addition,
13 percent were administrators who filled some other role, such as quality
assurance manager or technical manager.

       We found that 43 percent of CODIS administrators stated that they
have not taken the FBI's QAS auditor training (survey question 5), a course
that is designed to ensure a consistent understanding of the QAS and
application of the FBI’s audit document, as well as an understanding of the




       14
           We did not receive a response from Idaho or Rhode Island. We received a
response from Connecticut during our testing of the survey document, but we could not
include it because of the preliminary condition of the survey and its inconsistencies with the
final survey. Connecticut did not respond to the final survey.

                                           - 16 -
principles and objectivity surrounding auditing. 15 In our judgment, while not
every administrator may need guidance on how to conduct an audit, the
FBI’s QAS auditor training course would ensure that administrators are
versed in QAS compliance to the degree necessary to assist their
laboratories in ensuring compliance.

      Further, administrators stated that one of the top reasons for
contacting the CODIS Unit relates to QAS matters (survey question 6),
meaning that much time and effort is expended by both the administrators
and CODIS Unit staff to address QAS issues. We believe this time and effort
could be minimized, freeing up time for other duties, if administrators
received training in QAS compliance.

      In addition, later survey results, in combination with the results of
question 5, indicate that some administrators who have not taken the
auditor training are still participating in the resolution of QAS audits for their
laboratory. We reached this conclusion from the fact that 66 percent of
CODIS administrators indicated they are involved in the QAS audit resolution
process (questions 30 and 31), but only 57 percent of the administrators
have taken the QAS auditor training. If CODIS administrators are to be
responsible in their laboratories for handling the audit resolution process,
they should have the benefit of receiving training in the accepted
interpretation of the QAS and the expected documentation to establish
compliance. Without that training, they could contribute to delays in the
resolution process by failing to submit complete corrective action
documentation or by challenging findings unnecessarily, both of which are
factors that we determine hinder the timeliness of the Review Panel. (See
our analysis of Review Panel timeliness in Finding III, page 62.)

      Separately, our analysis of QAS audit trends in Finding II reveals
trends that impact significant aspects of laboratory operations, such as
chain-of-custody records and evidence storage and security. (See page 48
for additional detail.) The trends further emphasize the need for the FBI to
ensure that all key members of the CODIS community, including CODIS
administrators, are fully trained in compliance with the QAS.

      We therefore conclude that by ensuring that administrators participate
in the QAS auditor training, state and local laboratory compliance can be


       15
           The FBI’s audit document is both an audit guide and a record of the standardized
interpretation of the QAS as developed by the FBI’s Scientific Working Group on DNA
Analysis Methods (SWGDAM), the organization that is entrusted with the maintenance and
oversight of the QAS. SWGDAM includes representatives from federal, state, and local
forensic laboratories.

                                          - 17 -
improved and the workload of both the administrators and CODIS Unit staff
can be reduced.

      FBI Responsiveness. We asked a series of questions (numbers 6
through 11) to determine how responsive the CODIS Unit has been to
members of the CODIS community. According to administrators, the
timeliness and helpfulness of FBI CODIS Unit staff is not a significant
problem, although we noted from the overall results of the survey that there
is room for continued improvement. For example, we determined that 20
respondents made a total of 28 comments regarding the FBI’s slow response
time and its inaccessibility. Those comments drew attention to various
issues that, if addressed, could improve the CODIS Unit’s responsiveness.
According to these respondents:

   •   The CODIS Unit is understaffed, contributing to the delays in
       responses to the CODIS community.

   •   The CODIS Unit does not currently track requests for information.
       Tracking could be done using a system similar to the one used when
       CODIS participants contact the CODIS system help desk.

   •   The CODIS Unit should organize its staff and use written guidance to
       improve responsiveness. For example, the CODIS Unit could have
       resident points of contact on specific topics that would enable CODIS
       participants to submit their questions on those topics to the
       appropriate person within the CODIS Unit. Alternatively, the CODIS
       Unit could use its intranet website to offer frequently asked questions
       that could have relevance to other labs (thereby reducing information
       requests), or have on-line information request forms that could be
       forwarded to the appropriate person. 16

       Our analysis of unit staffing confirms that understaffing of the CODIS
unit is an important issue (see page 29). Further, without some means of
tracking information requests, the FBI cannot ensure that it responds to all
requests in a timely fashion. Finally, by identifying topic-specific points of
contact and enhancing information sharing through the CODIS intranet, the
CODIS Unit can improve its responsiveness to the CODIS community.



       16
           The FBI uses the Criminal Justice Information Systems Wide Area Network (CJIS
WAN) to facilitate each laboratory’s access to the CODIS system. When CODIS participants
log on to the system through the CJIS WAN, they access the CODIS intranet website that is
accessible only to CODIS users and that serves as a resource for system assistance, forms,
guidance, and notices.

                                          - 18 -
       Profile Allowability. NDIS Participation Requirements specify the
restrictions for profiles that are permissible for inclusion in NDIS. We asked
a series of questions (numbers 12 through 20) to assess the level of
administrators’ understanding of those restrictions and their ability and
confidence to apply that understanding in determining whether a specific
profile was permissible, or allowable, for inclusion in NDIS. Results indicate
that administrators are knowledgeable and confident in determining profile
allowability as a routine part of their duties. However, the survey results
also indicate that administrators lack confidence in whether there is
consensus in the CODIS community about what is allowable and in the
compliance of other laboratories in submitting only allowable profiles.

      The survey results indicated that administrators did not identify
themselves as solely responsible for making sure casework profiles are
uploaded in compliance with NDIS requirements. As shown in Figure 7,
analysts and reviewers were identified as the responsible official almost as
often as administrators.

                Figure 7 – Results of Survey Question 12

         In your laboratory, who is ultimately responsible for
         ensuring casework profiles are uploaded per NDIS
         requirements?

                      5%                        Analyst
                             12%
                13%                             CODIS Administrator

                                                Analyst & Reviewer


              26%                41%            All

                                                Analyst & CODIS
                                                Administrator
         Source: Responses from 144 CODIS administrators

      On-going guidance on profile allowability is provided primarily to
CODIS administrators during national CODIS meetings where profile
allowability scenarios are discussed in an open forum. The discussion
sessions serve as a source of helpful guidance and clarification on profile
allowability, as emphasized by the number of comments to this effect from
survey respondents. However, not all analysts and CODIS users attend each
national meeting. Conversely, as shown in Figure 7, only 41 percent of

                                      - 19 -
administrators are solely responsible for ensuring that profiles uploaded to
NDIS are suitable for inclusion. Therefore, we believe this same guidance
may not be communicated to the responsible staff in each CODIS laboratory.
We conclude that the FBI needs to take steps to ensure that all CODIS users
are provided the same guidance that is given at national meetings regarding
profile allowability. Such steps could include enhancing the information
sharing of the CODIS intranet, through scenarios or decision-trees accessible
to all CODIS users.

      The CODIS Unit Chief told us that all CODIS users are required to sign
the profile allowability certification form, which specifies that they know and
understand NDIS procedures governing allowability of profiles. However,
since the FBI does not verify that those forms are completed as required,
the FBI cannot totally rely on those certifications to ensure that all CODIS
users who make profile allowability decisions are receiving the necessary
guidance to ensure compliance. 17

      In addition, we observed that administrators primarily view a person,
rather than a law, policy, or other form of written guidance, as their primary
source on profile allowability matters. For example, respondents were asked
in question 19, “If a member of your DNA laboratory has a question
regarding whether a profile is allowable for upload to NDIS, who or what
would be their most likely source for clarification?” Respondents could offer
more than one reply. Out of 143 responses, as all or part of their answer,
111 respondents cited “CODIS Administrator in their laboratory” as a source
of guidance; 27 respondents cited “CODIS Administrator Handbook”; and
another 27 respondents cited “CODIS administrator in another laboratory.”
These responses primarily identify a person, rather than a formal written
document, as the source of guidance for the staff within their laboratory.

       Also, the following results for questions 16a through 16c primarily
indicate a person rather than a document as the final authority on what
profiles are uploaded to CODIS, as shown in Figure 8.




       17
           For more information on completion of the user certification forms, see the results
of the trend analysis of OIG CODIS laboratory audits in Finding II and our analysis of
corrective action in Finding III.

                                           - 20 -
Figure 8 – Results of Administrator Survey Question 16a – 16c


         Question 16a: Who or what is the final authority on what
                    profiles your lab uploads to LDIS?

   National Representative

   State Representative




                                What or Who
   Local Representative

   National Law or Policy

   State Law or Policy

   Local Law or Policy
                                       0%      20%      40%        60%   80%
 Note: Multiple responses permitted                  Percentages
Source: Responses from 119 CODIS administrators



          Question 16b: Who or what is the final authority on what
                     profiles your lab uploads to SDIS?

   National Representative

   State Representative
                                 What or Who




   Local Representative

   National Law or Policy

   State Law or Policy

   Local Law or Policy                    0%   20%       40%       60%   80%

 Note: Multiple responses permitted                  Percentages

Source: Responses from 129 CODIS administrators




                                - 21 -
                      Question 16c: Who or what is the final authority on what
                                profiles your lab uploads to NDIS?

              National Representative




                                            What or Who
              State Representative

              Local Representative

              National Law or Policy

              State Law or Policy

              Local Law or Policy                    0%   20%        40%          60%

                                                             Percentages
            Note: Multiple responses permitted

           Source: Responses from 133 CODIS administrators

     We believe the FBI must take steps to ensure that the NDIS
community relies on written law or policy to ensure consistent and thorough
compliance with the NDIS requirements, for consistency, reproducibility, and
minimization of human error and subjectivity. See the section on “FBI
Guidance” results on page 26 for additional discussion of written guidance.

       Laboratory Quality. We asked CODIS administrators to comment on
the operational quality of their laboratory and other laboratories with which
they are familiar (questions 21 through 23). Respondents rated their own
laboratory’s quality, as well as the quality of their laboratory in relation to
others, fairly high. However, 8 percent of respondents stated that they were
aware of a CODIS laboratory operating with what they believed to be a
material weakness. Their comments revealed that they identified issues that
included the inherent limitations of one-person DNA laboratories, uninvolved
off-site technical leaders, laboratories that upload profiles that have not
been fully reviewed, and laboratories that emphasize quantity over quality.
According to our discussions with the CODIS Unit Chief and the chairperson
of SWGDAM, these weaknesses are already known and are being considered
in conjunction with on-going revisions to the QAS. 18 However, we
recommend continued attention to these material weaknesses.


      18
          The QAS are revised by SWGDAM through a formal process requiring discussion
and approval at several administrative levels and overall consensus by key members or
organizations within the DNA community.

                                           - 22 -
       CODIS Operations. We asked administrators to assess various aspects
of CODIS operations (questions 24 through 29). The CODIS administrators
made it clear through their responses that the overall sentiment regarding
general CODIS operations is positive. Specifically, we found that the CODIS
contractor, the CODIS software, and the FBI’s current management of
CODIS all received high marks from respondents, and that administrators
felt there had been a fair measure of improvement in the FBI’s management
of CODIS under the current CODIS Unit Chief’s leadership.

     Further, respondents identified what they believe to be the most
important successes of CODIS:

  •   crime-solving and prevention;

  •   system benefits (for example, information management, system
      capabilities, and software enhancements and upgrades);

  •   community assistance (for example, grants, national meetings,
      training, legal assistance, and the help of the CODIS Unit staff); and

  •   communications and connections (including a national and
      international network of laboratories and the CODIS website).

      Respondents also identified what they believe to be the greatest
challenges to CODIS in the next 5 years:

  •   expansion and change (particularly legislated expansion and resulting
      changes);

  •   resource limitations (including backlogs);

  •   profile integrity (including confusion regarding profile allowability,
      consistency in what is uploaded to CODIS, and quality control of the
      data); and

  •   system operations (including capacity of the system, computer
      security, and continuity of operations).

      NDIS Audit Review Panel. In order for a laboratory to meet the QAS
requirement for a biannual external QAS audit, the audit must be conducted
using the FBI’s approved audit document by QAS auditors that have




                                    - 23 -
successfully completed the FBI’s auditor training. 19 The FBI further requires
that these external QAS audits be submitted to the NDIS Audit Review
Panel. The CODIS Unit oversees the Review Panel, a group of volunteer
members of the DNA community and FBI staff members who meet specific
professional criteria. The Review Panel reviews all external QAS audits
conducted in NDIS-participating laboratories across the country, with the
purpose of ensuring consistent and thorough application of the QAS and
appropriate and complete corrective action.

       We asked a series of questions (numbers 30 through 35) designed to
provide insight into what experience the CODIS administrators have had
with the Review Panel process, and what their comments are regarding the
Review Panel’s accomplishment of its purpose. As shown in Figure 9,
overall, respondents who have experience with the Review Panel process
feel that it has improved compliance with the QAS.




      19
        We use the term “QAS auditors” to refer to the DNA scientists within the DNA
community that perform audits of compliance with the FBI’s QAS.

                                         - 24 -
        Figure 9 – Results of Administrator Survey Question 30 20

      Do you believe the NDIS Audit Review Panel has improved community
      compliance with the QAS? [Check all that apply]




                                                               13%
                         34%             48%
                                                               9%
                                       Total
                                       Yes's                  26%

                           13%



                     Yes: Ensures consistency
                     Yes: Ensures corrective action
                     Yes: Ensures both of these
                     No: Still enforcing individual interpretations
                     Unsure

             Source: Responses from 141 CODIS administrators

      Those who did not believe the Review Panel had improved compliance
focused on the fact that individual interpretations of the QAS, rather than
standardized interpretations, occur within the DNA community.
Administrators also indicated that there has been improvement to Review
Panel timeliness but that additional improvement is needed. 21

      We found that 31 percent of the respondents with experience in the
Review Panel process stated that they had to supply additional corrective
action documentation after their original submission to the Review Panel
(question 33), which delayed the process for up to 6 months (question 34).
In addition, the responses to questions 30 and 31 indicated that a large

        20
            Note that this chart does not reflect the approximately 4 percent of
administrators who designated “Other” as their response, accompanied by an explanatory
comment.
        21
            We further address QAS auditor consistency under Finding II and audit panel
timeliness under Finding III.

                                         - 25 -
percentage (34 percent) of the CODIS administrators are not involved in the
Review Panel process. Yet, based on our observations, CODIS
administrators are the members of the NDIS community who often receive
the guidance disseminated at national meetings regarding the Review Panel
process and key factors in ensuring that a submission to the panel is
complete.

      We conclude from these responses that, by providing guidance to
pertinent laboratory staff on ensuring their initial submission to the Review
Panel is complete, one delay that undermines Review Panel timeliness can
be reduced. In presenting our conclusion to the FBI, the CODIS Unit Chief
stated that he understood our perspective. He subsequently asked the
attendees at the 2005 National CODIS Conference for the contact
information for the person in each laboratory who is responsible for the audit
resolution process. The CODIS Unit Chief further stated that he would use
these points-of-contact to develop a comprehensive mailing list to
disseminate guidance or information to the NDIS community regarding the
Review Panel process.

       FBI Guidance. Finally, we asked administrators to provide feedback on
various aspects of the FBI’s guidance to the CODIS community (questions 36
through 46). Respondents were fairly positive about the FBI’s guidance to
CODIS participants on compliance with the QAS and NDIS requirements.
Administrators’ perception of the FBI’s consistency in guidance was
moderate, but overall, they stated that inconsistencies had limited impact on
their ability to perform and comply with requirements. However, they
indicated concern about the FBI-developed QAS audit guide (commonly
referred to as the “audit document”) and the adequacy of the FBI’s guidance
on proper use of the audit guide, as shown in Figure 10.




                                    - 26 -
                   Figure 10 – Responses to Administrator
                         Survey Questions 38 and 39


     Question 38: Do you believe
     that the FBI’s audit document                16%
     enables an external QAS auditor
     to identify all of a laboratory’s                                       Yes
     quality assurance weaknesses?
                                                             58%             No
     140 responses, 33 supplemental           26%                            N/A
     comments




     Question 39: Do you believe the
     FBI has provided adequate
     training on the proper use of the                 17%
     QAS audit document to ensure
     that community QAS auditors                                         Yes
     are consistent and thorough in                          48%
     their assessment of compliance
                                                                         No
     with the QAS?                                35%                    N/A
     140 responses, 48 supplemental
     comments

     Source: Responses from 140 CODIS administrators

       In the supplemental comments submitted with the responses to these
questions, inconsistencies between QAS auditors were emphasized (as with
question 30 in Figure 9), as were inconsistencies between the QAS auditors
and other members of the DNA community. In addition, we determined that
throughout the survey, 83 respondents made a total of 161 comments on
inconsistencies in the way the QAS are interpreted within the DNA
community. These comments identified the need for increased and
improved training and improved guidance for all members of the CODIS
community. See Finding III for additional conclusions regarding auditor
training.

      In addition, 37 of the respondents made a total of 51 comments
regarding the need for the FBI to share information better by posting of
guidance on the CODIS intranet website, such as frequently asked questions

                                     - 27 -
and common audit findings. We reviewed the contents of the CODIS
website at one CODIS laboratory to assess the suggestions that were made
for additional content. We found that while the current website appears to
be a helpful tool for CODIS users, there are several ways that it could be
enhanced to provide better guidance. For example, the website needs
better tools for navigating the information it contains, such as a
comprehensive table of contents or index for NDIS procedures,
decision-trees for profile allowability, and a list of frequently asked questions
that direct CODIS users to the correct place within the NDIS procedures for
additional guidance on various subjects. In addition, we found that some of
the information on the website was not current (such as a list of upcoming
QAS auditor courses that showed no entries after January 2005), and
therefore was of no benefit. The FBI needs to ensure that the information is
updated regularly to further encourage CODIS users to view the CODIS
website as relevant and helpful to their daily activities.

      When we discussed these suggested changes with the CODIS Unit
Chief, he stated that the guidance the website already contains is not used
as much as it could be. He added that members of the CODIS community
often tell him that they are unsure of what NDIS procedures say, or that
they were unaware of a change that had been highly publicized within the
CODIS community months prior. We believe that while there may be those
in the CODIS community who are not using the CODIS website, this should
not prevent the FBI from making improvements to it to maximize the
opportunity to provide written, user-friendly, relevant, and comprehensive
guidance to the CODIS community.

       Overall Analysis. In reviewing the overall survey responses and
statements made by FBI management, we found that the FBI placed too
much reliance on verbal rather than written guidance in everyday
communications and in meeting discussions concerning the QAS and NDIS
requirements. For example, the CODIS Unit Chief commented that he gives
greater priority to phone rather than to electronic communications in
everyday responses to the CODIS community, and that he is hesitant to put
guidance in writing when dealing with a laboratory-specific situation. He
later clarified that answer by saying that he wants to avoid identifying
specific laboratories by name or situation. However, we believe that the
CODIS Unit Chief should attempt to use the interaction he has with
individual labs as a means of identifying where additional guidance to the
entire community is warranted. He could do this through the CODIS website
or other avenues, without identifying specific labs.

     Verbal communication is inherently more susceptible to
misunderstandings, misapplications, and inconsistencies. For example,

                                     - 28 -
administrators who responded to question 44b, which asked administrators
for possible causes of the inconsistencies in the FBI’s guidance to the
community, stated that perceptions shifting over time are primarily to blame
for the inconsistencies observed, something that does not occur with written
guidance. The FBI can increase the NDIS community’s reliance on written
guidance through simple practical means, such as the improvements to
information sharing previously suggested, documenting guidance given to
individual laboratories through written correspondence, and by
disseminating that guidance wherever applicable to the overall community.

       FBI management responded by saying that they view our conclusions
positively, and that our work will be very helpful in identifying ways in which
they can better assist the CODIS community, particularly the specific
suggestions for how they can improve handling of tools like the CODIS
website.


Inadequate CODIS Unit Staffing

      At the initiation of this audit in May 2005, the CODIS Unit was
comprised of five staff: the unit chief, three program analysts, and a
management assistant. An additional seven positions were vacant, two of
which had been filled pending completion of security clearances. To assess
the adequacy of Unit staffing, we requested and analyzed documentation
from the FBI to ascertain its past handling of CODIS Program staffing and to
determine its current efforts to fill the vacant positions in the CODIS Unit.


Historical Staffing

      We requested staffing information for the CODIS Program since 1997,
to assess the FBI’s previous efforts in staffing the Program. The information
we received revealed the following:

   •   In the approximate 6 years (August 1997 to October 2003) preceding
       the current unit chief, there were a total of six unit chiefs (some in an
       “acting” capacity) who oversaw CODIS operations. In our judgment,
       this rate of turnover in leadership undermines the ability of anyone to
       properly oversee the CODIS Program and also undermines the
       continuity needed for consistent interactions and guidance with the
       CODIS community.




                                      - 29 -
   •   Due to staff vacancies, the CODIS Unit Chief also currently functions
       as the NDIS Custodian and Program Manager. 22 That position has not
       been filled by a dedicated staff member since June 2001.
       Consequently, there has been a dedicated NDIS Program Manager for
       approximately 2.5 of the more than 7 years (October 1998 to
       November 2005) of NDIS operations, or roughly 37 percent of the
       time. According to the CODIS Unit Chief, no formal description
       currently exists that describes the NDIS Custodian duties.

   •   Over 4 years (June 2001 to August 2005) lapsed without a permanent
       employee to fill the position of CODIS Program Manager.

   •   Although CODIS and NDIS experienced dramatic growth since NDIS
       became operational in late 1998 through fiscal year (FY) 2004, there
       was a minimal increase in positions.

      However, beginning in February 2004, the FBI increased the CODIS
Unit staff by 7 positions, bringing its full staffing level to 12. In July 2004, a
business plan was submitted to FBI management requesting the creation of
two new position categories in the CODIS Unit for a total of four new
employees, including a paralegal specialist and three CODIS auditors. That
business plan was approved in early August 2004. The CODIS Unit's
FY 2005 full staffing level of 12 positions is allocated according to the
organization chart contained in Figure 11 on page 32.


Current Staffing

       The seven vacant positions in the CODIS Unit include both historical
positions as well as the new positions approved in August 2004. The current
CODIS Unit Chief, who assumed his position in November 2003, provided
the following details to demonstrate the progress made in staffing the CODIS
Unit.

       CODIS Program Manager Position. The CODIS Program Manager
position was an existing position that was vacant. In May 2004, the CODIS
Unit Chief requested that this position be advertised, which it was in June
2004. However, the posting was cancelled because of an error, and then
position was put on hold because of a new hiring process. The position was

       22
           The NDIS Custodian is the FBI employee responsible for ensuring NDIS is
operated in compliance with the DNA Identification Act, the Privacy Act, the NDIS
Memorandum of Understanding between the FBI and participating laboratories, and all other
relevant legislation or regulations. The NDIS Program Manager serves as the NDIS
Custodian and also oversees other aspects of NDIS operations.

                                         - 30 -
not reposted until November 2004. A selection was made in February 2005,
the necessary background clearance was completed, and the new CODIS
Program Manager reported to duty August 22, 2005.

       NDIS Program Manager Position. Another of the existing vacant
positions, the NDIS Program Manager, was advertised for 2 weeks in March
2005 and again for 2 weeks in July 2005. No one applied for the March
posting, and no applicants with the required experience applied for the July
posting. No further action had been taken as of December 2005.

       CODIS Auditor Positions. The CODIS auditor positions were approved
as new positions within the FBI on August 6, 2004, and were advertised the
first 2 weeks of December 2004. From the applications received, only one
applicant was considered qualified based upon the position criteria and that
person was selected for the position on March 24, 2005. The background
clearance needed to allow this person to report to duty was still pending as
of December 2005. To fill the remaining two auditor positions, the CODIS
Unit Chief requested re-advertising the positions in May 2005 but the FBI did
not repost them until November 2005.

      Paralegal Specialist Position. The FBI approved the new paralegal
specialist position on August 6, 2004 but did not post the position until May
2005. The FBI selected an applicant in September 2005, but the
background clearance for that person was pending as of December 2005.

      The FBI has not taken any action on the National Missing Persons
Program Manager position. In addition, as of the end of September 2005,
one of the three program analyst positions was vacated. The FBI posted
that position in December 2005.

       In summary, as of December 2005, one clearance was completed and
the new staff member reported to duty (CODIS Program Manager). In
addition, one position was vacated (program analyst) and another two filled
pending clearance (CODIS auditor and paralegal). Consequently, the
staffing status in December 2005 was the same as it had been in May 2005,
with a total of five positions filled, two positions pending clearance, and five
positions vacant. Figure 11 reflects the total positions assigned to the
CODIS Unit, and the status of those positions as of December 2005.




                                     - 31 -
                     Figure 11 – CODIS Unit Organization Chart
                                as of December 2005


                                   Unit Chief




                     Management
                      Assistant



  National Missing       CODIS Program                               NDIS Program
  Persons Program             Manager                              Manager/Custodian
  Manager, Vacant       Filled August 2005                              Vacant




                         Program Analyst                CODIS Auditor            Program Analyst
                             Vacant                   Clearance Pending




                                                       CODIS Auditor             Program Analyst
                                                          Vacant



                                                                                Paralegal Specialist
                                                       CODIS Auditor            Clearance Pending
                                                          Vacant


Source: FBI CODIS Unit management



Conclusion

       In the several years preceding 2004, the FBI failed to staff the CODIS
Unit commensurate with growing demands and participation and thereby put
at risk the ability of CODIS staff to properly oversee and administer the
CODIS Program. However, in 2004, FBI management took action to
increase CODIS staffing and provide a sufficient number of program
manager positions, including a CODIS Program Manager, an NDIS Program
Manager (Custodian) and a National Missing Persons Program Manager.




                                             - 32 -
       Yet, progress in staffing these positions has been slow. Our results at
the unit level are similar to the findings in the report of the National
Academy of Public Administration (NAPA) on the FBI's management of
human capital. 23 For example, the NAPA report cites the lack of a
comprehensive leadership development plan for subordinate levels of
management, which we found in the historical handling of the manager
positions for the CODIS Program. Further, the NAPA report states that the
process to hire all other types of personnel is cumbersome, costly, and
untimely, and that hiring plans are inadequate. We noted similar issues for
the CODIS Program in both the historical staffing data, as well as the current
staffing data. For example:

   •   Of the four new positions approved for the CODIS Unit in August 2004,
       the FBI had made selections for only two positions (a CODIS auditor
       and the paralegal specialist) as of December 2005, approximately
       16 months later. Both of these positions were pending background
       clearances (the clearance processes initiated in April and September
       2005, respectively) at that time.

   •   Of the four new positions, it took over 9 months from the time one of
       them was approved (August 2004) to the time it was advertised (May
       2005). It took approximately 4 months from the time the remaining
       three positions (CODIS auditors) were approved to the time they were
       advertised.

   •   The NDIS Program Manager, a position that existed previously and
       was reaffirmed with the February 2004 allocation, was not advertised
       until March 2005, and was re-advertised in July 2005, with no success
       for either advertisement and no further action taken as of December
       2005.

       Although the FBI has taken steps to provide increased staffing levels
for the CODIS Unit, attention now needs to be given to filling those
positions. According to our analysis of trends in the OIG CODIS laboratory
audits (see Finding II), most of the findings noted pertain to compliance with
NDIS requirements, which demonstrates the need for an NDIS Program
Manager. Further, according to the CODIS Unit Chief and CODIS contractor
staff overseeing changes to NDIS Procedures for the FBI, FY 2005 brought
more changes to NDIS procedures than has occurred in a single year
previously. In our judgment, the FBI must give immediate attention to the
NDIS Program Manager position, in light of the need for rigorous ongoing

       23
           National Academy of Public Administration. Transforming the FBI: Roadmap to an
Effective Human Capital Program (2005).

                                         - 33 -
oversight of the NDIS community's compliance with, and the maintenance
of, the NDIS participation requirements. 24


Additional Performance Measurements Needed

      The Government Performance and Results Act requires agencies to
develop strategic plans that identify their long-range goals and objectives
and to establish annual plans that set forth corresponding annual goals and
indicators of performance. 25 Accordingly, we asked FBI officials to provide
us with the documents necessary to assess the CODIS Unit’s goals,
objectives, and indicators of performance.

      After the CODIS Unit was established in June 2003, FBI management
decided to reassess the mission, goals, and objectives of the CODIS
Program. In September 2004, Laboratory Division management approved
the resulting mission, goals, and objectives. According to the revised
mission statement, the CODIS Unit is responsible for: (1) developing,
providing, and supporting CODIS to federal, state, local, and international
law enforcement agencies; (2) managing CODIS and NDIS, including
providing administrative support to the NDIS and DNA-related committees
and groups and telecommunications support to CODIS participants; and
(3) implementing the requirements of the DNA Identification Act of 1994,
through creation and management of standards, assistance with
DNA-related legislative initiatives, and coordination with DNA-related
auditing organizations.

        To accomplish this mission, the CODIS Unit has one primary goal: to
facilitate the use of DNA technology in assisting the criminal justice
community in solving crimes. To achieve that goal, the CODIS Unit outlined
eight objectives:

1.     Expand the number of states participating in the National DNA Index
       System to include all 50 states.

2.     Encourage states to expand coverage of their state DNA databases to
       include all felony offenders and misdemeanor sexual offenders.


       24
           We use the term “NDIS participation requirements” to capture all requirements
with which an NDIS participating laboratory must comply, including the MOU for
participation and the NDIS procedures. See further details of this criteria in Appendices III
and IV.
       25
            Pub. L. No. 103-62 (1993).

                                           - 34 -
3.     Develop and implement a missing persons and mitochondrial DNA
       database at the national level. 26

4.     Enhance training and information available to CODIS users.

5.     Enhance awareness of the CODIS Program within the criminal justice
       community.

6.     Expand the CODIS Program both domestically and internationally,
       through the Legal Attaché Program.

7.     Ensure administration of NDIS in accordance with applicable federal
       laws and regulations.

8.     Continue to develop CODIS software as a means to assist in the
       identification and capture of international terrorists.

      Of these eight objectives, only two relate to finite tasks that can be
accomplished at a point in time (numbers one and three). We were able to
determine from information provided to us that these tasks have been
accomplished. To address the on-going objectives, the CODIS Unit
maintains a record of actions necessary to accomplish the objectives in a
document titled “Implementing Actions.” These actions, which are specific
and numerous, reflect current and planned actions. The actions also appear
to be appropriate and sufficiently detailed to allow CODIS Unit management
to address the objectives in an on-going manner.

      The FBI has established performance measurements, setting targets
for each year and then comparing actual accomplishments to those targets.
Those measurements are: (1) investigations aided, (2) CODIS matches,
(3) NDIS-participating labs, (4) CODIS users trained, (5) NDIS-participating
states, (6) offender profiles in NDIS, and (7) forensic profiles in NDIS.
These measurements are cross-referenced with strategic plan goal numbers
or areas and categories that track to the Laboratory Division’s other
management documents. Figure 12 captures data provided to us by the FBI
for the CODIS Unit’s performance measurements, including the goals for FYs
2003 through 2006, and the actual achievements for FYs 2003 through
2005.



       26
          Mitochondrial DNA is small circular DNA that is inherited maternally, and is found
outside the nucleus in most cells. Mitochondrial DNA is more robust than nuclear DNA, but
does not have the same power of discrimination, since all maternal relatives share the same
mitochondrial DNA.

                                          - 35 -
Figure 12 – CODIS Unit Performance Data, FY 2003 – FY 2006 27

                                           Goals or Expectations
                                 FY2003    FY2004      FY2005     FY2006
NDIS Laboratories                      175        175         177      177
CODIS Users Trained 28                 750        935      1,029     1,143
States Participating in NDIS            50         50         N/A      N/A
NDIS Forensic Profiles             106,000     87,823    102,313   156,000
NDIS Offender Profiles           1,500,000  1,770,000 2,227,408 3,400,000
Investigations Aided                 3,652      3,454      3,454    10,000
CODIS Matches                        3,855      3,695      3,695     9,800

                                                    Actual
                                        FY2003    FY2004    FY2005
       NDIS Laboratories                      175       175        177
       CODIS Users Trained                    836       949      1,041
       States Participating in NDIS            48        50        N/A
       NDIS Forensic Profiles              71,837   100,959    131,111
       NDIS Offender Profiles           1,559,364 1,976,573  2,691,786
       Investigations Aided                 4,202     9,758      9,650
       CODIS Matches                        4,239     6,825      9,451
       Source: CODIS Unit management in December 2005

      According to the data in Figure 12, the CODIS Unit has generally
achieved or exceeded its goals. Further, we determined that the CODIS Unit
Chief has taken steps to ensure the measurement information is accurate,
including creating a new baseline for investigations aided and CODIS
matches in 2004 by querying all states for confirmed data.

      Overall, the combination of documents we reviewed appear to capture
the mission, goals, objectives, strategies, and performance measurements
for the CODIS Unit and also appear to be interlinked in a way that allows
them to be meaningful and measurable.

       However, we identified three activities, which are not reflected in the
CODIS Unit’s performance measurements but that are an essential part of
the Unit accomplishing its mission: (1) auditing of NDIS data; (2) providing
training on QAS compliance; and (3) overseeing the activities of the Review
Panel. The three activities comprise the CODIS Unit’s primary means of

       27
           The following categories include cumulative totals: (1) CODIS Labs, (2) Users
Trained, (3) States Participating, (4) Forensic Profiles and (5) Offender Profiles. The
following categories include yearly totals: (1) Investigations Aided and (2) CODIS Matches.
       28
          CODIS User training provides users, particularly new users, with training in how
to use the CODIS system and software.

                                          - 36 -
monitoring and assisting NDIS-participants’ compliance with the QAS and
verifying the integrity of NDIS data. The activities are currently performed
on behalf of the CODIS Unit by FBI Laboratory staff outside it. Since they
also serve a crucial role in the CODIS Unit’s interaction with the NDIS
community, the activities should be formalized and clearly reflected as the
CODIS Unit’s responsibilities in its objectives and performance
measurements. These activities are discussed in the following sections.


Integrity of NDIS Data

       Currently, as part of the corrective action measures implemented in
response to our previous audit of the CODIS Program, FBI staff who perform
quality assurance audits at CODIS participating laboratories also review the
CODIS profiles uploaded from the cases they review (generally, three to five
case files are reviewed for each active DNA analyst in the laboratory). The
profiles are reviewed for completeness, accuracy, and allowability. These
reviews will continue more systematically once the CODIS Unit auditor
positions are filled. 29 However, there is no objective tracking mechanism or
performance measurement to capture this activity and the role that it is
intended to play in allowing the CODIS Unit to address the requirement to
verify the compliance of NDIS data with applicable federal laws and
regulations. We believe this activity should be reflected with both projected
and actual measurements, as well as in the objectives and implementing
actions maintained by the CODIS Unit.


Compliance with the Quality Assurance Standards

      The DNA Analysis Unit I (DNAUI) has been conducting quality
assurance auditor training courses on behalf of the CODIS Unit. The primary
focus of these courses is to ensure a consistent understanding of the QAS
and consistent application of the FBI's audit document. A second important
function of the courses is to instill an understanding of the principles and
objectivity surrounding auditing.

       No performance measures or targets have been established for this
activity, even though it requires a substantial amount of effort from DNAUI
staff. As of November 2005, over 950 QAS auditors had been trained in
these courses. 30 The DNAUI Chief, who currently oversees this training,

      29
        Since the policy requiring FBI QAS auditors to review NDIS profiles was
implemented in June 2004, there have been only three instances of these reviews occurring.
      30
           Additional analysis of the QAS auditor training is contained in Finding III.

                                             - 37 -
estimates that when preparation, travel, and time used to respond to
questions from the DNA community are included with actual classroom
instruction time, approximately 20 to 25 percent of the work year for two
staff members is devoted to managing this function for the CODIS Unit. The
DNAUI Chief pointed out that in addition to lacking performance
measurements for this activity, there is an overarching need for FBI
management to formally recognize this activity and the resources it needs.
For instance, the course needs to have staff, a travel budget, resources to
develop web-based instruction tools, and funding for invited guest speakers.
The DNAUI Chief stated that formalizing this activity would allow the FBI to
conduct training in a more effective manner by bringing improvements to
the instructional process and by delivering a more uniform product across
the board.

        In addition, one of the staff in the DNAUI who is involved in the QAS
auditor training also serves as the chairperson for the NDIS Audit Review
Panel, a panel of members from the DNA community that reviews the QAS
audits completed in NDIS-participating laboratories. 31 The Review Panel was
created in response to findings in a previous OIG audit and serves as a
means for the FBI to ensure consistent and thorough application of the QAS
in laboratories across the country that participate in NDIS. 32 The Review
Panel processed over 100 audits in 2004 and received another 80 for
processing in 2005. The Review Panel chairperson must assess the records
for each audit that are received by the FBI, distribute the audits to Review
Panel members, consolidate their comments, follow up on any questions or
requests for information with the auditee, and document the resolution of
each audit. Substantial effort is required by the Review Panel chairperson to
facilitate this activity on behalf of the CODIS Unit. While the Review Panel
process is a crucial component of the FBI’s confirmation of
NDIS-participating laboratories’ compliance with the QAS, this activity is not
reflected in the performance measurements or objectives for the CODIS
Unit.

      We believe that FBI management should include these activities under
the CODIS Unit’s responsibility and strategic planning process (including
objectives and measurements). For example, in our analysis of the FBI’s
QAS auditor training and the Review Panel process reflected in Finding III,
we make recommendations for improvements to be implemented by CODIS
Unit management. We do not believe that these activities must be

      31
          Panel members must be qualified or previously qualified DNA examiners or
analysts who have successfully completed the FBI’s training on the QAS Audit Document.
      32
           Additional analysis of the NDIS Audit Review Panel is covered under Finding III.



                                           - 38 -
conducted by CODIS Unit staff, but we recommend that the CODIS Unit
management have the authority to make changes and track performance for
these activities which is commensurate with its legislated role of oversight.

      While the current performance measurements for the CODIS Unit
appear to be reasonable and meaningful, we believe that the three activities
we identify should be formalized under the CODIS Unit’s responsibility and
included in its objectives and measurements to fully reflect the Unit’s efforts
to address its mission.


Current Progress on CODIS Infrastructure

      When we began our audit in May 2005, the FBI informed us that
CODIS contractor activity, including the maintenance and operation of the
CODIS system and software, was operating under a series of extensions to a
contract awarded in 1997. In our judgment, the continued use of contract
extensions for that length of time, without a re-evaluation of the needs of
the system or the performance of the contractor, constituted a risk to the
CODIS Unit’s ability to provide for the long-term planning and development
of the CODIS system. Based upon this information, we collected and
assessed documentation on how CODIS Unit management oversees the
CODIS infrastructure, including general operations, enhancements and
development, and security and safeguards. 33


Current Operations and Maintenance

       The contractor for CODIS operations is the Science Applications
International Corporation (SAIC), which the FBI has used for previous CODIS
operational contracts. In FY’s 1990 through the final contract extension that
ran through November 2005, the FBI paid SAIC approximately $71 million
for its work on CODIS. During our audit, the CODIS Unit Chief provided us
with a copy of that final extension. We determined that it covered not just
current operations and maintenance of CODIS, NDIS, and the FBI's SDIS
site under SAIC, but also arranged for the relocation of the NDIS site to the
FBI’s Quantico, Virginia, laboratory and the implementation of the one-time
search authorized by the Justice for All Act of 2004.

     In addition, in June 2005, the FBI Contract Review Board decided to
authorize a new contract solicitation that would cover the operations and

      33
          We did not perform a system-wide test or review of computer security controls.
Our data reflects the information conveyed to us by the FBI.



                                          - 39 -
maintenance of CODIS once the latest contract extension expired. The
Board approved the competition for a 1-year award with four additional
1-year options. Proposals from bidding contractors were due in August
2005. The contract solicitation spelled out the tasks that should be
accomplished by the contractor, the specific deliverables, and the security
restrictions that should be expected and imposed on the contractor. Some
of the tasks included:

   •   task management and general support;

   •   maintenance and support of the FBI’s systems;

   •   CODIS operational support;

   •   technical support; and

   •   corrections and enhancements.

The FBI awarded this contract to SAIC in September 2005. If all options are
exercised, the operations and maintenance will be covered through
September 2010.

       We also obtained feedback about the FBI's contractor through the
survey we conducted of CODIS administrators (see Appendix VII, question
26). The average response to our question about the contractor's overall
performance was a 4.5 on a scale of 1-5 (with 5 being excellent), which is a
positive response of SAIC’s performance.

      In addition, according to the new CODIS Program Manager, the CODIS
Unit will be actively seeking input from the CODIS community on whether
the SAIC help desk staff is adequate to meet the community's needs. Such
feedback will be crucial, because under the operations and maintenance
contract, SAIC will not be performing the scope of activities that it was under
the previous contract, and the help desk will be the main tool for providing
service to the CODIS community.


Implementation of Legislated Expansions

      The Justice for All Act, signed into law on October 30, 2004, authorized
the addition of an NDIS index for DNA profiles of indicted persons and the
use of a one-time search of profiles that were not previously permitted for
storage in NDIS against NDIS databases.



                                    - 40 -
      The FBI has made changes at the NDIS level to add the indicted
persons index. In addition, we asked the CODIS Unit Chief about the
implementation of the one-time search provision. He stated that direct
keyboard access to NDIS is not currently possible at LDIS or SDIS sites.
Rather, in order to comply with the Justice for All Act, CODIS State
Administrators in November 2004 agreed to a manual or batch one-time
search implementation. In May 2005, the CODIS Unit published a
procedure governing the searches that specifies the type of documentation
that must be maintained by the states, the certifications required to
complete a search, and the rules for which profiles can be searched against
which databases.

      Two states began completing these searches on a test basis, and with
the distribution of an updated software version in November 2005, all CODIS
laboratories have the capability to complete the one-time searches. The
new CODIS software provides an automated mechanism for local
laboratories to create one-time search files and send them to their state
laboratories and then to NDIS. The CODIS software also currently allows for
the designation of appropriate specimen categories and tracks which
samples have already been searched, to preclude the searching of a sample
more than one time, in accordance with the federal legislation. This process
was demonstrated at a national CODIS meeting by staff of
NDIS-participating laboratories.

      Consequently, the primary aspects of the Justice for All Act have been
functionally implemented. We note that this implementation took
approximately 1 year, and included safeguards to prevent improper searches
from occurring. 34


Further Development of CODIS

      According to the CODIS Unit Chief, the FBI’s Contract Review Board
determined that the development portion of the CODIS contract should be
handled separately from operations and maintenance. Consequently, the
CODIS Development Contract will be awarded with FY 2006 funding, with
the request for proposal expected to be announced in the spring of 2006.
The development contract will focus on, among other things, developing
kinship analysis for missing persons capability.


       34
          As a result of the DNA Fingerprint Act, signed into law in 2006, one-time searches
have been eliminated because many of the profiles that could have been searched using
that provision can now be added directly to NDIS for routine searches.



                                          - 41 -
       In addition, an independent assessment looked at the ability of the
current CODIS architecture to support the Justice for All Act and also at the
need for expanded data storage due to the incorporation of additional DNA
profiles. 35 Findings from that assessment will be considered in developing
the solicitation for bids for the development contract. Of immediate import,
the independent assessment determined the Justice for All Act could be
implemented and operate over the next 3 to 5 years without exceeding
capacity of the current CODIS architecture.


Safeguards for NDIS data

      The FBI Security Division certified and accredited CODIS in
March 2005 and granted a 3-year certificate of operation. The certification
and accreditation process involves detailed analysis of the components and
purpose of a system and the necessary safeguards to ensure its secure and
successful operation. Therefore, the CODIS system’s certificate of operation
provides a measure of assurance that the technology and security have been
properly scrutinized.

      In addition, the FBI stated that the CODIS data is safeguarded in
accordance with a system security plan – all servers are routinely backed up,
systems can be restored using established back-up procedures and tapes,
and additional back-up tapes are stored off-site. Also, the FBI has
established a continuity of operations location at an FBI facility. The site will
duplicate the NDIS site located in the FBI Laboratory and will allow
continued service to the CODIS community in the event of a disaster.

      Further, the FBI moved NDIS operations to the FBI's Quantico,
Virginia, facility for security and enhancements. According to CODIS Unit
management, the move was completed successfully using detailed
specifications for stating what equipment needed to be moved and then
moving it, and testing the system before and after the move was completed.
Also, during that move, the NDIS hardware was upgraded, to include built-in
redundancy that has resulted in faster searches.




       35
          This assessment was performed by the MITRE Corporation, a not-for-profit
organization chartered to work in the public interest. MITRE possesses expertise in systems
engineering, information technology, operational concepts, and enterprise modernization.
MITRE also manages three federally funded research and development centers.

                                          - 42 -
Internal Controls over NDIS Searches

       In general, the NDIS system is designed to only allow cross-searches
of certain types of profiles, in keeping with legislated restrictions. For
example, relatives of missing persons profiles can only be searched against
unidentified human remains profiles, not against forensic or offender
profiles. The NDIS procedures clearly document the limitations in place for
how the NDIS databases are searched. These limitations exist only at the
NDIS level. For SDIS and LDIS, state and local laboratories are permitted to
set the parameters for searching profiles at each level, based upon the state
or local laws that govern those activities.

      We also determined that the FBI had implemented system safeguards
to ensure that NDIS-participating laboratories were performing one-time
searches in accordance with the Justice for All Act, specifically preventing
unallowable repeat searches from occurring. 36 However, the DNA
Fingerprint Act, signed into law in 2006, eliminated the need for one-time
searches because any profiles that could have been searched using that
provision can now be added directly to NDIS for routine searches.


Conclusion

      The FBI has taken measures to provide for the operations,
maintenance, and security of the CODIS system for the near future, by
providing the following:

   •   a dedicated program manager to oversee CODIS operations and
       contract management;

   •   a contract in place with a company that has a documented ability to
       handle CODIS operations in a satisfactory manner;

   •   a continuity of operations plan and site, to ensure service to the
       CODIS community in case of disaster; and

   •   upgraded hardware capabilities and physical security enhancements
       through moving the system to the Quantico, Virginia, FBI Laboratory
       facility.



       36
          As stated previously, the Justice for All Act allowed a one-time search of certain
DNA profiles, which were not allowed to be stored in NDIS, against NDIS databases.



                                           - 43 -
       However, continued progress is needed to ensure that the
development contract process is completed as planned and that the
development contract awarded allows for continued responsiveness to
legislated changes to CODIS operations.

Recommendations

We recommend that the FBI:

1.   Develop and implement a plan to ensure that all CODIS administrators
     attend the FBI QAS auditor training.

2.   Improve information sharing through enhancements to the CODIS
     website, considering the suggestions made by the community and
     implementing them wherever practicable. Particular attention should
     be given to assisting viewers in finding all guidance available on a
     topic and to using the website as a means of posting broadly
     applicable questions received from laboratories throughout the CODIS
     community and the relevant answers.

3.   Distill profile allowability guidance, including scenarios that are
     discussed at national meetings, into a decision-tree or other written
     user-friendly guidance and disseminate that information to all CODIS
     users. As other scenarios are posed individually, develop an electronic
     library with situations and explanations that can be accessed by all
     CODIS users, where appropriate.

4.   Formally request that the Scientific Working Group on DNA Analysis
     Methods consider, as part of its maintenance of the QAS, the
     operational material weaknesses identified by the CODIS
     administrators, including: (1) the inherent limitations of one-person
     DNA laboratories, (2) uninvolved off-site technical leaders, and
     (3) laboratories that upload profiles that have not been fully reviewed.

5.   Ensure that guidance on submission of information to the NDIS Audit
     Review Panel is sent to those members of CODIS labs that are
     responsible for this activity.

6.   Develop and utilize a mechanism for tracking information requests that
     are received by the CODIS Unit to ensure a timely response.

7.   Develop communications policies that will allow the CODIS Unit to
     provide written guidance to members of the DNA community to the
     fullest extent possible.


                                   - 44 -
8.    Develop a staffing plan that identifies current hindrances to filling
      vacant positions in the CODIS Unit, potential solutions to those
      hindrances, and a timeline of requirements for action to fill those
      positions.
9.    Develop written descriptions of routine activities and responsibilities
      for current staff in the CODIS Unit, particularly those with multiple
      roles, and incorporate this information in a procedure manual for each
      position.

10.   Incorporate the three activities we identified that are performed on
      behalf of the CODIS Unit by other FBI personnel – auditing of NDIS
      data, providing training on QAS compliance, and overseeing the
      activities of the Review Panel – into the CODIS Unit’s objectives and
      measurements to fully reflect the CODIS Unit’s efforts to address its
      mission.

11.   Ensure the development contract process is completed as planned and
      that the development contract awarded allows for continued
      responsiveness to legislated changes to CODIS operations.




                                    - 45 -
II.    TRENDS AND VULNERABILITIES REVEALED THROUGH AUDIT
       RESULTS

       Based on our analysis of the results of OIG CODIS audits completed in
       FYs 2004 and 2005, as well as selected external QAS audits, we
       determined that: (1) the FBI’s internal controls over the proper
       upload of forensic profiles to NDIS are inadequate; and (2) the FBI is
       not tracking audit findings reviewed by the NDIS Audit Review Panel to
       detect common and overturned findings, and therefore is unable to
       ensure that QAS weaknesses or misunderstandings within the
       community are addressed. These weaknesses leave the FBI
       potentially vulnerable to undetected, inadvertent, or willful
       non-compliance by CODIS participants, and consequently could
       undermine the integrity of the CODIS Program.


Need for Additional Verification of Compliance with NDIS
Requirements

      The OIG CODIS laboratory audits were initially designed to support the
2001 OIG audit, The Combined DNA Index System, which included audits of
eight laboratories. Since then, the OIG has completed an additional
24 CODIS laboratory audits. (See Appendix V for a complete listing.) The
objective of these audits was to determine if the laboratories audited were in
compliance with standards governing CODIS activities. Specifically, we
performed testing to determine if the: (1) laboratory was in compliance with
the NDIS participation requirements; (2) laboratory was in compliance with
the QAS issued by the FBI; and (3) laboratory’s DNA profiles in CODIS
databases were complete, accurate, and allowable.

       Criteria used for these audits included the QAS issued by the FBI in
1998 and 1999; the NDIS Participation Requirements delineated in the
participation MOU; and OIG-developed standards for profile completeness
and accuracy, and timely response to CODIS matches. See Appendix IV for
further details of the audit criteria for these laboratory audits.

     Our analysis of trends generally focused on those audits completed in
FYs 2004 and 2005. 37 We included 18 audits in our review and identified
10 common findings. The findings were in three areas – compliance with
NDIS participation requirements, compliance with the QAS, and proper



       37
          In our analysis, we included two audit reports for audits completed in FY 2005
that were not issued until early FY 2006.

                                          - 46 -
upload of forensic profiles to NDIS. 38 Figure 13 details the common findings
we identified.

  Figure 13 – Finding Trends from 18 OIG CODIS Laboratory Audits

  Non-compliance         No.                          No.                                   No.
    with NDIS            of     Non-compliance        of      Improper Upload of            of
   Requirements         Labs       with QAS          Labs   Forensic Profiles to NDIS      Labs

 Annual reminder               Insufficient access          A profile matching the
 forms were not          6     restrictions to DNA    2     victim of the crime was         4
 completed.                    laboratory space.            uploaded.
 External QAS audit
                                                            Inaccurate profile
 reports were not
                         6                                  identification numbers were     2
 forwarded to the FBI
                                                            uploaded.
 in a timely manner.
                                                            Profiles were not obtained
                               Data integrity was                                           2
                                                            from crime scene samples.
                               not verified for
                                                      2     Profiles were unverified due
 Potential NDIS                outsourced forensic
                               samples.                     to laboratories’ poor           3
 matches were not
                         5                                  maintenance of case files.
 resolved in a timely
 manner.                                                    A profile matching a known
                                                            person who was not a
                                                                                            2
                                                            suspected perpetrator was
                                                            uploaded.
  Total Number of
                         17                           4                                     13
      Findings
Source: OIG analysis of OIG reports for FYs 2004 and 2005

       Common findings occurred with greatest frequency in the two areas of
review that are audited primarily by the OIG: compliance with NDIS
participation requirements and the proper upload of forensic profiles to
NDIS. Currently, audits performed by scientists within the DNA laboratory
community do not include any analysis of compliance with NDIS participation
requirements, including profile allowability restrictions (excluding those
portions of the requirements that overlap with the QAS). The FBI is in the
process of hiring staff auditors for the CODIS Unit who could perform audits
of NDIS compliance similar to those done by the OIG. However, the CODIS
Unit Chief has stated that the plan for the CODIS staff auditors is to conduct
QAS audits similar to those already being performed in the DNA community,
with a limited additional review of NDIS profiles. 39




       38
          We did not identify any common issues in the findings concerning proper upload
of convicted offender profiles to NDIS.
       39
          Additional analysis of the role of CODIS auditors and their audit methodology is
contained in Finding III.

                                            - 47 -
       Further, we determined that the FBI currently relies upon the annual
CODIS user certifications as the primary means of ensuring the compliance
of NDIS data. 40 From the trends we noted, we conclude that this reliance is
insufficient for the following reasons.

   •   Forensic profiles are supposed to be limited to those from crime-scene
       evidence that do not unambiguously match the victim or other known
       individual uninvolved in the crime. Further, documentation should be
       maintained to demonstrate the allowability of NDIS profiles, and the
       data in those profiles should be interpretable. As seen in Figure 13,
       we noted 13 incidents of forensic profile findings that violated some
       aspect of these restrictions. While these findings may represent a
       small portion of the profiles we reviewed, the fact that forensic profiles
       were improperly uploaded at 11 of 18 laboratories we audited indicates
       that the annual certification forms have not been successful in
       ensuring CODIS user compliance with profile allowability restrictions.

   •   We found that 6 of 18 laboratories we audited had not completed
       annual user certification forms as required. The forms are completed
       by laboratories on a self-certification basis and are not required to be
       submitted to the FBI.


Flaws in the FBI’s Oversight of QAS Audits

      We requested and received from 41 state and local laboratories
throughout the CODIS community, documentation of the external QAS audit
conducted at each laboratory and cleared by the Review Panel in 2004 and
2005. 41 We analyzed this documentation for trends and statistics. We
determined that specific facts within the documentation, such as dates the
audits were submitted to the panel, were generally consistent with the FBI’s



       40
           At the beginning of each calendar year, each laboratory’s CODIS administrator is
required by NDIS procedures to ensure that each CODIS user is reminded of the categories
of DNA data accepted by NDIS. As part of that reminder, the CODIS administrator has
individual users certify that they have received their annual reminder and understand and
will abide by what DNA data is accepted by NDIS.

       41
           The NDIS Audit Review Panel is a group of volunteer members of the DNA
community who meet specific requirements, as well as FBI DNA staff members. The panel
reviews all external QAS audits conducted at NDIS-participating laboratories across the
country, with the purpose of ensuring consistent and thorough application of the QAS by the
QAS auditors and appropriate and complete corrective action by the laboratories.



                                          - 48 -
Review Panel records. 42 Based on our review we found: (1) there were a
total of 112 audit findings noted in the 41 audit reports, of which 11
(10 percent) were overturned after examination by the Review Panel (see
Figure 14); and (2) of the 41 audit reports, 6 had no findings (15 percent),
28 shared a finding in common with another audit, and 7 had unique
findings. 43

      We developed a matrix of the findings from the 41 external QAS audits
that were selected in our sample and noted several commonalities, as shown
in Figure 14. The common findings are listed by QAS section number, with a
description of the specific standard and finding that was implicated in a
shared finding, the number of labs that shared in that finding, and the
number of overturned findings for each QAS section. (See Appendix III for a
description of each QAS section.)




       42
          This confirmation of accuracy allowed us to rely upon the FBI’s Audit Review Panel
records for our analysis of panel timeliness, as shown in Finding III.
       43
            Findings are overturned when the Review Panel determines that the finding was
not justified based upon the commonly accepted interpretation of the QAS. Often, for this
to occur, the audited laboratory must challenge the finding to the Review Panel.

                                          - 49 -
              Figure 14 – Trends in QAS Audits Conducted and Reviewed
              by the NDIS Audit Review Panel in 2004 through July 2005

                                                                                             No. of
 QAS                                                                                No. of   Overturned
 Section      Description of Trends                                                 Labs*    Findings
    5         Std. 5.3.2(b) Laboratories did not document which analysts were         4
              competent to analyze bones or teeth.
    6         Std. 6.1.4 Laboratories did not document cleaning or                    6          4
              decontamination.
    7         Std. 7.1.1 Tube labels were not unique identifiers.                     2
              Std. 7.1.2 Chain-of-custody transfers were not fully documented.        5
              Std. 7.1.4 Evidence was not secured properly or access limited.         2
    8         Std. 8.1.3.3 No qualifying test was documented for new methods          2
              in use.
    9         Std. 9.2.1 Guidelines on quality control of critical reagents were      3
              incomplete.
              Std. 9.5 Check of procedures against a NIST-traceable standard          3          1
              was not performed.
              Std. 9.6 There was a lack of mixture interpretation guidelines.         4
    10        Std. 10.2.1 Thermometers for temperature verifications were not         6
              properly calibrated.
              Std. 10.2.2 There was no documentation of critical equipment            3
              calibrations.
              Std. 10.3 Laboratories did not follow their own equipment               2
              calibration or maintenance requirements.
    11        Std. 11.1 Information in the case files was not properly                2
              referenced.
              Std. 11.1.1 Laboratories did not retain all records in a case file.     6          5
              Std. 11.1.2 Information required for case reports was not               2
              included.
    12        Std. 12.1 cited in conjunction with a finding for Std. 17.1.1 for
              databasing laboratories, that contractor data was not reviewed         N/A         1
              properly. 44
    15        Std. 15.2 A repeat finding was noted.                                   2
    16        Std. 16.1 Training required by safety plan was not conducted or         5
              documented.
 *Some laboratories were part of multiple shared findings within the same QAS section. Therefore, the
 numbers in this column cannot be totaled to reach the number of unique laboratories with common
 findings in each section of the QAS.

Source: OIG analysis of 41 external QAS audits conducted in the CODIS community in 2004 and 2005




         44
            This finding was not part of a trend, but was overturned, and therefore we include
it in our table to demonstrate the total number of overturned findings.

                                                  - 50 -
       As shown in Figure 14, the standards with common findings cover
significant aspects of a laboratory's operations, including chain-of-custody
documentation, labeling of evidence and security of evidence storage
(7 laboratories); completeness of case file documentation (10 laboratories);
guidelines for interpretation of mixed profiles (4 laboratories); and proper
monitoring of critical reagents (3 laboratories), equipment (10 laboratories),
and procedures (3 laboratories).

      In a few instances, we noted that some overturned findings were not
communicated to the laboratories that challenged the findings. Rather, the
laboratories received correspondence that notified them that they were
considered to be in compliance, with no acknowledgment that the finding
was overturned. For example, four laboratories challenged the finding cited
against them for compliance with Standard 11.1.1. 45 The correspondence
received from the FBI for those laboratories did not acknowledge this
finding, either to uphold or retract it. Instead, the FBI notified the
laboratories that they were deemed to be in compliance with the QAS,
leaving laboratory officials to conclude that the finding was overturned. The
FBI should ensure that, at a minimum, correspondence with the audited
laboratories clearly documents which findings have been overturned and the
rationale behind that action.

       In addition, we noted inconsistency with the way the Review Panel
handled some findings. For example, six different laboratories were cited for
non-compliance with Standard 6.1.4. However, when the Review Panel
examined the corresponding documentation, it overturned findings for the
four laboratories that challenged the finding, while making no adjustment for
the two laboratories that did not challenge it. We recognize that it is not the
Review Panel’s responsibility to challenge findings on behalf of laboratories,
but it would be appropriate, in our judgment, to directly provide the
laboratories that did not challenge these findings with the information that
the Review Panel had concluded in other similar instances.

      Most significantly, we noted that the FBI is not formally tracking
common and overturned findings. The CODIS Unit Chief stated during our
fieldwork, conducted in May 2005, that his unit does not track the findings
observed in the reports that go through the Review Panel, and he did not
indicate any plans to do so.

      However, the current Review Panel chairperson stated that she does
an informal tally of findings as a means of getting a sense of where there are

       45
        Standard 11.1.1 states, “The laboratory shall maintain, in a case record, all
documentation generated by examiners related to case analyses.”

                                          - 51 -
commonalities. The chairperson provided information to the CODIS
community at a national meeting in November 2005, confirming these
statements. In her presentation, she touched on the issue related to four of
the overturned findings for Standard 6.1.4 that we noted in our analysis,
making it clear that documentation of cleaning and decontamination in the
case file is not required. She further discussed the difference between a
laboratory’s compliance with accreditation standards versus the QAS,
reminding QAS auditors that there can be differences between the two. She
also stated that she is attempting to give QAS auditors feedback on findings
that were later overturned, but this feedback is done informally rather than
systematically in a written, formal context.

       In addition, we determined that the previous chairperson also
informally tracked overturned and common findings in the audits to provide
that information to the CODIS community. In her November 2004
presentation at a national CODIS community meeting, she addressed
Standard 6.1.4, as well as the underlying issue for one of the overturned
findings we observed for standard 11.1.1. She also clarified the
requirements of Standard 9.5, which was included in one of the trends we
noted. However, these clarifications were again handled informally, rather
than through written guidance or policy updates.

       We concluded that while in the last 2 years the FBI Review Panel
chairpersons have generally gained a sense of the areas where common and
overturned findings occur, that information is not tracked systematically and
completely. Without a thorough understanding of trends in common
findings, the FBI cannot properly provide the CODIS community with the
additional guidance needed to remedy and prevent compliance weaknesses
in the trend areas, which our analysis revealed to be significant components
of a laboratory’s operations.

      Further, without a complete understanding of trends in overturned
findings, the FBI cannot take the necessary steps to prevent QAS auditors’
continued misunderstandings of compliance in those areas, to ensure that all
QAS auditors obtain feedback on their performance, and to guide QAS
auditors from other organizations – such as those who audit for accrediting
bodies – toward a consistent interpretation and application of the standards.

      Our CODIS administrator survey results demonstrate that the FBI
should track common and overturned findings. Specifically, the results to
question 30, as discussed in Finding I, reveal that 13 percent of respondents
did not believe that the Review Panel has improved compliance in the DNA
community, because individual (or inconsistent) QAS auditor interpretations
are still enforced. This sentiment was reiterated 161 times by a total of

                                   - 52 -
83 respondents in comments throughout the survey, demonstrating the
magnitude of the problem posed by inconsistent interpretation of the QAS.

      Informing the CODIS community of common and overturned QAS
audit findings serves as a valuable tool for continuing education in QAS
compliance for both the FBI’s QAS auditor training courses, as well as for
national meetings where compliance is discussed. By tracking findings in a
manner similar to the exercise we performed, the FBI should be able to
address:

   •   trends in overturned findings to better train QAS auditors and monitor
       their performance;

   •   inconsistencies between organizations on specific standards to better
       communicate those inconsistencies to the heads of those
       organizations; and

   •   trends in common findings to better train the DNA community on
       compliance.

      Overall, we conclude that the FBI needs to develop more rigorous
internal controls to ensure that it has proper oversight over compliance with
NDIS requirements. Further, the FBI should track audit findings to obtain
the type of information that will be beneficial to QAS auditors and audited
laboratories.


Recommendations

We recommend that the FBI:

12.    Ensure that the internal controls over the compliance of NDIS data are
       strengthened beyond the current reliance on self-certification annual
       reminder forms.

13.    Implement a formal mechanism for tracking findings in audits
       reviewed by the NDIS Audit Review Panel so that common findings and
       inconsistencies in interpretation can be identified.

14.    Implement a formal mechanism for tracking auditor performance so
       that QAS auditors who use incorrect interpretations of the QAS can
       adjust their performance and also so that the FBI can detect whether
       individual QAS auditors require additional guidance.



                                    - 53 -
15.   Use these mechanisms to provide specific training to the DNA
      community on common findings and inconsistencies observed, to aid
      the DNA community's compliance, and to further improve consistency
      between organizations and QAS auditors.




                                  - 54 -
III.   ADDITIONAL CORRECTIVE ACTION NEEDED TO ADDRESS
       PREVIOUS FINDINGS

       Previous OIG audit findings identified the need to verify the compliance
       of NDIS data, to ensure NDIS user compliance with NDIS
       requirements, and to ensure that laboratories remedy QAS audit
       findings. From our analysis of the FBI’s corrective actions, we
       determined that it has not yet implemented routine audits of NDIS
       profiles and still relies on self-certification in confirming NDIS user
       compliance with NDIS requirements. The FBI has made improvements
       in the oversight of QAS compliance within the CODIS community,
       including conducting QAS auditor training courses, the implementation
       of a DNA community-wide audit document, and the creation of the
       Review Panel to ensure consistent and thorough application of the QAS
       and complete and appropriate corrective action to QAS audit findings.
       However, we identified the need for improved Review Panel timeliness
       and improved consistency in training through an emphasis on written
       guidance.


Verifying the Compliance of Data in NDIS

      The FBI’s corrective action approach to the OIG’s 2001
recommendation to verify the compliance of data in NDIS was two-fold:
(1) the FBI began requiring FBI QAS auditors to review CODIS profiles as
part of their case file reviews (this action was initiated in June 2004), and
(2) the FBI began taking steps to hire staff auditors who would
systematically audit the profiles contained in NDIS.

      In 2004 and 2005, FBI QAS auditors completed a total of three audits
during which they confirmed that the profiles uploaded to NDIS from each
case they reviewed were complete, accurate, and allowable. FBI QAS
auditor involvement in confirming NDIS profiles was to be a temporary
measure until CODIS Unit auditors could be hired. Therefore, we assessed
the FBI’s QAS auditor approach as a temporary measure and noted that
improvements could still be made.

        We noted that these reviews cover three to five case files per active
DNA examiner in the audited laboratory. We believe such a methodology is
deficient because of its limited scope. In the OIG’s audits of forensic
profiles, a minimum of 50 profiles are selected randomly for review from a
list of the profiles currently in NDIS. This methodology permits a review of
the work of not only current but also past examiners, as well as profiles
produced by another laboratory and uploaded to NDIS by the auditee.


                                     - 55 -
Further, this methodology ensures that for every case file OIG auditors
review, an NDIS profile has been uploaded. The FBI’s methodology could
miss problems with profiles that were uploaded to NDIS on behalf of another
laboratory and would not assess profiles produced by any examiner not
currently on staff at the laboratory. Consequently, we consider the review
methodology to be inadequate.

       In addition, we observed that while there is a mechanism for
documenting the results of the FBI QAS auditor’s profile reviews, there is not
a mechanism for documenting and tracking how many profiles are confirmed
during these reviews or the frequency with which these reviews are
conducted. For example, because FBI QAS auditors can look at 3 to 5 case
files per active analyst in each laboratory audited, and because laboratories
vary in the number of analysts employed, there is no way of knowing
whether 10 or 50 NDIS profiles are reviewed in the context of a particular
audit. Considering the difficulty experienced in getting CODIS auditors on
staff, we believe the FBI should be tracking this information since this
“temporary” measure could continue for a period of years. Records should
be maintained to indicate the scope of the profile reviews that are performed
to better reflect the extent to which the risk of non-compliance is being
alleviated by this management control.

      The CODIS Unit Chief intends for the new CODIS auditors to continue
the same scope of work to verify compliance with NDIS requirements that
the FBI QAS auditors currently perform. As a result, the methodology to
review profiles that we consider to be inadequate will continue once
permanent CODIS auditors are on staff in the CODIS Unit. Further, the
CODIS Unit Chief does not intend to review any other aspect of compliance
with NDIS requirements beyond the limited forensic profile review. This
approach falls short of the changes intended by the OIG in the
recommendations from our earlier report. We believe the intended use of
the CODIS auditors is insufficient in light of the fact that the FBI is
responsible for ensuring compliance of NDIS participants and that no audits,
other than the OIG’s, are being conducted within the CODIS community to
specifically review compliance with NDIS requirements. For example, below
we note the inadequacy of the FBI’s reliance on self-certification forms to
ensure user compliance with restrictions on data in NDIS. These forms
serve as one example of the type of documentation that could be audited for
compliance if the FBI is to reconsider its intended use of CODIS auditors.




                                    - 56 -
Continued Reliance on Self-certification

       During our prior audit, we found that 6 of 8 laboratories uploaded a
total of 55 incomplete or unallowable DNA profiles to CODIS, out of the
1,308 profiles we tested. As a result of these findings, the FBI began
requiring that at the beginning of each calendar year, each laboratory’s
CODIS administrator ensure that each CODIS user is reminded of the
categories of DNA data accepted at NDIS. 46 As part of that reminder, each
CODIS administrator has CODIS users at their laboratory certify they have
received their annual reminder and understand and will abide by what DNA
data is accepted at NDIS. An example of this form can be found in
Appendix VI.

      The certification or “reminder” forms are handled on a self-certification
basis. Administrators sign a certification saying that the reminder forms
were completed by CODIS users in their laboratory, but the signed individual
forms are not submitted to the FBI. Since the certification signed by an
administrator does not indicate the number or identity of CODIS users who
signed the form, there is no way for the FBI to confirm that all CODIS users
have completed the forms as required.

      In addition, while the reminder forms were implemented as corrective
action to our previous audit, one of the deficiencies noted under that audit
was the FBI’s reliance upon self-certifications from CODIS participants. As
previously noted, OIG CODIS laboratory audits identified that CODIS users
at 6 of 18 laboratories audited in FYs 2004 and 2005 did not complete the
forms as required.

      We recommend that the FBI revise its current certification process to
require laboratories to list CODIS users who are certified each calendar year,
which would enable the FBI to ensure that all users registered for each
laboratory have completed the forms. This action should be completed in
conjunction with the FBI’s response to the OIG’s current related
Recommendation No. 12, for greater oversight of compliance of NDIS data.


Improvement in Oversight of QAS Audits

      The FBI implemented various corrective action measures in response
to previous OIG recommendations for greater oversight of QAS compliance


       46
           A CODIS user is any state or local laboratory employee who has log-in access to
the CODIS system or qualified DNA analysts who are responsible for producing the DNA
profiles stored in NDIS.

                                          - 57 -
and the adequacy of laboratories’ responses to QAS audit findings. Specific
changes were:

  •   To count toward the biannual audit requirement, the FBI implemented
      a restriction that external QAS audits had to be performed by
      FBI-trained QAS auditors, using the FBI-developed audit guide to
      further consistency and thoroughness in the audits that are performed.

  •   The FBI began requiring NDIS-participating laboratories to supply a
      copy of each external QAS audit performed at their laboratory to the
      CODIS Unit, along with all relevant corrective action documentation.
      In addition, the FBI instituted the Review Panel to examine the audits
      submitted to the FBI to confirm the scope and uniformity of the QAS
      audits and to ensure that corrective action was completed for each
      finding.

      We analyzed several sources of documentation regarding the adequacy
of these corrective action measures, including the results of the
administrator survey. The results of our analysis are stated below.


QAS Audit Document and QAS Auditor Training

       According to QAS Standard 15.1, a laboratory must conduct an annual
audit to determine compliance with the QAS. Standard 15.2 requires that
once every 2 years, a second agency shall participate in the annual audit
(referred to as “external QAS audit”). We determined that the FBI
implemented a requirement as of January 2002 that if a QAS audit was to
count toward meeting QAS Standard 15.2 for an external audit, the audit
must be conducted by FBI-trained QAS auditors. This measure assists the
FBI in ensuring that the QAS auditors in the DNA community have been
provided guidance on the application of the QAS. The FBI also implemented
a requirement that the audits conducted in the CODIS community be
performed using the FBI’s audit document. This document contains
comments and guidance on the accepted interpretation of the standards and
also assists the FBI in ensuring consistent and thorough application of the
QAS to CODIS-participating laboratories. Both of these measures are
significant in their scope and have allowed the FBI to greatly improve the
DNA community’s overall compliance with the QAS since our previous audit.

      Based on the survey results and direct OIG experience with the QAS
auditor training courses, we noted the need to ensure that training is based
on a comprehensive written curriculum and that the supplemental guidance
provided in the context of discussion sessions be documented for future


                                   - 58 -
reference and verification of consistency. Currently, the auditor course is
based on a presentation given by the course instructors and is linked closely
to what is contained in the QAS audit guide maintained by the FBI.

       However, speaker notes that provide context and helpful interpretive
guidance to course attendees are not available for public reference. Further,
the course instructors can include extemporaneous verbal guidance
regarding specific standards that is not included in the presentation
materials or in the audit guide on which the training is based. The verbal
guidance or explanation given in these courses can result in
misunderstanding and therefore misapplied guidance. For example, in a
course attended by an OIG manager, the speaker responded to a question
regarding the use of contract employees for reviewing casework profiles.
That answer led to confusion as to the extent of the FBI’s policy. The OIG
attempted to contact various FBI personnel to clarify the point, but the
incident served as an example of the misinterpretation that can occur when
verbal guidance is given that is not directly linked to written guidance. The
inconsistency between written and verbal guidance can impact both the QAS
auditors, hindering their consistent and thorough assessment of compliance,
as well as the auditees’ understanding of their obligations under the
standards. Therefore, we believe the FBI needs to ensure that any
significant verbal guidance given in each course is presented consistently
with written guidelines.

       In addition, we obtained from the FBI’s DNAUI Chief ways in which he
believes the course could be improved. Particularly noteworthy was the
suggestion for web-based training tools, especially since 37 respondents to
our CODIS administrator survey made a total of 51 comments regarding the
use of the CODIS website to offer better training and guidance resources.
Based upon the support for this concept, we believe the FBI should design
and implement web-based training tools as a supplement to the QAS auditor
training courses being conducted. Such tools would allow those in the
CODIS community who have not yet taken the QAS auditor training course
to have access to the guidance and clarification they need to ensure
compliance. Administrator survey results indicate that 43 percent of those
who responded have not taken the QAS auditor training course.


NDIS Audit Review Panel

      In January 2002, the FBI instituted a requirement that all external
QAS audits performed at NDIS-participating laboratories be provided, along
with corrective action documentation, to the Review Panel for examination
and clearance. The Review Panel is comprised of volunteer qualified-DNA


                                    - 59 -
examiners who have completed the FBI’s QAS auditor training. Each audit is
reviewed by four Review Panel members, two from the FBI and two from a
state or local forensic DNA laboratory. The Review Panel members provide
their analysis of audit findings and corrective action and forward them to the
Review Panel chairperson, who consolidates members’ analyses and
oversees interactions with the audited laboratory. Requests for more
information or clarification come from the Review Panel chairperson. When
the audit is closed (i.e., the FBI considers the laboratory to be in compliance
with the QAS), correspondence to that effect is sent by the NDIS Custodian
(currently the CODIS Unit Chief).

       Initially, our analysis of FBI data indicated a significant backlog and
delay in reviewing and closing the audits submitted to the Review Panel. In
our judgment, such delays hinder the FBI’s ability to ensure that CODIS
participants are currently compliant with the QAS. The CODIS Unit Chief
stated that he had taken steps to improve the efficiency of the Review Panel,
including a tracking system to ensure timely and complete analysis and
response to audits, and assigning a chairperson to the Review Panel who can
oversee it. Upon further review, we determined that improvement has been
made, as reflected in Figure 15.




                                    - 60 -
                  Figure 15 – Analysis of Improvement to NDIS Audit
                        Review Panel Efficiency, 2003 to 2004 47


                                   Audit Panel Efficiency


            250                                        232

            200


            150
                                                             91
            100           81      72

             50


              0
                       Audits Cleared            Avg. Days Spent

                                   2003         2004

      Source: OIG analysis of NDIS Audit Review Panel records

       As can be seen, significant improvements reduced the overall average
number of days spent from receipt of the audit to close of the audit from
232 to 91 in just 1 year, while the number of audits cleared remained fairly
static. Yet, we noted the following opportunities for additional improvement.

  •   Review Panel members are required to return their review comments
      to the chairperson in 30 days. However, we determined that the
      average time taken in 2004 was 54 days, almost double the time
      permitted. Although the FBI’s ability to enforce that deadline is
      limited, there is no tracking performed to detect Review Panel
      members who are consistently and significantly late. We found
      documentation that consistent delay was true of at least one Review
      Panel member. The FBI should track Review Panel member timeliness
      and implement measures that can be taken in the event that panel
      members are consistently unable to meet the deadline. By remedying
      this delay, we believe the FBI could improve average turnaround time.




      47
           All of our analysis was done based on calendar days.

                                           - 61 -
   •   As part of our review of audit trends in 41 external QAS audits, we
       found that audits where follow-up with the auditee was required
       averaged 22 days longer, and audits where findings were contested
       averaged 47 days longer than audits where neither of these delays
       occurred. By distributing written guidance to the CODIS community
       regarding how to provide a complete package of information for the
       panel, the FBI can limit the delays caused by the need to follow up on
       incomplete information. This guidance must go to the members of the
       DNA community who are actually compiling the information for the
       panel. In addition, by ensuring that more members of the CODIS
       community take the QAS auditor training and by addressing
       consistency issues with the QAS auditor training, the FBI can reduce
       the number of challenges to findings by ensuring the QAS auditors are
       consistent with generally accepted interpretations, and the audited
       laboratories are clear on what is expected for QAS compliance.

   •   Finally, the FBI does not have a mechanism for ensuring compliance
       with the requirement that all external QAS audits be submitted to the
       Review Panel. While the FBI collects annual information from each
       NDIS-participating laboratory regarding the audits that were
       conducted in the preceding year (and in some cases, those that are
       planned for the current year), there is no cross-check between this
       information and the Review Panel records to confirm that copies were
       received of all the external QAS audits conducted. Without a
       cross-check, the FBI cannot ensure that it is receiving all of the
       external QAS audits that are conducted at NDIS-participating
       laboratories. Such a mechanism would require minimal setup and
       could serve as an added management control to ensure compliance.

      In conclusion, we believe the FBI should take action to ensure that its
implementation of past corrective action measures fully addresses the
weaknesses identified in the OIG’s previous audit report and to address
additional needs identified in this audit.


Recommendations

We recommend that the FBI:

16.    Broaden the current methodology used by FBI QAS auditors for NDIS
       profile verification to permit the selection of profiles from each
       laboratory’s total profiles in NDIS. This revised methodology should
       continue once CODIS Unit auditors are on staff.



                                    - 62 -
17.   Expand the scope of CODIS Unit auditor duties to include verification
      of compliance with NDIS requirements.

18.   Alter the annual user certification documentation required from
      laboratories to include information sufficient to confirm that all CODIS
      users are completing the forms as required.

19.   Ensure that QAS auditor training is based upon a comprehensive
      written curriculum, including guidance that reaches beyond the
      contents of the audit document.

20.   Develop web-based training tools for QAS compliance and auditing
      information, to aid the CODIS community’s awareness, understanding,
      and consistent interpretation of the QAS.

21.   Monitor NDIS Audit Review Panel member performance to ensure that
      members are timely, and implement procedures for taking action in
      cases where members are consistently untimely.

22.   Track information currently collected from NDIS-participants to ensure
      all external QAS audits reported to the CODIS Unit are also submitted
      to the NDIS Audit Review Panel.




                                    - 63 -
                   STATEMENT ON COMPLIANCE WITH
                       LAWS AND REGULATIONS

      As required by the Government Auditing Standards, we tested FBI
records pertaining to the administration of CODIS to obtain reasonable
assurance about the FBI’s compliance with laws and regulations that, if not
complied with, could have a material effect on the administration of CODIS.
Compliance with laws and regulations applicable to CODIS records at the
national index level is the responsibility of FBI management. An audit
includes examining, on a test basis, evidence about compliance with laws
and regulations. The pertinent legislation and the applicable regulations it
contains are as follows:


DNA Identification Act of 1994 48

      The DNA Identification Act of 1994 authorized the establishment of a
national index of: (1) DNA identification records of persons convicted of
crimes, (2) analyses of DNA samples recovered from crime scenes, and
(3) analyses of DNA samples recovered from unidentified human remains.

      In addition, it specified several standards for those laboratories that
contribute profiles to the national index system, including proficiency testing
requirements for DNA analysts and privacy protection standards related to
the information in the national index system.

      Finally, it established criminal penalties for individuals who knowingly
violate the privacy protection standards, and provided that access to the
national index system was subject to cancellation if the quality control and
privacy requirements were not met.


Justice for All Act of 2004 49

     This Act instituted material changes to the DNA Identification Act of
1994, including the:

   •   creation of a new indicted persons index;



       48
            Pub. L. No. 103-322 (1994).
       49
            Pub. L. No. 108-405 (2004).

                                          - 64 -
   •   expansion of the offenses for which federal and military offender
       samples are collected;

   •   enhancement of the criminal penalties for unauthorized use of NDIS;

   •   authorization of one-time keyboard searches by all NDIS participants
       of samples not normally included in NDIS (except for voluntarily
       submitted elimination samples);

   •   deletion of the separate requirement for semiannual external
       proficiency tests (although it retained the separate requirement for
       biannual external audits);

   •   requirement for state and local forensic laboratories to be accredited
       by a nationally recognized program within 2 years of enactment
       (October 30, 2006); and

   •   requirement for the FBI to report to Congress any plans to change the
       "core genetic markers" 180 days prior to that change taking effect.



                                ♦      ♦      ♦
       Our tests revealed that the FBI was compliant with the above
legislation, as applicable to the activities during our audit period.




                                     - 65 -
              STATEMENT ON INTERNAL CONTROLS

       In planning and performing our audit of CODIS, we considered the
FBI’s internal controls for the purpose of determining our auditing
procedures. In addition, we evaluated the process used by the FBI to
monitor the compliance of CODIS participants. The evaluation of the FBI
was not made for the purpose of providing assurance on the internal control
structure as a whole; however, we noted certain matters that we consider to
be reportable conditions under the generally accepted Government Auditing
Standards.

      Reportable conditions involve matters coming to our attention relating
to significant deficiencies in the design or operation of the internal control
structure that, in our judgment, could adversely affect the FBI’s ability to
administer the CODIS Program. We noted deficiencies relating to the FBI’s
administration of CODIS, specifically the use of self-certification alone as a
control over NDIS-participant compliance with specific NDIS requirements,
discussed in Findings I and III. We also noted deficiencies concerning the
FBI’s monitoring of NDIS-participants’ compliance with the QAS and the
tracking of instances of non-compliance, as discussed in Finding II.
However, we did not consider these deficiencies to be a result of systemic
internal control issues.

      Because we are not expressing an opinion on the FBI’s internal control
structure as a whole, this statement is intended solely for the information
and use of the FBI in administering CODIS.




                                    - 66 -
                                                                         APPENDIX I

               OBJECTIVES, SCOPE AND METHODOLOGY

      We conducted our audit in accordance with the Government Auditing
Standards and included such tests as were considered necessary to
accomplish the audit objectives. Our audit generally covered the period
from October 2003 through November 2005, although in some instances it
was necessary to consider documentation from outside that timeframe. The
objectives of this audit were to:

1.       assess the adequacy of the FBI’s administration of CODIS, including its
         oversight of the national DNA database;

2.       analyze findings from DNA laboratory audits, both OIG-conducted
         audits and external quality assurance audits, to determine if they
         reveal trends and vulnerabilities; and

3.       evaluate the FBI’s implementation of corrective actions in response to
         findings from the OIG’s September 2001 audit, The Combined DNA
         Index System. 50

         To accomplish the objectives of this audit we:

     •   Developed and conducted a survey of 174 NDIS participating
         laboratories to obtain feedback from CODIS administrators on the FBI’s
         administration of CODIS.

     •   Interviewed CODIS Unit management regarding staffing, position
         responsibilities, and the planned timeline for filling vacant CODIS Unit
         positions.

     •   Interviewed FBI management regarding the mission, goals, objectives,
         and performance measurements for the CODIS Unit, and obtained
         copies of all supporting documentation for those strategic planning
         items.

     •   Reviewed contract and operations documents to verify the operation,
         maintenance, and security of the CODIS System.




         50
        Department of Justice, Office of the Inspector General. Audit Report No. 01-26,
The Combined DNA Index System, September 2001.



                                         - 67 -
                                                                             APPENDIX I

   •   Reviewed FBI documentation and interviewed FBI management to verify
       that the proper changes have been made to the database as required by
       the Justice for All Act of 2004.51

   •   Reviewed FBI documentation and interviewed FBI management
       regarding the current status and plans of each of the corrective action
       measures implemented as a result of the prior OIG audit of CODIS.

   •   Reviewed 18 OIG CODIS laboratory audits and identified trends in the
       findings.

   •   Reviewed a random sample of 41 external laboratory evaluation reports
       and supporting documentation for corrective action taken, if any, to
       determine if any trends or vulnerabilities could be detected from a
       collective review of quality assurance laboratory findings. 52

   •   Analyzed the tracking system maintained by the CODIS Unit for the
       processing of audits through the NDIS Audit Review Panel (Review
       Panel), to determine the efficiency of the process and the timeliness of
       Review Panel member submissions on their assessment of each audit.

      The following sections provide additional detail for work that specific
actions listed in the preceding list.


OIG CODIS Administrator Survey

      Using information obtained during meetings with the FBI and CODIS
administrators, including issues that were raised during open discussion at
the SDIS administrator's meeting in May 2005, we developed a survey for
completion by CODIS administrators at NDIS-participating laboratories. The
survey provided us with feedback on the FBI’s administration of CODIS and
laboratory concerns about quality issues or problems in the CODIS
community. We included open-ended and static-option questions. For those
questions where we provided static options, we included space for

       51
            Pub. L. No. 108-405 (2004).
       52
            The QAS require that laboratories undergo annual audits and, that at least every
other year, the audit must be performed by an external agency that performs DNA
identification analysis and is independent of the laboratory being reviewed. These annual
audits are not required by the QAS to be performed in accordance with the Government
Auditing Standards (GAS) and are not performed by the Office of the Inspector General.
Therefore, we will refer to the annual audits as evaluations (either an internal laboratory
evaluation or an external laboratory evaluation, as applicable) to avoid confusion with our
audit, which was conducted in accordance with GAS.

                                           - 68 -
                                                                 APPENDIX I

miscellaneous comments. In addition, we assured the CODIS administrators
that responses would be confidential and individual responses would not be
singled out in a way that could identify the source of the information.

      After the initial draft of the survey was created, we tested the survey
on members of the CODIS community. We used information received from
the FBI to select experienced individuals to test the survey, being careful not
to select CODIS administrators to preserve the universe for our final survey.
We contacted six members of the DNA community and all six responded.
Additional revisions were made to the survey based upon the test
respondents’ comments, and were reflected in the final version.

      The final version of the survey was e-mailed to 174 CODIS
administrators on June 7, 2005. A list of the CODIS participating
laboratories to which we sent the survey appears in Appendix II. CODIS
administrators were initially given until June 24, 2005, to complete the
survey and return it via e-mail, fax, or U.S. mail. On June 21, 2005, we
sent out a reminder e-mail and, on June 28, 2005, we sent out a third e-
mail extending the deadline to July 7, 2005. We extended the deadline to
give non-responding states a chance to reply.

      As of July 7, 2005 (the extended deadline), we had received 139
surveys. However, there were 6 states from which we still had not received
a response. In a final attempt to give these six states a chance to submit a
survey we contacted them via e-mail on July 29, 2005.

      After all the extensions (August 15, 2005 was the final cut-off date)
we still had not heard from Idaho and Rhode Island. We noted that a
member of the Connecticut laboratory had provided a response, but did so
during the test phase of the survey, and since the survey changed after that
response was received, we could not include it in our results.

       The survey contained 46 questions which were broken into seven
sections: (1) demographics, (2) FBI CODIS Unit responsiveness,
(3) allowability of DNA profiles, (4) laboratory quality, (5) general CODIS
operations, (6) NDIS Audit Review Panel, and (7) FBI guidance to the CODIS
community.

     Additional information about how we tallied the survey responses, and
a summary of the actual responses received can be found in Appendix VII.




                                    - 69 -
                                                                            APPENDIX I

OIG CODIS Laboratory Audits

       During our audit we analyzed a total of 18 OIG CODIS laboratory
audits, of which 6 were issued in final for FY 2004 and 12 were issued in
final for FY 2005. 53 A list of the 18 OIG CODIS laboratory audits is
contained in Appendix V.

      We identified and analyzed trends from each audit specific to profile
allowability as well as the number of findings for the five different QAS
sections reviewed during the audits, as follows.

   •   NDIS participation requirements,

   •   quality assurance standards (QAS),

   •   forensic profiles,

   •   convicted offender profiles, and

   •   other reportable matters.


External QAS Evaluations

      We tested the FBI’s records for the Review Panel and the external QAS
evaluations submitted to it. We judgmentally selected 10 participating
states and compared the FBI’s electronic records against the written records
used to create the electronic records. We found no material differences in
the tracking system. As a result we did not expand our sample and relied on
the information contained in the electronic records.

      In addition to reviewing the tracking system for data reliability, we
determined if delays in the process were significant, if the timeliness was
improving, and whether the Review Panel members were meeting the
30-day deadline set forth in the NDIS procedures for reviewing audits. In
order to see if the timeliness had improved we analyzed the information
contained in the FBI’s records for both 2003 and 2004. 54




       53
          In our analysis, we included two audit reports for audits completed in FY 2005
that were not issued until early FY 2006.
       54
            All of our analysis was done based on calendar days.

                                            - 70 -
                                                               APPENDIX I

      Working with the information provided to us from the FBI, we
determined that there were 72 closed evaluations in 2004 and 11 closed
evaluations in 2005. We tested 50 percent, or 41, of these evaluations.

      We used random sample selection over the 2 years of interest since
our goal was to conduct a trend analysis and to look at findings at more
laboratories. Further, we stratified our sample to ensure we selected a
percentage of SDIS and LDIS laboratories representative of the whole
universe. We excluded laboratories the OIG had already audited, to avoid
requesting information similar to what had been requested previously.

      We notified the CODIS Unit Chief that we would be contacting the
laboratories to request copies of external QAS evaluations and related
correspondence. We provided him with copies of any written
correspondence we issued in order to acquire the documentation we needed
to complete our review.

     Using contact information obtained from the FBI we contacted CODIS
administrators for each of the laboratories and explained the following:

  •   We were conducting an audit of the FBI's CODIS Unit, and in
      connection with that, we needed to obtain documentation to confirm
      the FBI's records for the Review Panel.

  •   We had selected a sample of the evaluations conducted and cleared
      from 2004 through July 2005, and their laboratory’s evaluation was
      one of those selected.

  •   Since the FBI returns all documentation from the submitting
      laboratories, we needed to obtain copies of documentation directly
      from them.

  •   For the evaluation selected (specific dates were provided), we needed
      a copy of the completed evaluation document and any correspondence
      that had been sent to or received from the FBI related to that
      evaluation (not including complete corrective action documentation,
      such as revised policies or procedures).

      The 41 laboratories in our sample represent 19 states and 1 federal
agency. We analyzed the evaluations in our sample for trends and statistics.
Specifically, we calculated:

  •   the number of findings (based on QAS section numbers);



                                   - 71 -
                                                               APPENDIX I

  •   the average number of findings per laboratory, with and without
      adjustments for overturned findings;

  •   the number and percentage of overturned findings; and

  •   the number of laboratories with common findings, without common
      findings, and with no findings, divided into categories of SDIS and
      LDIS laboratories.

      In our analysis, we relied upon the findings and conclusions of the QAS
evaluators within the DNA community, and did not perform any assessment
as to the scope of their work. In addition, we did not confirm whether those
evaluators met the requirements for conducting external QAS evaluations,
specifically the requirement that they successfully complete the FBI’s QAS
auditor training.

      We compared the documentation received from the laboratories to the
information the FBI had provided in its Review Panel record spreadsheets, to
verify accuracy of those records. We also tracked whether the Review Panel
had to follow up with the laboratories and whether findings were challenged
by the laboratories, to determine if those issues impeded the timeliness of
the Review Panel process.




                                   - 72 -
                                                                   APPENDIX II

               LIST OF SURVEYED LABORATORIES

1.    Department of Forensic Science, South Birmingham, Alabama

2.    Department of Forensic Science, Huntsville, Alabama

3.    Department of Forensic Science, Mobile, Alabama

4.    Department of Forensic Science, Montgomery, Alabama

5.    Department of Forensic Science, South Birmingham, Alabama

6.    Department of Forensic Science, South Birmingham, Alabama

7.    Scientific Crime Detection, Anchorage, Alaska

8.    State Crime Laboratory, Little Rock, Arkansas

9.    Department of Public Safety Crime Laboratory, Flagstaff, Arizona

10.   Police Department Crime Laboratory, Mesa, Arizona

11.   Department of Public Safety Crime Laboratory, Phoenix, Arizona

12.   Police Department Crime Laboratory, Phoenix, Arizona

13.   Police Department Crime Laboratory, Scottsdale, Arizona

14.   Department of Public Safety Crime Laboratory, Tucson, Arizona

15.   Police Department Crime Laboratory, Tucson, Arizona

16.   Kern County Regional Crime Laboratory, Bakersfield, California

17.   California Department of Justice, Fresno, California

18.   California Department of Justice, Richmond, California

19.   Los Angeles County Sheriff's Department, Los Angeles, California

20.   Los Angeles Police Department, Los Angeles, California

21.   Contra Costa County Sheriff's Office, Martinez, California

22.   Oakland Police Department Crime Laboratory, Oakland, California




                                    - 73 -
                                                                  APPENDIX II

23.   Richmond Missing Persons Laboratory, Richmond, California

24.   California Department of Justice DNA Laboratory, Richmond, California

25.   Orange County Sheriff's Department, Santa Ana, California

26.   District Attorney's Office Laboratory of Forensic Services, Sacramento,
      California

27.   California Department of Justice, Sacramento, California

28.   Sheriff's Department Scientific Investigations Division, San Bernardino,
      California

29.   Sheriff's Department Crime Laboratory, San Diego, California

30.   Police Department Forensic Science Section, San Diego, California

31.   Police Department Criminalistics Laboratory, San Francisco, California

32.   Santa Clara County District Attorney's Crime Laboratory, San Jose,
      California

33.   Sheriff's Department Crime Laboratory, Ventura, California

34.   Alameda County Sheriff's Criminalistics Laboratory, San Leandro,
      California

35.   Colorado Bureau of Investigation Laboratory Section, Denver, Colorado

36.   Colorado Bureau of Investigation Laboratory Section, Montrose,
      Colorado

37.   Colorado Bureau of Investigation Laboratory Section, Pueblo, Colorado

38.   Denver Police Department Crime Laboratory, Denver, Colorado

39.   State Police Forensic Science Laboratory, Meriden, Connecticut

40.   Office of the Chief Medical Examiner, Wilmington, Delaware

41.   Broward County Sheriff's Office, Fort Lauderdale, Florida

42.   Miami-Dade Police Department, Miami, Florida




                                    - 74 -
                                                                   APPENDIX II

43.   Florida Department of Law Enforcement, Jacksonville, Florida

44.   Florida Department of Law Enforcement, Pensacola, Florida

45.   Florida Department of Law Enforcement, Tampa, Florida

46.   Florida Department of Law Enforcement, Tallahassee, Florida

47.   Florida Department of Law Enforcement, Tallahassee, Florida

48.   Florida Department of Law Enforcement, Orlando, Florida

49.   Indian River Crime Laboratory, Fort Pierce, Florida

50.   Palm Beach Sheriff's Office Crime Laboratory, West Palm Beach,
      Florida

51.   United States Army Criminal Investigation Laboratory, Forest Park,
      Georgia

52.   Georgia Bureau of Investigation, Decatur, Georgia

53.   Georgia Bureau of Investigation, Savannah, Georgia

54.   Honolulu Police Department DNA Laboratory, Honolulu, Hawaii

55.   Iowa Department of Public Safety Division of Criminal Investigation,
      Ankeny, Iowa

56.   State Police Forensic Services, Meridian, Idaho

57.   State Police Forensic Laboratory Biochemistry Section, Chicago, Illinois

58.   DuPage County Sheriff's Crime Laboratory, Wheaton, Illinois

59.   State Police Forensic Science Laboratory, Carbondale, Illinois

60.   State Police Forensic Science Laboratory, Fairview Heights, Illinois

61.   State Police Forensic Science Laboratory, Springfield, Illinois

62.   State Police Forensic Science Laboratory, Springfield, Illinois

63.   State Police Forensic Science Laboratory, Morton, Illinois



                                     - 75 -
                                                                   APPENDIX II

64.   State Police Forensic Science Laboratory, Joliet, Illinois

65.   State Police Forensic Science Laboratory, Rockford, Illinois

66.   Marion County Forensic Services Agency, Indianapolis, Indiana

67.   State Police Regional Laboratory, Lowell, Indiana

68.   State Police Laboratory, Indianapolis, Indiana

69.   Kansas Bureau of Investigation, Great Bend, Kansas

70.   Johnson County Criminalistics Laboratory, Mission, Kansas

71.   Sedgwick County Regional Forensic Science Center, Wichita, Kansas

72.   Kansas Bureau of Investigation, Topeka, Kansas

73.   Kansas Bureau of Investigation, Kansas City, Kansas

74.   Kentucky State Police Forensic Laboratory, Frankfort, Kentucky

75.   North Louisiana Criminalistics Laboratory, Shreveport, Louisiana

76.   Acadiana Criminalistics Laboratory, New Iberia, Louisiana

77.   Jefferson Parish Forensic Center DNA Laboratory, Metairie, Louisiana

78.   Police Department Scientific Investigations Division, New Orleans,
      Louisiana

79.   State Police Crime laboratory, Baton Rouge, Louisiana

80.   Police Crime Laboratory, Boston, Massachusetts

81.   State Police Crime Laboratory, Sudbury, Massachusetts

82.   Anne Arundel County Crime Laboratory, Millersville, Maryland

83.   Baltimore County Police Department Forensic Services Division,
      Towson, Maryland

84.   Montgomery County Department of Police Crime Laboratory Forensic
      Biology Unit, Rockville, Maryland



                                     - 76 -
                                                                APPENDIX II

85.   Prince Georges County Police Department Crime Laboratory, Landover,
      Maryland

86.   Police Department Laboratory, Baltimore, Maryland

87.   State Police Forensic Sciences Division, Pikesville, Maryland

88.   State Police Crime Laboratory, Augusta, Maine

89.   Hennepin County Sheriff's Office, Minneapolis, Minnesota

90.   Minnesota Bureau of Criminal Apprehension, St. Paul, Minnesota

91.   State Police Crime Laboratory, Lansing, Michigan

92.   State Police Crime Laboratory, Northville, Michigan

93.   State Police Crime Laboratory, Grand Rapids, Michigan

94.   Police Forensic Services Division, Detroit, Michigan

95.   State Police Crime Laboratory, Jackson, Mississippi

96.   Metropolitan Police Department Laboratory Division, St. Louis, Missouri

97.   St. Louis County Police Department Crime Laboratory, Clayton,
      Missouri

98.   State Highway Patrol Crime Laboratory Division, Jefferson City,
      Missouri

99.   Regional Crime Laboratory, Kansas City, Missouri

100. Department Of Justice Forensic Science Division, Missoula, Montana

101. State Patrol Crime Laboratory, Lincoln, Nebraska

102. State Forensics Laboratory Department of Safety, Concord, New
     Hampshire

103. State Police Central Laboratory, Hamilton, New Jersey

104. Criminalistics Laboratory Metropolitan Forensic Science Center,
     Albuquerque, New Mexico



                                    - 77 -
                                                              APPENDIX II

105. DNA ID System Administrative Center, Metropolitan Forensic Science
     Center, North West Albuquerque, New Mexico

106. Department of Public Safety, Santa Fe, New Mexico

107. Metropolitan Police Department Forensic Laboratory, Las Vegas,
     Nevada

108. Washoe County Sheriff's Office, Reno, Nevada

109. Erie County Central Police Services, Buffalo, New York

110. Office of the Medical Examiner, Nassau County, East Meadow, New
     York

111. Suffolk County Crime Laboratory, Hauppauge, New York

112. Office of the Chief Medical Examiner Department of Health, New York,
     New York

113. Monroe County Public Safety, Rochester, New York

114. Onondaga County Crime Laboratory Center for Forensic Sciences,
     Syracuse, New York

115. Westchester County Department of Laboratories and Research,
     Valhalla, New York

116. State Police Crime Laboratory, Albany, New York

117. Charlotte-Mecklenburg Police Crime Laboratory, Charlotte, North
     Carolina

118. Bureau of Investigation Crime Laboratory, Raleigh, North Carolina

119. Office of Attorney General Crime Laboratory Division, Bismarck, North
     Dakota

120. Bureau of Criminal Investigation, Bowling Green, Ohio

121. Canton/Stark County Crime Laboratory, Canton, Ohio

122. Hamilton County Coroner's Laboratory, Cincinnati, Ohio




                                   - 78 -
                                                             APPENDIX II

123. Cuyahoga County Coroner's Office, Cleveland, Ohio

124. Police Department Crime Laboratory, Columbus, Ohio

125. Miami Valley Regional Crime Laboratory, Dayton, Ohio

126. Bureau of Criminal Investigation, London, Ohio

127. Police Department Crime Laboratory, Mansfield, Ohio

128. Lake County Regional Forensic Laboratory, Painesville, Ohio

129. Bureau of Criminal Investigation, Richfield, Ohio

130. State Bureau of Investigation, Oklahoma City, Oklahoma

131. Police Department, Oklahoma City, Oklahoma

132. Police Department Forensic Laboratory, Tulsa, Oklahoma

133. Oregon State Police, Portland Metro Forensic Laboratory, Clackamas,
     Oregon

134. State Police, Bethlehem, Pennsylvania

135. State Police, Greensburg, Pennsylvania

136. Police Forensic Science Center DNA Identification Laboratory,
     Philadelphia, Pennsylvania

137. Allegheny County Division of Laboratories, Pittsburgh, Pennsylvania

138. Estado Libre Asociado de Puerto Rico Instituto de Ciencias Forenses de
     Puerto Rico Laboratorio de Criminalistica, San Juan, Puerto Rico

139. Department of Health Forensic Laboratories, Providence, Rhode Island

140. Law Enforcement Division, Columbia, South Carolina

141. Richland County Sheriff's Department, Columbia, South Carolina

142. Forensic Laboratory, Pierre, South Dakota

143. Bureau of Investigation Crime Laboratory, Knoxville, Tennessee



                                   - 79 -
                                                                APPENDIX II

144. Bureau of Investigation Crime Laboratory, Memphis, Tennessee

145. Bureau of Investigation Crime Laboratory, Nashville, Tennessee

146. Department of Public Safety Crime Laboratory, Austin, Texas

147. Department of Public Safety Headquarters Laboratory, Austin, Texas

148. Police Department, Austin, Texas

149. Department of Public Safety Crime Laboratory, Corpus Christi, Texas

150. Southwestern Institute of Forensic Sciences Dallas, Texas

151. Department of Public Safety Crime Laboratory, El Paso, Texas

152. Tarrant County Medical Examiner's Office, Fort Worth, Texas

153. University of North Texas Health Science Center DNA Identification
     Laboratory, Fort Worth, Texas

154. Department of Public Safety Crime Laboratory, Garland, Texas

155. Department of Public Safety Crime Laboratory, Houston, Texas

156. Department of Public Safety Crime Laboratory, Lubbock, Texas

157. Department of Public Safety Crime Laboratory, McAllen, Texas

158. Bexar County Forensic Science Center, San Antonio, Texas

159. Harris County Medical Examiner's Office, Houston, Texas

160. Department of Public Safety Crime Laboratory, Waco, Texas

161. Department of Public Safety Crime Laboratory, Salt Lake City, Utah

162. Western Regional Forensic Laboratory, Roanoke, Virginia

163. Northern Regional Forensic Laboratory, Fairfax, Virginia

164. Eastern Regional Forensic Laboratory, Norfolk, Virginia

165. Central Regional Forensic Laboratory, Richmond, Virginia



                                   - 80 -
                                                             APPENDIX II

166. Department of Public Safety Forensic Laboratory, Waterbury, Vermont

167. Crime Laboratory, Marysville, Washington

168. State Patrol Crime Laboratory, Seattle, Washington

169. State Patrol Crime Laboratory, Spokane, Washington

170. State Patrol Crime Laboratory, Tacoma, Washington

171. State Crime Laboratory, Madison, Wisconsin

172. State Crime Laboratory, Milwaukee, Wisconsin

173. State Police Crime Laboratory, South Charleston, West Virginia

174. State Crime Laboratory, Cheyenne, Wyoming




                                  - 81 -
                                                                     APPENDIX III

                                AUDIT CRITERIA

      In this appendix, we summarize the sources of criteria that we used in
the completion of this audit. Note that we only list criteria specific to our
audit of the FBI, versus the audit criteria used to complete the OIG’s CODIS
laboratory audits (addressed in Appendix IV), the results of which we
analyzed for this audit.


Federal Legislation

       Various pieces of legislation have been enacted over the past 11 years
that have helped shape the CODIS program. Two of these have been the
primary instruments of creation and change, The DNA Identification Act of
1994 and the Justice for All Act of 2004. 55 We used these items of
legislation as criteria to evaluate the FBI’s administration of CODIS
(Objective number one and two) and the FBI’s implementation of corrective
actions in response to previous OIG audit findings (Objective number three).

The DNA Identification Act of 1994

      This Act authorized the FBI to establish and maintain CODIS. The Act
also established the DNA Advisory Board to compose standards for quality
assurance with which CODIS-participating laboratories would have to comply
and which the Director of the FBI could then formally institute. The Act also
required the FBI to institute physical and electronic controls over the
information in CODIS, which led to the creation of the NDIS Requirements. 56


Justice for All Act of 2004

      This Act consists of three sections, The Debbie Smith Act which
expands the database and allows for one-time keyboard searches, the DNA
Sexual Assault Justice Act which requires all laboratories to be accredited by
October 30, 2006, and the Innocence Protection Act of 2004, which
establishes various provisions for post conviction DNA testing. A more
detailed description of each section is as follows. 57



      55
           Pub. L. No. 103-322 (1994); Pub. L. No. 108-405 (2004).
      56
           Pub. L. No. 103-322 (1994).
      57
           Pub. L. No. 108-405 (2004).



                                          - 82 -
                                                               APPENDIX III

      Debbie Smith Act of 2004. Requires laboratories to implement
corrective action to findings identified in QAS audits, giving greater emphasis
to the NDIS Audit Review Panel and the DNA community auditing
organizations. Expands CODIS to include samples from indicted criminals,
and expands the offenses for the Federal Convicted Offender Program to all
felons. This section also expands the authority for keyboard searches and
increases the penalties for misuse. It also, requires the FBI to report to
Congress if changes are made to the CODIS "core genetic markers."

      The DNA Sexual Assault Justice Act of 2004. Requires laboratories
who receive grant funds to be accredited, and reiterates the requirement for
biannual external audits that demonstrate compliance with the QAS. Also
requires accreditation by October 30, 2006.

      Innocence Protection Act of 2004. This Act deals primarily with post-
conviction DNA testing, when and how that testing will be made available,
and how the results will be interpreted, including what is entered into NDIS
and when those profiles can be retained.


NDIS Participation Requirements

      We considered one of the NDIS procedures, Review of External Audits,
as part of our audit criteria, and tested compliance with the requirements
that apply to the FBI’s performance, as excerpted below.


Quality Assurance Standard Audit Review – General Overview (Section 5.0):

       In response to a finding by the Office of the Inspector General (June,
2001) that the self-certification of compliance with the FBI Director’s QAS
was insufficient to ensure that audit findings, if any, were appropriately
resolved, the FBI Laboratory developed a program to review the external
QAS audits conducted at NDIS Participating Laboratories. Therefore, to fulfill
its obligations under the DNA Identification Act of 1994, the FBI Laboratory
will review all external QAS audits of laboratories seeking to participate in
NDIS and NDIS Participating Laboratories to evaluate any findings and
determine if further action is warranted.

      To facilitate the review process, NDIS Participating Laboratories shall
forward the audit report to the NDIS Custodian upon their receipt of the
report. The NDIS Custodian will review the report and if there are no
findings, the review shall be deemed complete and the documentation
returned to the NDIS Participating Laboratory. If there are findings that do



                                    - 83 -
                                                              APPENDIX III

not relate to DNA and or a laboratory’s participation in NDIS, the review
shall also be deemed complete and the documentation returned to the NDIS
Participating Laboratory. However, if there are any findings relating to DNA
or a laboratory’s participation in NDIS, the report shall be forwarded to the
NDIS Audit Review Panel, which will review the audit report and determine if
the findings have been addressed and resolved, as necessary. If there are
no findings but comments are present, the external audit report shall be
forwarded to the chairperson of the NDIS Audit Review Panel for review and
possible action. If further action is warranted, the chairperson of the NDIS
Audit Review Panel will follow up with the NDIS Participating Laboratory to
resolve any outstanding issues. In the event that the NDIS Participating
Laboratory fails to respond to the NDIS Audit Review Panel or that there
appears to be non-compliance with the QAS, the matter shall be referred to
the NDIS Procedures Board (see Section 6.3) for further action in
accordance with the DNA Identification Act of 1994.

     All audit documents and related communications will be returned to
the NDIS Participating Laboratory for filing upon completion of the review
process.


NDIS Audit Review Panel (Section 6.2)

     Once the audit documentation is received and forwarded by the NDIS
Custodian, the chairperson of the NDIS Audit Review Panel shall review the
documentation to ensure that the findings have been resolved and if
necessary, follow up with the NDIS Participating Laboratory.

       There shall be multiple NDIS Audit Review Panels sufficient to address
the number of external QAS audits requiring review. An NDIS Audit Review
Panel shall consist of five qualified or previously qualified DNA examiners or
analysts who have successfully completed the training on the QAS Audit
Document: (1) at least two of whom shall be representatives of state or
local forensic DNA laboratories; and (2) at least two of whom shall be
representatives of the FBI. The FBI shall designate someone who shall serve
as chairperson of each such Review Panel and shall have voting privileges.
NDIS Audit Review Panel members shall provide their comments, if any, to
the chairperson of the NDIS Audit Review Panel.

       NDIS Audit Review Panel members shall have 30 days to complete
their review and communicate their findings to the chairperson of the NDIS
Audit Review Panel. In the event any NDIS Audit Review Panel member is
unable to perform their review within the 30 days, the Review Panel member
shall notify the chairperson of the NDIS Audit Review Panel.



                                    - 84 -
                                                              APPENDIX III

NDIS Procedures Board (Section 6.3)

      The NDIS Procedures Board shall review all external QAS audits
referred to it by the NDIS Custodian.

        In instances in which the NDIS Audit Review Panel is unable to resolve
a matter because of the NDIS Participating Laboratory’s failure to clarify its
position or provide additional information, the NDIS Procedures Board shall
send a written request to the Laboratory Director requesting the
clarification or information within two weeks. In the event that the
Laboratory Director does not respond to the request for clarification or
information within the requisite timeframe, the NDIS Procedures Board shall
notify the Laboratory Director in writing (with a copy to the appropriate
Agency head) that the Participating Laboratory’s failure to respond within
one week shall result in cancellation of that Laboratory’s access to NDIS in
accordance with the DNA Identification Act of 1994.

       In instances in which the NDIS Audit Review Panel found that the NDIS
Participating Laboratory did not comply with the external QAS audit or QAS,
the NDIS Procedures Board shall send a written request to the Laboratory
Director requesting a response within two weeks. In the event that the
Laboratory Director does not respond within the requisite timeframe, the
NDIS Procedures Board shall notify the Laboratory Director in writing (with a
copy to the appropriate Agency head) that the Participating Laboratory’s
failure to respond within one week shall result in cancellation of that
Laboratory’s access to NDIS in accordance with the DNA Identification Act of
1994.


Quality Assurance Standards

       The QAS are one of the key sources of criteria for audits of
CODIS-participating laboratories. Two sets of standards have been
instituted: (1) the Quality Assurance Standards for Forensic DNA Testing
Laboratories effective October 1, 1998; and (2) the Quality Assurance
Standards for Convicted Offender DNA Databasing Laboratories effective
April 1, 1999. While we did not use the QAS as direct criteria for this audit,
we did rely upon evaluations of QAS compliance completed by scientists
within the DNA community for our assessment of QAS findings and trends.
Consequently, we include here a general description of the QAS sections and
the topics covered by each section.

   •   QAS Section 3 addresses standards regarding a laboratory’s quality
       assurance program.



                                    - 85 -
                                                           APPENDIX III

•   QAS Section 4 addresses standards governing a laboratory’s
    organization and management, including requirements for specific
    personnel roles and duties.

•   QAS Section 5 addresses standards governing personnel qualifications
    and responsibilities.

•   QAS Section 6 addresses standards governing facility security and
    quality control.

•   QAS Section 7 addresses standards governing evidence or sample
    control, security, and handling.

•   QAS Section 8 addresses standards governing validation of methods
    and procedures.

•   QAS Section 9 addresses standards governing the scope, quality
    control, and monitoring of analytical procedures.

•   QAS Section 10 addresses standards governing equipment calibration
    and maintenance.

•   QAS Section 11 addresses standards governing reports and
    corresponding case file records.

•   QAS Section 12 addresses standards governing reviews of analytical
    results, reports, and court testimony.

•   QAS Section 13 addresses standards pertaining to proficiency testing,
    including its nature, frequency, and documentation.

•   QAS Section 14 addresses standards pertaining to corrective action
    documentation and procedures.

•   QAS Section 15 addresses standards governing requirements for
    internal and external audits.

•   QAS Section 16 addresses standards governing laboratory safety.

•   QAS Section 17 addresses standards pertaining to outsourcing DNA
    analysis to a contract laboratory.




                                 - 86 -
                                                                APPENDIX IV

       AUDIT CRITERIA FOR CODIS LABORATORY AUDITS

       In conducting the OIG’s CODIS laboratory audits, we considered the
following elements of the NDIS participation requirements and the QAS.
However, we did not test for compliance with elements that are not
applicable to the laboratory. In addition, the OIG has established standards
to test the completeness and accuracy of DNA profiles and the timely
notification of law enforcement when DNA profile matches occurred in NDIS.
Further, we considered applicable state legislation, specific to each location
audited, as part of our testing of convicted offender DNA profiles.


NDIS Participation Requirements

      The NDIS participation requirements, which consist of the MOU and
the NDIS operational procedures, establish the responsibilities and
obligations of laboratories that participate in NDIS. The MOU requires that
NDIS participants comply with federal legislation and the QAS, as well as
NDIS-specific requirements accompanying the MOU in the form of
appendices. Audit criteria for the OIG CODIS laboratory audits includes the
following requirements from MOU Appendix A – NDIS Responsibilities.

   •   Organizational Responsibilities (Requirement II.B.4) – Comply with FBI
       requirements for safeguarding CODIS against unauthorized use,
       including providing an appropriate and secure site for the NDIS system.

   •   System Operation (Requirement III.B.2) – Ensure that appropriate
       personnel are provided copies of, understand, and abide by the NDIS
       operational procedures.

   •   System Operation (Requirement III.B.3) – Identify in writing, in
       prescribed form, personnel approved to access CODIS and ensure that
       access to CODIS is limited to them.

   •   Reporting and Record-keeping Requirements (Requirement VI.B.1) –
       Report on a monthly basis, confirmed NDIS matches to the FBI in a form
       prescribed by the FBI.

   •   Reporting and Record-keeping Requirements (Requirement VI.B.3) –
       Provide to the NDIS Custodian a written report of deletions or
       modifications within 10 business days of discovering that a DNA record
       requires deletion or modification.




                                     - 87 -
                                                                          APPENDIX IV

   •   Reporting and Record-keeping Requirements (Requirement VI.B.4) –
       Maintain records on these personnel, including proficiency testing
       records and any other report required by the FBI, for a period of 10
       years.

      Audit criteria for OIG CODIS laboratory audits also includes the
following operational procedures from MOU Appendix C - NDIS Procedures
Manual. 58 The remainder of the manual consists of sets of procedures
outside the scope of the OIG CODIS laboratory audits.


DNA Data Acceptance Standards 59

   Interpretation of DNA Profiles (Sections 6.4.2 and 6.4.3) – Only forensic
profiles derived from forensic evidence matching the suspected perpetrators
or an unknown individual can be uploaded to NDIS. Profiles clearly matching
the victim or any known person other than the suspected perpetrators
cannot be uploaded to NDIS. In the case of mixtures, the profile must not
contain any portion of the analysis results that clearly belong only to the
victim; a mixture that cannot be clearly separated into a portion matching
the victim or other known person and the portion matching the suspected
perpetrator is allowable.


Add a User from a Participating Laboratory to NDIS

       Adding a State or Local CODIS User to NDIS (Section 4.0) – Adding
state or local CODIS users to NDIS can occur under two circumstances.
First, users may be added when a state begins to participate in NDIS.
Second, users may be added periodically as states add new CODIS users.
To add a user, the designated state official will send a letter to the NDIS
Custodian requesting the addition.

       The letter must be accompanied by:

   •   FD-484: Privacy Act explanation;

   •   FD-258: Fingerprint (10 Print) card, two copies;

       58
          The manual, a collection of operational procedures to be followed for various
processes pertinent to the functioning of NDIS, was actually issued separately from the
MOU, although it is still considered an appendix to the MOU.
       59
          The MOU, Appendix B, addresses DNA data acceptance standards. We did not
include Appendix B in our audit criteria because the DNA Data Acceptance Standards’
operational procedure addresses the same issues and is more current than Appendix B.



                                          - 88 -
                                                                APPENDIX IV

   •   FD-816: Background Data Information Form;

   •   CODIS user information;

   •   External Proficiency Testing Document for each Qualified DNA Analyst;
       and

   •   DNA Data Acceptable at NDIS form for each user.

      The letter shall include a certification by the designated state official
that all qualified DNA analysts being added will undergo external proficiency
testing as required by the DNA Identification Act and the MOU.


DNA Data Accepted at NDIS

       Annual Reminder for Users (Section 5.0) – At the beginning of each
calendar year, on an annual basis, the CODIS administrator shall ensure that
each user (personnel who have log-in access to the CODIS system and or
qualified DNA analysts who are responsible for producing the DNA profiles
stored in NDIS) is reminded of the categories of DNA data accepted at NDIS.
The CODIS administrator shall then have each user confirm they have
received their annual reminder and understand and will abide by the DNA
data acceptance requirements. Completed annual reminders for each user
shall be filed and maintained by the CODIS administrator and available for
inspection.


Review of External Evaluations

       Notification of External Evaluation and Forwarding of Evaluation
Documents (Section 6.1) – It shall be the responsibility of the NDIS
Participating Laboratory to arrange and schedule an external QAS evaluation
once every two years. After January 1, 2002, the NDIS Participating
Laboratory shall have only those persons who have successfully completed
the FBI training course for the QAS Audit Document perform such external
QAS evaluation. The NDIS Participating Laboratory shall notify the NDIS
Custodian once the external QAS evaluation has been conducted and the
evaluation report will be forwarded for review within 30 days of the
laboratory’s receipt of the report. The NDIS Participating Laboratory shall
include with the evaluation report any clarifications, responses and or
corrective action plans or documents (hereinafter referred to as “evaluation
documentation”), as appropriate. The NDIS Custodian shall acknowledge
this communication. If the NDIS Participating Laboratory is unable to
forward the required evaluation documentation within 30 days, the NDIS



                                     - 89 -
                                                                APPENDIX IV

Participating Laboratory shall notify the NDIS Custodian to request an
extension of time for sending the required evaluation documentation.


Confirming an Interstate Candidate Match

      Responsibilities (Sections 3.2 and 4.2) and Procedures (Sections 3.3
and 4.3) – Candidate matches must be resolved within 30 calendar days.
Resolution is refuting or confirming that the candidate match is a valid
match. Laboratories are to document the disposition of a candidate match.
Further, for confirmed matches, the documentation is to include the
interaction between the two laboratories and the notification to law
enforcement of the match for unsolved cases.


Expunging a DNA Profile

       Responsibilities (Section 3.0) – Included in the DNA Analysis Backlog
Elimination Act of 2000 was a requirement for states to expunge the DNA
profiles of persons whose qualifying convictions had been overturned. This
Act was effective December 19, 2001, and requires that states participating
in NDIS “shall promptly expunge from that index the DNA analysis (DNA
profile) of a person included in the index by that state if the responsible
agency or official of that state receives, for each conviction of the person of
an offense on the basis of which that analysis (profile) was or could have
been included in the index, a certified copy of a final court order establishing
that such conviction has been overturned.”

     A participating state shall have procedures in place for expunging a
DNA profile, regardless of whether or not its state DNA law requires it.


Quality Assurance Standards

      The FBI issued two sets of quality assurance standards – the Quality
Assurance Standards for Forensic DNA Testing Laboratories, effective
October 1, 1998, (Forensic QAS); and the Quality Assurance Standards for
Convicted Offender DNA Databasing Laboratories, effective April 1, 1999,
(Offender QAS). The Forensic QAS and the Offender QAS describe the
quality assurance requirements that the laboratory should follow to ensure
the quality and integrity of the data it produces.

      For the OIG CODIS laboratory audits, we generally relied on the
reported results of the laboratory’s most recent annual external evaluation



                                     - 90 -
                                                                 APPENDIX IV

to determine if the laboratory was in compliance with the QAS. Additionally,
we performed audit work to verify that the laboratory was in compliance
with the quality assurance standards listed below, because they have a
substantial effect on the integrity of the DNA profiles uploaded to NDIS.

  •   Facilities (Forensic QAS and Offender QAS Standard 6.1) – The
      laboratory shall have a facility that is designed to provide adequate
      security and minimize contamination.

  •   Evidence Control (Forensic QAS Standards 7.1 and 7.2) – The laboratory
      shall have and follow a documented evidence control system to ensure
      the integrity of physical evidence. Where possible, the laboratory shall
      retain or return a portion of the evidence sample or extract.

  •   Sample Control (Offender QAS Standard 7.1) – The laboratory shall
      have and follow a documented sample inventory control system.

  •   Analytical Procedures (Forensic QAS Standard 9.4 to 9.4.2 and Offender
      QAS Standard 9.3 to 9.3.2) – The laboratory shall monitor the analytical
      procedures using appropriate controls and standards.

  •   Review (Forensic QAS Standard 12.1) – The laboratory shall conduct
      administrative and technical reviews of all case files and reports to
      ensure conclusions and supporting data are reasonable and within the
      constraints of scientific knowledge.

      (Offender QAS Standard 12.1) – The laboratory shall have and follow
      written procedures for reviewing database sample information, results,
      and matches.

  •   Evaluations (Forensic QAS and Offender QAS Standards 15.1 and
      15.2) – The laboratory shall conduct evaluations annually in accordance
      with the QAS. Once every two years, a second agency shall participate
      in the annual evaluation.

  •   Subcontractor of Analytical Testing for which Validated Procedures Exist
      (Forensic QAS and Offender QAS Standard 17.1) – A laboratory
      operating under the scope of the QAS will require certification of
      compliance with these standards when a subcontractor performs DNA
      analyses for the laboratory. The laboratory will establish and use
      appropriate review procedures to verify the integrity of the data received
      from the subcontractor. When a subcontractor analyzes convicted
      offender samples, these procedures must include, but are not limited to




                                     - 91 -
                                                                  APPENDIX IV

      random re-analysis of samples, visual inspection and evaluation of
      results or data, inclusion of quality control samples, and on-site visits.


Office of the Inspector General Standards

     The OIG has established standards to test the completeness and
accuracy of DNA profiles and the timely notification of law enforcement when
DNA profile matches occur in NDIS. We test for compliance with these
standards as part of our CODIS laboratory audits.

  •   Completeness of DNA Profiles – A profile must include all the loci for
      which the analyst obtained results. Our rationale for this standard is
      that the probability of a false match among DNA profiles is reduced as
      the number of loci included in a profile increases. A false match would
      require the unnecessary use of laboratory resources to refute the match.

  •   Accuracy of DNA Profiles – The values at each locus of a profile must
      match those identified during analysis. Our rationale for this standard is
      that inaccurate profiles may: (1) preclude DNA profiles from being
      matched and, therefore, the potential to link convicted offenders to a
      crime or to link previously unrelated crimes to each other may be lost;
      or (2) result in a false match that would require the unnecessary use of
      laboratory resources to refute the match.

  •   Timely Notification of Law Enforcement When DNA Profile Matches Occur
      in NDIS – Laboratories should notify law enforcement personnel of NDIS
      matches within 2 weeks of the match confirmation date, unless there
      are extenuating circumstances. Our rationale for this standard is that
      untimely notification of law enforcement personnel may result in the
      suspected perpetrator committing additional, and possibly more
      egregious crimes, if the individual is not deceased or already
      incarcerated for the commission of other crimes.




                                      - 92 -
                                                              APPENDIX V

 DOJ OIG CODIS LABORATORY AUDITS, FYS 2000 – 2006

FY 2000 Audits

Audit Report Number GR-80-00-009, Broward County Sheriff’s Office Crime
Laboratory, Fort Lauderdale, Florida, April 2000.

Audit Report Number GR-80-00-011, Florida Department of Law
Enforcement Tallahassee Regional Crime Laboratory, May 2000.

Audit Report Number GR-80-00-013, Miami-Dade Police Department Crime
Laboratory Bureau, Miami, Florida, June 2000.

Audit Report Number GR-40-00-013, North Carolina State Bureau of
Investigation Crime Laboratory, Raleigh, North Carolina, June 2000.

Audit Report Number GR-90-00-019, California Department of Justice
Berkeley DNA Laboratory, Berkeley, California, July 2000.

Audit Report Number GR-50-00-025, Illinois State Police Springfield DNA
Laboratory, Springfield, Illinois, August 2000.

Audit Report Number GR-70-00-017, Pennsylvania State Police Greensburg
DNA Laboratory, Greensburg, Pennsylvania, September 2000.

Audit Report Number GR-30-00-005, Virginia Division of Forensic Science
Central Laboratory, Richmond, Virginia, September 2000.


FY 2001 Audits

Audit Report Number GR-80-01-005, Arkansas State Crime Laboratory, Little
Rock, Arkansas, January 2001.

Audit Report Number GR-50-01-003, Minnesota Bureau of Criminal
Apprehension Forensic Science Laboratory, St. Paul, Minnesota, March 2001.

Audit Report Number GR-80-01-010, Texas Department of Public Safety
Headquarters Laboratory, Austin, Texas, April 2001.

Audit Report Number GR-40-01-004, Kentucky State Police Forensic
Laboratory, Frankfort, Kentucky, May 2001.




                                   - 93 -
                                                              APPENDIX V

FY 2002 Audits

Audit Report Number GR-90-02-003, Orange County Sheriff-Coroner
Forensic Science Services, Orange County, California, October 2001.

Audit Report Number GR-90-2-007, Portland Forensic Laboratory, Portland,
Oregon, December 2001.


FY 2004 Audits

Audit Report Number. GR-70-04-006, Office of the Chief Medical Examiner
Forensic Sciences Laboratory, Wilmington, Delaware, May 2004.

Audit Report Number GR-40-04-006, Georgia Bureau of Investigation
Division of Forensic Sciences Laboratory, Decatur, Georgia, June 2004.

Audit Report Number GR-30-04-005, Baltimore City Police Department
Crime Laboratory, Baltimore, Maryland, July 2004.

Audit Report Number GR-60-04-009, Nebraska State Patrol Crime
Laboratory, Lincoln, Nebraska, July 2004.

Audit Report Number GR-30-04-006, Montgomery County Police Department
Crime Laboratory, Rockville, Maryland, September 2004.

Audit Report Number GR-90-04-015, San Diego Police Department Forensic
Science Section, San Diego, California, September 2004.


FY 2005 Audits

Audit Report Number GR-40-05-002, United States Army Criminal
Investigation Laboratory, Forest Park, Georgia, October 2004.

Audit Report Number GR-50-05-001, Kansas City Police Crime Laboratory,
Kansas City, Missouri, November 2004.

Audit Report Number GR-70-05-005, New Jersey State Police Forensic
Science Laboratory Bureau, Hamilton, New Jersey, December 2004.

Audit Report Number GR-70-05-009, The City of New York Office of Chief
Medical Examiner Department of Forensic Biology, New York, New York,
February 2005.



                                   - 94 -
                                                               APPENDIX V

Audit Report Number GR-60-05-005, Colorado Bureau of Investigation
Department of Public Safety DNA Laboratory, Denver, Colorado, April 2005.

Audit Report Number GR-70-05-011, State of Connecticut Forensic Science
Laboratory, Meriden, Connecticut, April 2005.

Audit Report Number GR-40-05-007, South Carolina Law Enforcement
Division Forensic Services laboratory, Columbia, South Carolina, May 2005.

Audit Report Number GR-40-05-008, Florida Department of Law
Enforcement Tampa Bay Regional Operations Center, Tampa, Florida,
May 2005.

Audit Report Number GR-50-05-011, State of Michigan, Department of State
Police Lansing Forensic Science Laboratory, June 2005.

Audit Report Number GR 60-05-009, Arizona Department of Public Safety
Scientific Analysis Bureau DNA Laboratory, Phoenix, Arizona, June 2005.


FY 2006 Audits

Audit Report Number GR-90-06-001, California Department of Justice
Bureau of Forensic Services Fresno Regional Laboratory, Fresno, California,
November 2005

Audit Report Number GR-40-06-002, State of Mississippi Department of
Public Safety Mississippi Crime laboratory Jackson, Mississippi. December
2005




                                   - 95 -
                             APPENDIX VI

CODIS USER ANNUAL REMINDER FORM




             - 96 -
         APPENDIX VI




- 97 -
                                                             APPENDIX VII

              OIG CODIS ADMINISTRATOR SURVEY

     The following guidance was provided to the survey respondents at the
beginning of the survey:

      As a rule, please select only one answer to each of the survey
      questions. Guidance on how to interpret the question is
      presented in italics. Note that throughout the survey, “NDIS
      requirements” is used to refer to all of the requirements with
      which an NDIS-participating laboratory has to comply to use and
      maintain their CODIS system, including the NDIS operating
      procedures and NDIS data acceptance standards. However, we
      do distinguish NDIS requirements from the QAS, even though
      compliance with the QAS is required for NDIS participation.

       Survey respondents were also instructed to provide their responses
directly to the OIG, with no copy to any other organization, such as the FBI,
the National Institute of Justice, or accrediting organizations.

      Below, we describe our strategy for tallying the survey responses, as
well as give a list of the survey results, by question.


Tallying of Survey Responses

      A few different systems were devised that would allow us to
summarize the survey results as well as calculate averages and percentages
for various questions. The system was based on the type of question and
the calculation that would best portray the results of that question.

      We tallied the number of “yes” and “no” responses for questions 5, 23,
27, 33, 36, 37, 38, 39, 40, and 41. In addition, we assigned a number value
to questions, 1, 3, 4, 11, 16, 32, 34, 42, 44b, and 46, but the numbers had
no positive or negative significance.

      Questions 7, 8a, 9, 10, 13, 14, 17, 18, 21, 22, 26, 28, 29, 35, 43, and
44a were assigned a numerical value where the numbers had a positive or
negative implication, moving from negative to positive as the numbers
became larger. For questions 2, 8b, 12, 19, 20, 30, and 45 we created our
own alpha key (i.e., we assigned alphabetic designators, similar to
acronyms, that allowed us to tally the responses in the limited space of our
spreadsheet).




                                    - 98 -
                                                              APPENDIX VII

       Tallying results for question 15 was more complex than the other
questions because there was not typically one correct response for the
scenarios given in the question. To each scenario, respondents could select
"Yes," "Yes, under the following conditions," or "No, for the following
reason(s)." As a result we developed a complex grading matrix that could
help us evaluate the different factors that a respondent could cite to justify
their response. We distinguished between primary, secondary, and
peripheral factors that would need to be considered in evaluating each
scenario. Some scenarios were simpler and did not have that many factors,
but the more complex scenarios had many factors. From that we developed
a grading scale where responses were graded based upon the number of
factors that they provided. The scale was 1 to 5, with 1 = poor,
2 = marginal, 3 = adequate, 4 = good, and 5 = exceptional. We averaged
the grades, but also tracked the number of "1" responses, or “poor”
responses received.

      For questions 24 and 25 we summarized the comments into phrases.
Then we categorized the phrases and grouped them into similar categories.
For questions 6 and 31 the actual percentages and dates given by the
respondents were used.

      In addition, 26 of the questions allowed respondents to provide
comments. Some comments were modified slightly by auditors to correct
for grammar and sentence structure. The 26 questions were 8, 13, 11, 17
(in two separate places), 20 (in two separate places), 23, 27, 28, 29, 30, 32,
34, 35, 36, 37, 38, 39, 40, 41, 42, 44.b., 45 (in two separate places), and
46. The comments provided were analyzed and trends were identified for
each question, as well as across all of the comments.


Survey Results

      Described below are the results for each question of our survey, along
with an explanation of the various options offered to the administrators with
each question. Throughout the survey questions, italicized text was used to
give instructions to the administrators on how to interpret our questions and
proceed through the survey.




                                    - 99 -
                                                               APPENDIX VII

Demographics

1.   What CODIS level is your laboratory?

     Ninety-five respondents were from LDIS laboratories and 49 were from
     SDIS laboratories.


2.   What is your current role in the laboratory?


                             6%
                     13%
                8%                             Administrator (AD)
                                               AD & Casework (CW)
              8%                               AD & Offender (CO)
                                               AD & CW / CO
                                 65%
                                               AD + Other




3.   How long have you been the CODIS Administrator at your
     laboratory (include past experience if you are not currently the
     CODIS Administrator)?

     The average time the respondents were CODIS administrators was 3
     to 5 years.


4.   What is the size of the DNA section in your laboratory (include
     technicians, examiners, managers, etc., but not clerical support
     or management that are not specific to the DNA section)?

     The average size of respondents’ DNA laboratory was 6 to 10
     positions. This includes all staff specific to the DNA portion of their
     laboratory.




                                   - 100 -
                                                           APPENDIX VII

5.   Are you an FBI-trained quality assurance auditor?




                           43%
                                                          Yes
                                            57%           No




FBI CODIS Unit Responsiveness

6.   For your communications with the CODIS Unit during the last 2
     years, please estimate what percentage of those
     communications were for the following purposes:

       _% confirmation on whether a profile is allowable for NDIS
       _% support to defend my decisions to investigators or
          attorneys
       _% annual certifications, filings, or paperwork
       _% assistance in managing CODIS user information
       _% QAS audit and corrective action submission or responses
       _% guidance on hit counting or match resolution
       _% clarification on NDIS Operating Procedures
       _% submission of other routine required paperwork
       _% Other [please specify]:

     Percentages were highest for the purposes listed below.

       •   QAS audits and corrective action,

       •   information technology matters (mentioned under “Other”), and

       •   annual certifications and paperwork.




                                  - 101 -
                                                           APPENDIX VII

7.   How would you rate the timeliness of responses you have
     received, in the last 2 years, from the CODIS Unit to questions
     or concerns you have had on the following topics:




     While 139 responses were received to this question, a significant
     percentage marked “N/A” if the reason we offered did not apply to
     their usual contact with the FBI. The higher the percentage of “N/A”
     responses, the fewer the people who contacted the FBI on that topic.
     The percentage of “N/A” responses can be seen in the “N/A” column
     for each category.

     The chart also shows the average responses for each topic given. The
     rounded average responses ended up being in the latter two columns.




                                 - 102 -
                                                           APPENDIX VII

8.   Please complete the following questions if you selected “Often,
     no response received” or “Often, response delayed more than 2
     weeks” to any of the options in the above question.

     a.     How often did you feel that the untimely responses from
            the CODIS Unit has limited your ability:

                                  3%
                                                     Very often
                                         23%
                                                     Often
                     45%                             Sometimes
                                                     Rarely

                                       28%


     b.     To what cause(s) do you attribute the untimely responses
            from the CODIS Unit? [Check all that apply]




                   13%                                       Lack of Understanding

                         20%                                 Not a High Priority
          Causes




                               31%                           Understaffing

                               31%                           Other

                                               53%           Unsure


              0%           20%           40%         60%

                               Percentages




                                     - 103 -
                                                          APPENDIX VII

9.   For those matters for which the CODIS Unit has been timely in
     responding (responses received in less than 2 weeks), to what
     degree did that response address your questions or concerns?




     While 125 responses were received for this question, a significant
     percentage marked “N/A” if the purpose did not apply to their usual
     contact with the FBI. The higher the percentage of “N/A” the fewer
     the people who contacted the FBI on that topic. The percentage of
     “N/A” responses can be seen in the “N/A” column for each category
     and the rounded average responses ended up being in the latter two
     columns.




                                 - 104 -
                                                            APPENDIX VII

10.   If you have raised concerns about CODIS or NDIS operations to
      the CODIS Unit and those concerns remain unaddressed, to
      what degree do you believe those concerns have the potential
      to undermine the long-term success of CODIS (i.e., the ability
      of CODIS to accomplish its mission)?

            No potential, since the question or concern was a
            one-time issue limited to my laboratory
            Minimal potential, since the question or concern is
            probably an isolated issue for laboratories similar in
            size or level to mine
            Moderate potential, since the question or concern is
            probably a recurring issue for laboratories similar in
            size or level to mine
            Significant potential, since the question or concern is
            a recurring issue for many laboratories in the CODIS
            community

      Fifty responses were received for question 10 and the average
      response was between moderate and minimal potential.


11.   What suggestions do you have for how the CODIS Unit can
      improve its responsiveness to the CODIS community’s
      questions or concerns?

      We received 39 comments. Trends in the comments were that the
      CODIS Unit needs more staff, and the CODIS Unit should disseminate
      more info to the CODIS community via the CODIS Website or Criminal
      Justice Information System Wide Area Network (CJIS WAN).

      In addition, disseminating more information to the CODIS community
      via the CJIS WAN was also a comment trend identified when all 636
      comments were analyzed. Specifically, our analysis showed 37
      respondents made a total of 51 comments regarding posting
      information through the CJIS WAN.

      A related comment trend is that while the FBI’s accessibility and
      responsiveness has improved, more improvements are needed; our
      analysis showed 20 respondents made a total of 28 comments
      regarding the FBI’s inaccessibility and its untimely responses.

      Suggestions were made for the FBI to set standards on timeliness of
      responses and to have a mechanism for making sure all responses are



                                  - 105 -
                                                              APPENDIX VII

      addressed, similar to the type of standards or tracking that is done for
      the CODIS contractor's help desk with information technology
      questions. In situations where a response cannot be formulated in a
      timely fashion, suggestions were made for at least a response
      indicating something along the lines of "X person will respond by Y
      time with the information you requested."


Allowability of DNA Profiles

12.   In your laboratory, who currently is ultimately responsible for
      ensuring that casework profiles are uploaded in accordance
      with NDIS requirements? [Having the final responsibility does not
      preclude the possibility that the person responsible may consult with
      another member of the laboratory to confirm their conclusion.]
      If your answer to question 12 indicates you are partially or fully
      responsible for designating which profiles are uploaded to NDIS, please
      complete questions 13-15.


                    5%                        Analyst
                           12%
             13%                              CODIS Administrator

                                              Analyst & Reviewer


            26%                41%            All

                                              Analyst & CODIS
                                              Administrator




                                   - 106 -
                                                            APPENDIX VII

13.   How difficult is it to determine what categories of profiles can
      be uploaded to NDIS? [In the options offered below “another
      source” is any source other than the documents supplied by the FBI to
      inform you on these topics, such as the CODIS Administrator’s
      Handbook, or the NDIS Operational Procedures. Examples of other
      sources you might consult are the NDIS Custodian or another CODIS
      Administrator.]

            Very difficult (routinely requires clarification from
            another source)
            Difficult (occasionally requires clarification from
            another source)
            Routine (rarely requires clarification from another
            source)
            Easy (does not require clarification from another
            source)

      We received 130 responses to question 13 and the average response
      was “Routine.”


14.   How confident are you personally that when you conclude that
      a profile is permitted in NDIS, you are correct?

            Completely confident.
            Consistently confident. On rare occasion I
            appreciate having additional confirmation from
            another source on my decision.
            Generally confident, but would occasionally
            appreciate having confirmation from another
            source.
            Somewhat confident, and often solicit
            confirmation from another source on my decision.
            Minimally confident, and routinely solicit
            confirmation from another source on my decision.

      We received 130 responses to question 14 and the average response
      was closest to the “consistently confident” option.




                                  - 107 -
                                                            APPENDIX VII

15.   Would you categorize the following samples as a “forensic
      unknown” suitable for NDIS? [Please base your analysis only on
      the information provided in the question, and assume the profiles have
      >=10 loci.]

      Each scenario offered the following options:

                  Yes
                  Yes, under the following conditions:
                  No, for the following reason(s):

      We used a grading scale that evaluated the quality of response we
      received from respondents, with 1 = poor and 5 = exceptional.

      a.   A profile developed from crime scene evidence that once
           analyzed is revealed to match the suspected perpetrator?

           We received 131 responses and the average grade was 3.4.

      b.   A profile developed from crime scene evidence that does
           not match any reference sample provided (suspect,
           victim, or elimination)?

           We received 132 responses and the average grade was 3.6.

      c.   A profile developed from an item submitted by a law
           enforcement agency for analysis (item source or crime
           committed is unclear) that does not match any reference
           sample provided?

           We received 132 responses and the average grade was 4.3.

      d.   A profile developed from crime scene evidence that is
           confirmed to be a mixture of the victim and suspected
           perpetrator (reference samples are available)?

           We received 132 responses and the average answer was 4.1.

      e.   A profile developed from crime scene evidence that is a
           mixture of two contributors that could include the victim,
           but reference samples are not available?

           We received 133 responses and the average answer was 3.5.



                                   - 108 -
                                                                       APPENDIX VII

      f.   A profile developed from crime scene evidence that is a
           mixture of three contributors, including the victim, and
           only the victim’s reference sample is available?

           We received 133 responses and the average grade was 3.7.


16.   What (as in a law or policy document) or who (as in a position)
      do you believe to be the final authority on what profiles your
      laboratory uploads?

      For question 16 most respondents gave multiple answers, even though
      we asked for a single “final authority.” Consequently, the percentages
      overlap and do not total 100 percent, which is why we did not put
      percent labels on these charts, to preclude misinterpretation.
      However, the dominant responses are clear. “N/A” responses are not
      reflected but were few.


              Question 16a: Who or what is the final authority on what
                         profiles your lab uploads to LDIS?

           National Representative

           State Representative
                                     What or Who




           Local Representative

           National Law or Policy

           State Law or Policy

           Local Law or Policy
                                            0%     20%      40%        60%   80%
                                                         Percentages


      In the preceding chart it is clear that CODIS administrators see the
      LDIS administrator as the primary authority over what goes into LDIS.




                                        - 109 -
                                                              APPENDIX VII

          Question 16b: Who or what is the final authority on what
                     profiles your lab uploads to SDIS?

    National Representative

    State Representative




                                 What or Who
    Local Representative

    National Law or Policy

    State Law or Policy

    Local Law or Policy                  0%    20%      40%        60%   80%

                                                     Percentages


In the preceding chart it is clear that CODIS administrators see the
SDIS administrator as the primary authority over what goes into SDIS,
although roughly one-third of the responses included an emphasis on
the state law or policy.


        Question 16c: Who or what is the final authority on what profiles
                         your lab uploads to NDIS?


     National Representative

     State Representative
                               What or Who




     Local Representative

     National Law or Policy

     State Law or Policy

     Local Law or Policy
                                       0%       20%           40%        60%

                                                     Percentages


In the preceding chart we see NDIS is the only level where
respondents weighed the national law or policy almost as heavily as
they did the national representative.



                               - 110 -
                                                             APPENDIX VII

17.   From your experience in the CODIS community, do you believe
      that NDIS-participating laboratories have the same
      understanding of what profiles are suitable for inclusion in
      NDIS?
            Yes, all laboratories have the same understanding
            Yes, laboratories have the same understanding with
            only rare exceptions
            No, not all laboratories have the same understanding,
            but community understanding is improving
            If possible, please explain:
            No, and community confusion is increasing
            If possible, please explain:
            Unsure or not applicable based upon limited
            experience

      The average response to question 17 was “No, not all laboratories
      have the same understanding, but community understanding is
      improving.”

      Administrators who said that the CODIS community does not have the
      same understanding had the option of providing additional comments,
      and 70 respondents did.

      Most of the respondents focused their answers on their participation in
      discussions at the National CODIS Conferences (NCC). Some took the
      perspective that the discussions further confused people, while others
      felt that the discussions helped by clarifying troublesome scenarios.


18.   Do you believe there are NDIS-participating laboratories
      (including your own) that knowingly upload profiles that they
      believe to be “borderline” (i.e., probably unallowable) if they
      believe it will further an investigation?
            No
            Yes, but they are the rare exception
            Yes, and it could be occurring beyond a rare
            exception
            Unsure or not applicable based upon limited
            experience

      Twenty-three percent of respondents to question 18 said “Unsure or
      not applicable” and the majority of the remaining responses were “Yes,
      but they are the rare exception.”



                                   - 111 -
                                                             APPENDIX VII

19.   If a member of your DNA laboratory has a question regarding
      whether a profile is allowable for upload to NDIS, who or what
      would be their most likely source for clarification?
            CODIS Administrator’s Handbook or NDIS Operating
            Procedures
            CODIS Administrator in their laboratory
            CODIS Administrator in another laboratory
            NDIS Custodian
            An examiner in their laboratory
            Other:

      Respondents gave multiple answers to question 19, and therefore we
      were not able to calculate true percentages. Instead, we focused on
      which sources of guidance were the top three named.
      We received 143 responses, with three options selected the most by
      respondents as all or part of their answer:

        •   111 respondents cited “CODIS Administrator in their laboratory”;

        •   27 respondents cited “CODIS Administrator Handbook”; and

        •   27 respondents cited “CODIS Administrator in another laboratory.”


20.   What do you believe the CODIS Unit can do to improve
      community understanding of what profiles are permitted at
      NDIS? [Check all that apply]

            Conduct specific training
            Increase discussion at the annual CODIS Conference
            Disseminate better information and guidance
            Please describe:
            Other:

      Since this question permitted multiple responses, the chart below is
      only intended to convey the magnitude of response.

      The three primary options we offered were selected pretty evenly, as
      ways that would help community understanding.




                                   - 112 -
                                                                               APPENDIX VII


                                       Improving Community Understanding of
                                         What Profiles are Permitted in NDIS



                               Other
        Improvement Methods




                               Disseminate better information & guidance



                               Increase discussion at National CODIS Meetings



                               Conduct specific training


                              0%       10%     20%         30%    40%      50%     60%

                                                     Percentage



Laboratory Quality

21.   Please rank your laboratory’s quality of operations as one of
      the following:
      1 = Poor, since there are still fundamental quality controls we
      fail to consistently apply OR we have one or more staff
      members that are not fully committed to QAS compliance.

      2 = Fair, since we routinely apply most quality controls in our
      operations, but still need occasional improvement. All staff are
      committed to QAS compliance, but occasionally are not
      properly informed about the standards.

      3 = Good, since we consistently apply all appropriate quality
      controls in our operations. All staff are fully committed to QAS
      compliance and are proficient in what those standards are.




                                                   - 113 -
                                                         APPENDIX VII

      4 = Excellent, since we apply all appropriate quality controls,
      and actively pursue enhancing those controls. All staff are
      committed to QAS compliance, are proficient in what those
      standards are, and are committed to surpassing those
      standards whenever warranted to ensure excellence.

      We received 143 responses to question 21 and the average answer
      was 3.6.


22.   How would you rank your laboratory’s quality of operations in
      relation to other laboratories?

      1 = Below average (the majority of laboratories surpass our
          laboratory)

      2 = Average (our laboratory is comparable to the majority of
          laboratories)

      3 = Above average (our laboratory surpasses the majority of
          laboratories)

      4 = Outstanding (our laboratory is a leader in quality in the
          DNA community)

      5 = Unsure or not applicable based upon limited experience

      We received 142 responses to question 22 and the average answer
      was 3.2.




                                 - 114 -
                                                                 APPENDIX VII

23.   Do you know of any NDIS-participating laboratory (including
      your own) that is currently operating with what you would
      consider to be a material weakness in its quality of operations?

                             8%


                                                           No
                                                           Yes

                                  92%



      For question 23 we received 140 responses and the respondents who
      said “yes” had the opportunity to provide additional comments and 10
      did. Comments included statements regarding weaknesses related to
      the following areas:

          •   the inherent limitations of one-person DNA laboratories;

          •   uploading profiles that have not been fully reviewed, or on behalf
              of other laboratories where quality has not been confirmed;

          •   uninvolved off-site technical leaders; and

          •   first-hand knowledge of laboratories (public and private) that
              emphasize productivity at the expense of quality.


General CODIS Operations

24.   What three issues pose the greatest challenge to the mission of
      CODIS in the next five years?

      We received 126 responses to question 24 and the top challenges are
      listed below.

      •   19 percent – Expansion and Change,

      •   18 percent – Resources,

      •   12 percent – Profile Integrity or System Operations, and


                                      - 115 -
                                                             APPENDIX VII

      •   11 percent – Data Management or System Administration.


25.   What three aspects of CODIS do you believe have been its most
      important successes?

      We received 122 responses to question 25 and the most important
      successes are listed below.

      •   34 percent – Crime Solving and Prevention,

      •   25 percent – System Benefits, and

      •   12 percent – Community Assistance or Communication Connections.


26.   How would you rate the FBI CODIS contractor’s overall
      performance? The numeric rating scale used is below.

      1 = Unacceptable        4 = Good

      2 = Poor                5 = Excellent

      3 = Fair

      The average answer was 4.5.


27.   Do you believe the CODIS software has addressed the needs of
      the CODIS community?


                           8%


                                                       Yes
                                                       No
                                92%




                                   - 116 -
                                                               APPENDIX VII

28.   How would you characterize the FBI’s current management of
      CODIS? The numeric rating scale used is below.

      1 = Unacceptable        4 = Good

      2 = Poor                5 = Excellent

      3 = Fair

      The average answer was 4 and, of the 143 responses we received to
      this question, 24 gave additional comments.


29.   To what extent has the FBI’s management of CODIS improved
      over the last 2 years?

      The following numeric rating scale was used:

      1 = No improvement observed 4 = Substantially

      2 = Minimally                        5 = Extensively

      3 = Moderately

      N/A = Unsure or not applicable based upon limited experience

      Of the 143 responses received, 21 provided additional comments and
      27 percent said “N/A.” The average answer was 3.1.

      Trends in this section of the survey are listed below.

         •   SAIC does an excellent job.

         •   The software has become more user-friendly.

         •   CODIS Unit communication and accessibility have improved. The
             NCC, the CODIS website, and NDIS procedure updates have
             helped but further improvements could be made.




                                    - 117 -
                                                             APPENDIX VII

NDIS Audit Review Panel

30.   Do you believe the NDIS Audit Review Panel has improved
      community compliance with the QAS? [Check all that apply]




                                                       13%
                       34%           48%
                                                       9%
                                   Total
                                   Yes's               26%

                         13%



                    Yes: Ensures consistency
                    Yes: Ensures corrective action
                    Yes: Ensures both of these
                    No: Still enforcing individual interpretations
                    Unsure


      Note that this chart does not include a small number of “other”
      designations that were received, accompanied by supplemental
      comments. The comments further emphasized that individual
      interpretations of standards still exist.


31.   For your most recently completed audit panel review, when
      was the audit and accompanying corrective action
      documentation submitted to the FBI?

      We received 137 responses:

        •   18 percent selected the year “2003,”

        •   39 percent selected the year “2004,”

        •   9 percent selected the year “2005”; and



                                   - 118 -
                                                               APPENDIX VII

        •      34 percent selected “Not applicable,” which was offered as an
               option to those respondents who did not know or were not
               involved in this process. These respondents were then asked to
               skip to question 36.


32.   In your most recently completed audit panel review, please
      estimate how long it took from the time that your audit and
      corrective action documentation were originally submitted until
      you received notification that the audit was closed?



                    > 1 year

               7 mo. to 1 year
        Time




                4 to 6 months

                0 to 3 months

                             0%        10%         20%        30%        40%

                                                Percentage

      When we asked about the total time it took for the processing of their
      last completed external QAS audit, we observed that there was slightly
      less than one-third who said it took longer than 6 months, roughly
      one-third who said it took from 4 to 6 months and slightly more than
      one-third who said it took 0 to 3 months. This does not include the
      less than one percent of “N/A.”




                                      - 119 -
                                                              APPENDIX VII

33.   In this same completed audit panel review, were you asked to
      supply additional corrective action documentation after you
      made your original submission?




                                    31%
                                                      Yes
                                                      No
                          69%




      This information sheds some light on potential causes of delay in
      closing out audits, since nearly one-third of the respondents indicated
      that the Audit Review Panel had followed-up to get more corrective
      action documentation after the original submission by their
      laboratories.


34.   For this same completed audit panel review, please estimate
      how much time elapsed after you supplied all additionally
      requested corrective action documentation until you received
      notification that the audit was closed?



                 4 to 6
                                        41%
                months
         Time




                0 to 3
                                                    59%
                months

                          0%     20%          40%          60%       80%
                                         Percentages

      This question was conditional upon the response to the preceding
      question, therefore non-valid responses were disregarded.




                                   - 120 -
                                                             APPENDIX VII

35.   How would you characterize your perception of any
      improvements made in the last 2 years in the NDIS Audit
      Review Panel’s timeliness of review?

      The numeric rating system used is below.

      1 = Timeliness does not seem to be improving.

      2 = Timeliness is improving slowly.

      3 = Timeliness is actively improving.

      4 = Necessary improvements have already been made.

      We received 83 responses and the average was 2.7, closest to the
      “actively improving” designation. Respondents also had the option of
      selecting “other” and providing a comment. Eleven of the 81
      respondents provided comments and the trend showed that
      respondents had no basis to form an opinion as to whether the NDIS
      Audit Review Panel improved the timeliness of their reviews.


FBI Guidance to the CODIS Community

36.   Does the FBI provide sufficient guidance on complying with the
      QAS, to ensure CODIS participants understand and comply with
      those standards?




                          26%
                                                       Yes
                                                       No
                                     73%




      Note this does not reflect the less than 1 percent of respondents who
      said “N/A.” The respondents who said “no” had the option of providing
      additional comments, and 31 did. The trend in the comments was




                                  - 121 -
                                                              APPENDIX VII

      interpretation of standards varies between auditors and the CODIS
      community as a whole.


37.   Does the FBI provide sufficient guidance on complying with the
      NDIS requirements, to ensure NDIS participants understand
      and comply with those requirements?




                           19%
                                                        Yes
                                                        No

                                     81%



      Note this does not reflect the less than 1 percent of respondents who
      said “N/A.” The respondents who selected “no” had the option of
      providing comments, and 20 did. The trends identified in the
      comments were interpretation of standards varies between auditors
      and the CODIS community as a whole and the CODIS Unit does not
      respond to questions in a timely manor.




                                   - 122 -
                                                            APPENDIX VII

38.   Do you believe that the FBI’s audit document enables an
      external QAS auditor to identify all of a laboratory’s quality
      assurance weaknesses?


                          16%

                                                      Yes
                                       58%            No
                      26%                             N/A




      We received a total of 140 responses to question 38. The respondents
      who selected “no” had the option of providing additional comments,
      and 33 did. The trends identified in the comments were interpretation
      of standards varies between auditors and the CODIS community as a
      whole and the standards and the audit document need to be updated.


39.   Do you believe the FBI has provided adequate training on the
      proper use of the QAS audit document to ensure that
      community QAS auditors are consistent and thorough in their
      assessment of compliance with the QAS?



                           17%
                                                      Yes
                                      48%
                                                      No
                          35%                         N/A



      We received a total of 140 responses to question 39. The respondents
      who selected “no” had the option of providing additional comments,
      and 48 did. The trends identified in the comments were interpretation




                                  - 123 -
                                                              APPENDIX VII

      of standards varies between auditors and the CODIS community as a
      whole.


40.   To be effective, do you believe external QAS auditors should be
      qualified in the method or platform they are auditing?

                                  3%

                            21%
                                                      Yes
                                                      No
                                       76%
                                                      N/A




      We received 143 responses to question 40. The respondents who said
      “no” were given the opportunity to provide comments, and 29 did.


41.   To be effective, do you believe external QAS auditors should be
      qualified in the specific application (casework or offender) they
      are auditing?

                                  3%

                          19%                           Yes
                                                        No
                                                        N/A
                                       78%




      We received 143 responses to question 41. The respondents who said
      “no” were given the opportunity to provide comments, and 26 did.

      The responses received about auditor qualifications to both question
      40 and 41 were put into context with the comments that were
      provided. A few examples are below:



                                   - 124 -
                                                                 APPENDIX VII

      •   Technology, platforms, and methods are similar enough where an
          auditor who is proficient or qualified in one will know enough to audit
          them all.

      •   A casework-qualified auditor can audit an offender laboratory but not
          vice versa.

      •   The auditors should be qualified or previously qualified, or at least
          one person from the audit team should be qualified.


42.   Do you have any suggestions for how the DNA community’s
      auditing structure (i.e., the way audits are conducted,
      processed, and reviewed) can be improved, to better aid
      national CODIS laboratory quality?

      The trends from comments we identified in question 42 are below:

      •   Interpretation of standards should be made more consistent.

      •   Actual QAS should be revised and clarified.

      •   Use the CODIS website to disseminate auditing information to CODIS
          the community.


43.   What level of consistency do you believe has existed in
      guidance to the CODIS community regarding compliance with
      NDIS requirements under the current CODIS Unit
      management? [Do not count as inconsistencies the changes resulting
      from expansions in the law to what is permitted in NDIS.]

      The numeric rating scale used for question 43 is below.

      1 = Inconsistent. The messages conveyed at meetings or
      conferences do not match what is contained in written
      guidance or what is conveyed in individual responses.

      2 = Somewhat consistent. The messages conveyed at meetings
      or conferences periodically match what is contained in written
      guidance or what is conveyed in individual responses.




                                      - 125 -
                                                              APPENDIX VII

      3 = Consistent. The messages conveyed at meetings or
      conferences match what is contained in written guidance or
      what is conveyed in individual responses, with rare exception.

      4 = Very consistent. The messages conveyed at meetings or
      conferences always match what is contained in written
      guidance and what is conveyed in individual responses.

      N/A = Unsure or not applicable based upon limited experience
      [skip to question 45]

      The average rating to this question was 2.8, which is closest to the
      “consistent” designation. In addition, 12 percent of the respondents
      said “N/A."


44.   If you designated a rating for question 43 as less than
      consistent:

      a.   How often did you feel that the inconsistency of guidance
           has limited your ability to perform your CODIS
           administrator duties or to comply with the NDIS
           Requirements?


                               2%

                                    15%

                   39%                               Very often
                                                     Often
                                                     Sometimes
                                    44%              Rarely




                                  - 126 -
                                                          APPENDIX VII

b.             To what cause(s) do you attribute the inconsistency of
               guidance? [Check all that apply]


                                                 Perceptions shifting
               70%                               over time
               60%                               Inconsistencies between
 Percentages



               50%                               written sources
               40%                               Personnel changes
               30%
               20%                               Inconsistencies between
               10%                               groups / organizations
                0%                               Misunderstood or
                           Causes                misapplied guidance
                                                 Other



The categories in the preceding graphic were offered as responses and
since multiple responses were permitted to this question we could not
calculate true percentages. This graphic is intended only as a way to
convey the magnitude of the responses given, by the 30 people who
responded to this question.




                                    - 127 -
                                                                     APPENDIX VII

45.   What do you believe would improve the consistency of
      understanding within the CODIS community regarding
      compliance with NDIS requirements?

                                                             Publish guidance
                        70%
                                                             given to individual
                        60%                                  labs
                                                             Increase training
          Percentages




                        50%
                        40%                                  opportunities
                        30%                                  Increase discussion
                        20%                                  at the NCC
                        10%
                                                             Other
                        0%
                                 Methods

      Multiple responses were permitted for question 45, and the options
      displayed above were the ones we offered as responses. In addition
      there were a total of 47 respondents who provided additional
      comments. The trends identified in these comments are listed below:

      •        The QAS and the related audit document need to be updated.

      •        Post frequently asked questions and answers on QAS and NDIS
               requirements.


46.   Do you have any other comments, suggestions, or concerns
      that you can offer regarding FBI administration of CODIS,
      CODIS operations in your laboratory or in the CODIS
      community as a whole, or factors that have the potential to
      adversely impact CODIS operations in the future?

      We received a total of 40 comments to question 46 and the trends we
      identified are listed below:

      •        There are inconsistencies in the way standards are interpreted
               throughout the CODIS community.

      •        The CODIS community needs more resources.




                                         - 128 -
                                                    APPENDIX VII

Inconsistencies in interpretation in the standards throughout the
CODIS community was also one of our comment trends; specifically
we received 161 comments from 83 respondents on the subject.

The second comment trend in question 46 regards resources that
include personnel, better technology, and tools, such as expert
systems. In addition, comments were made that indicated that the
lack of resources force laboratories to make difficult decisions
regarding resource allocation, and thus place pressure on quantity
versus quality, which may not be best for the CODIS community as a
whole.




                           - 129 -
          APPENDIX VIII




- 130 -
          APPENDIX VIII




- 131 -
                                                            APPENDIX VIII

     THE FEDERAL BUREAU OF INVESTIGATION’S (FBI)
                   RESPONSE TO THE
           OIG’S DRAFT AUDIT REPORT OF THE
     COMBINED DNA INDEX SYSTEM OPERATIONAL AND
            LABORATORY VULNERABILITIES

Recommendation #1. Develop and implement a plan to ensure that all
                  CODIS Administrators attend the FBI QAS auditor
                  training.

FBI Response: The FBI agrees that it would be beneficial for all CODIS
Administrators to receive the FBI Quality Assurance Standards (QAS) audit
training. The CODIS Unit is planning a special auditor training class(es) on
the Quality Assurance Standards (QAS) in the fall of 2006 for State and
Local CODIS Administrators that have not had auditor training since issuance
of the revised FBI Audit Document in July, 2004. All State and Local CODIS
Administrators that have not had the auditor training will be expected to
attend this training. It will consist of two days of training on the Audit
Document and ½ day on the DNA Data Accepted at NDIS scenarios.
Following this special auditor course, if there is a new CODIS Administrator,
he or she will be required to attend the auditor training on the QAS before
assuming his/her full Administrator duties. This requirement will be
incorporated into revisions to the Memorandum of Understanding for
Participation in the National DNA Index System (NDIS MOU).

Recommendation #2. Improve information sharing through enhancements
                  to the CODIS website, considering the suggestions
                  made by the community and implementing them
                  wherever practicable.

FBI Response: The FBI agrees that the CODIS website should be used to
transmit information of interest and importance to the CODIS community.
As a result of inquiries that come into the CODIS unit, we are aware that the
CODIS website may not be routinely consulted by the CODIS users so the
CODIS Unit will solicit suggestions for improving the utility of this website
from the State CODIS Administrators during their June 2006 meeting in
Dallas, Texas. These suggestions will be reviewed by the Scientific Working
Group on DNA Analysis Methods (SWGDAM) CODIS Committee and to the
extent practicable, implemented and shared with the CODIS community
during the Annual CODIS Conference in November 2006.




                                   - 132 -
                                                             APPENDIX VIII

Recommendation #3. Distill profile allowability guidance, including
                  scenarios that are discussed at national meetings,
                  into a decision-tree or other written user-friendly
                  guidance and disseminate that information to all
                  CODIS users.

FBI Response: The FBI agrees to disseminate additional allowability
guidance to CODIS users. The CODIS Unit has included on the CODIS
website, the presentations of the scenarios discussed at the Annual CODIS
Conference for the past several years. Those scenario presentations are
made available on the website following the Conference. With respect to
that portion of the recommendation relating to incorporating the rules for
profile eligibility into a decision-tree, the CODIS Unit and the SWGDAM
CODIS Committee (in preparation for the 2004 Annual CODIS Conference)
have each attempted to distill the eligibility determination into a decision
tree but these efforts have not been successful. It cannot be
overemphasized that each of these factual situations or scenarios is, in fact,
unique, and the change of one detail can potentially change the
determination of whether the profile is eligible for uploading to NDIS.
Accordingly, at this time, we do not believe that the eligibility question can
be accurately reduced into a user friendly decision tree.

The CODIS Unit will include all the scenarios discussed at the Annual CODIS
Conference in the CODIS Administrators Handbook and on the CODIS web
site (with a direct link to the scenarios). Additionally, the CODIS Unit will
include on the CODIS web site, to the extent appropriate, scenarios
submitted by members of the CODIS community and the response of the
NDIS Custodian.

Recommendation #4. Formally request that the Scientific Working Group
                  on DNA Analysis Methods consider, as part of its
                  maintenance of the QAS, the operation material
                  weaknesses identified by the CODIS Administrators,
                  including: (1) the inherent limitations of one-person
                  DNA laboratories; (2) uninvolved off-site technical
                  leaders, and (3) laboratories that upload profiles that
                  have not been fully reviewed.

FBI Response: The FBI agrees that the issues identified by the CODIS
Administrators that impact the quality operations of a forensic DNA
laboratory should be shared with SWGDAM - the body charged with the
responsibility of recommending revisions to the FBI Director for the Quality
Assurance Standards (QAS). The weaknesses identified by the CODIS
Administrators in the survey distributed by the OIG will be forwarded (once



                                    - 133 -
                                                           APPENDIX VIII

the OIG CODIS Audit Report has been finalized) to the SWGDAM Chairman
for their consideration during SWGDAM’s review of the FBI Director’s QAS.
Please see enclosed draft correspondence to the SWGDAM Chairman;
Enclosure #1-A.

Recommendation #5. Ensure that guidance on submission of information
                  to the NDIS Audit Review Panel is sent to those
                  members of CODIS labs that are responsible for this
                  activity.

FBI Response: The FBI agrees that it is important that the relevant
personnel in the CODIS laboratories have sufficient information to enable
them to submit appropriate and complete audit documentation. The Chief of
the CODIS Unit has already requested that CODIS Administrators provide
him with the contact information for the person in their laboratory
responsible for the QAS audits. The CODIS Unit will be mailing a copy of the
NDIS Procedure on “Review of External Audits” as well as a list of the
specific information considered audit documentation to the designated
contact persons for their information and review. This information will also
be included in the Annual CODIS Conference materials. Additionally, the
CODIS Unit, in conjunction with the Chair of the NDIS Audit Review Panel,
will present this information verbally at the Annual CODIS Conference in
November, 2006 (and annually thereafter) and will request permission from
the SWGDAM Chairman to present this information at the semiannual
SWGDAM meeting in July, 2006 and the public SWGDAM meeting held in
conjunction with the Annual Promega Symposium.

Recommendation #6. Develop and utilize a mechanism for tracking
                  information requests that are received by the CODIS
                  Unit to ensure a timely response.

FBI Response: The FBI agrees that it is important to track requests for
information to ensure that they receive an appropriate response. Tracking
systems are already in place within the CODIS Unit for the external audit
review process as well as the OIG audits of NDIS participating laboratories.
The CODIS Unit will post a written request form on the CODIS web site to
facilitate inquiries by CODIS users. The written requests submitted to the
CODIS Unit that require a response will be logged in and tracked in a
Request Log; please see a draft copy of the log - Enclosure #1-B. For those
requests requiring a response and that do not contain a due date, a due date
for two weeks from the date of receipt will automatically be assigned. This
Request Log will be printed out on a weekly basis and provided to the CODIS
Unit Chief for review.




                                  - 134 -
                                                              APPENDIX VIII

Recommendation #7. Develop communication policies that will allow the
                  CODIS Unit to provide written guidance to members
                  of the DNA community to the fullest extent possible.

FBI Response: As appropriate, the FBI will provide written guidance,
through CODIS Technical Bulletins, the CODIS website, or both, on issues of
interest and importance to the CODIS community. Additionally, at the time
of issuance, all CODIS Technical Bulletins are faxed to each NDIS
Participating Laboratory.

Recommendation #8. Develop a staffing plan that identifies current
                  hindrances to filling vacant positions in the CODIS
                  Unit, potential solutions to those hindrances, and a
                  time line of requirements for action to fill those
                  positions.

FBI Response: The FBI is committed to filling those vacancies that
currently exist in the CODIS Unit and will be exploring other avenues for
advertising those positions. The NDIS Custodian (Program Manager) and
CODIS Auditor positions require that the persons have some familiarity with
the National DNA Index System and the FBI Director’s Quality Assurance
Standards. Accordingly, the CODIS Unit Chief has mentioned the available
positions at meetings of the CODIS State Administrators, CODIS user
community and SWGDAM members in an effort to ‘get the word’ on these
positions. Additionally, the CODIS Unit Chief has encouraged qualified
persons to apply. To date, an insufficient number of qualified persons have
applied for these remaining positions so additional advertising forums will be
explored with the FBI’s Personnel Unit. For example, advertisements for the
available positions could be placed at forensic-related web sites (American
Academy of Forensic Sciences, American Society of Crime Laboratory
Directors, etc...). Additionally, FBI hiring is handled by the Administrative
Services Division and therefore the process and timeline are outside of the
control of the CODIS Unit and the Laboratory Division.

Recommendation #9.Develop written descriptions of routine activities and
                  responsibilities for current staff in the CODIS Unit,
                  particularly those with multiple roles, and
                  incorporate this information in a procedure manual
                  for each position.

FBI Response: The FBI agrees that more detailed information on the
routine activities and responsibilities of the current CODIS Unit staff would
be helpful in the training process for new staff to the Unit. To ensure that
the current staff is not overburdened, the CODIS Unit will consult with the



                                    - 135 -
                                                              APPENDIX VIII

Personnel Unit to determine if this additional task may be added to their
performance review objectives for the following year. This should facilitate
the collection of this information while ensuring that this additional task is
appropriately incorporated into the staff’s responsibilities.

Recommendation #10. Incorporate the three activities we identified that
                 are performed on behalf of the CODIS Unit by other
                 FBI personnel - auditing of NDIS data, providing of
                 training on QAS compliance, and overseeing the
                 activities of the Review Panel - into the CODIS Unit’s
                 objectives and measurements to fully reflect the
                 CODIS Unit’s efforts to address its mission.

FBI Response: The FBI is supportive of including additional measurements
to demonstrate how the CODIS Unit fulfills its mission and statutory
responsibilities. Because the CODIS Unit has not previously been tracking
the three areas noted above - auditing of NDIS data, providing of training on
QAS compliance, and overseeing the activities of the NDIS Audit Review
Panel - the CODIS Unit plans to begin to track these additional areas in
Federal Fiscal Year 2007.

Recommendation #11. Ensure the development contract process is
                 completed as planned and that the development
                 contract awarded allows for continued
                 responsiveness to legislated changes to CODIS
                 operations.

FBI Response: In light of the OIG’s statements that the “FBI has taken
measures to provide for the operations, maintenance, and security of the
CODIS system for the near future...” and that “the independent assessment
determined the Justice for All Act could be implemented and operate over
the next 3 to 5 years without exceeding capacity of the current CODIS
architecture”, it appears that this Recommendation may be unnecessary.
The CODIS Unit, with the assistance of the NDIS Procedures Board, has
addressed changes in Federal law, first through the Justice For All Act of
2004 and this year with the DNA Fingerprint Act of 2005 and these changes
to procedures and the operation of the National DNA Index System have
been implemented as soon as practicable (please refer to OIG report at
pages 4 and 5). The CODIS Unit will continue to follow its schedule for the
development contract. In the event of future legislative changes to the
Federal law affecting the operation of the National DNA Index System, such
changes will continue to be addressed and implemented as soon as
practicable.




                                    - 136 -
                                                             APPENDIX VIII

Recommendation #12. Ensure that the internal controls over the
                 compliance of NDIS data are strengthened beyond
                 the current reliance on self-certification annual
                 reminder forms.

FBI Response: The FBI does not agree that the self-certification forms and
other mechanisms currently in place are insufficient internal controls for the
ensuring the appropriateness of DNA data uploaded to NDIS. The annual
reminder forms on DNA Data Accepted at NDIS must be reviewed and
signed by each CODIS user. CODIS users in State and Local laboratories
submit these forms to their CODIS Administrator who is required to maintain
these on file for inspection, if requested by the FBI.

Additionally, the CODIS Unit includes a presentation on the DNA Data
Acceptable at NDIS at each Annual CODIS Conference. Beginning in
February, 2006, the NDIS Custodian now provides 2 to 3 hours of instruction
and discussion on the DNA Data Acceptable at NDIS during each CODIS
training class.

The FBI disagrees with the OIG’s generalization that the annual certification
forms have not been successful in ensuring compliance with profile
allowability restrictions based on its review of OIG audits conducted during
2004 and 2005. We would suggest that the 2004 and 2005 audit data be
contrasted with the OIG recommendations from their 2001 audit of the
CODIS Program. For example, the 2001 CODIS audit found 40 instances of
inappropriate DNA profiles uploaded to NDIS by 5 out of 8 labs. While the
OIG reports 13 incidences of inappropriate profiles uploaded to NDIS, a
review of the data found in Figure 13 indicates that only 8 of those
incidences related to specimen eligibility issues while the remaining 5
findings relate to accuracy and review issues. A comparison of these
numbers from 2001 (before the annual reminder forms were implemented)
and the 2004/2005 audits does demonstrate fewer instances of findings
relating to specimen eligibility at NDIS.

Recommendation #13. Implement a formal mechanism for tracking
                 findings in audits reviewed by an NDIS Audit Review
                 Panel so that common findings and inconsistencies in
                 interpretation can be identified.

FBI Response: The FBI agrees that information concerning standards
frequently cited in audits and differences in interpretation provide valuable
information that can be shared with the CODIS community and auditors to
ensure consistent interpretation and application of the FBI Director’s Quality
Assurance Standards (QAS). The CODIS Unit, and more recently the current



                                   - 137 -
                                                             APPENDIX VIII

and previous Chairs of the NDIS Audit Review Panels, have been informally
tracking this information since 2003 when presentations were made at the
public SWGDAM meeting held at Promega (September 2003) and the Annual
CODIS Conference (November 2003) which included a review of the external
audit review process, observations of common pitfalls in submitting the
audits and Standards that generated the most findings.

Beginning in 2006, the FBI has been tracking general information relating to
those Standards that generate the most findings. The FBI will now track
findings that are subsequently overturned. This information will be used in
Auditor Training Classes and will be shared with the CODIS community. The
FBI will not be tracking information that would identify a specific laboratory
in order to maintain the confidentiality of the audit review process.

Recommendation #14. Implement a formal mechanism for tracking
                 auditor performance so that QAS auditors who use
                 incorrect interpretations of the QAS can adjust their
                 performance and also so that the FBI can detect
                 whether individual QAS auditors require additional
                 guidance.

FBI Response: The FBI has informally been tracking issues relating to
inconsistent interpretation of the QAS for the past several years and has
informally communicated with the auditors’ employing organization
concerning such interpretations. Since the FBI is not the employing
organization for the auditors, it is left up to these organizations to take
whatever corrective measures deemed appropriate by the organizations. As
part of the tracking mechanism that will be implemented for QAS standards,
the FBI will also track issues of inconsistent interpretation by an auditor.
The FBI will continue to advise the auditor’s employing organization, as
necessary. The FBI will also establish relationships with the regional
auditing groups so as to keep them informed of any inconsistency in
interpretations of the QAS.


Recommendation #15. Use these mechanisms to provide specific training
                 to the DNA community on common findings and
                 inconsistencies observed, to aid the DNA
                 community’s compliance, and to further improve
                 consistency between organizations and QAS auditors.

FBI Response: The FBI will continue to share information with the CODIS
community concerning the proper interpretation of the FBI Director’s QAS.
Additionally, the CODIS Unit will include presentations on such topics during



                                   - 138 -
                                                                 APPENDIX VIII

the Annual CODIS Conference and will consult with the DNA Analysis Unit I
concerning a more formal integration of this information into the FBI
sponsored QAS auditor training.

Recommendation #16. Broaden the current methodology used by FBI QAS
                 auditors for NDIS profile verification to permit the
                 selection of profiles from each laboratory’s total
                 profiles in NDIS. This revised methodology should
                 continue once CODIS Unit auditors are on staff.

FBI Response: The external QAS audit currently conducted by qualified
auditors from the FBI’s DNA Analysis Unit I is governed by the QAS Audit
document. This Audit document is used by the CODIS community to satisfy
requirements for participation in the National DNA Index System. The
purpose of the external QAS audit is to ensure compliance with the FBI
Director’s QAS - a requirement in Federal law for participation in NDIS.

The issue of a profile’s eligibility for the National Index is not a quality issue
but, rather, an issue of the integrity of the DNA records uploaded to and
maintained at NDIS. The eligibility of DNA profiles, while also governed by
Federal law, is an issue addressed by NDIS Procedures. As such, the
eligibility of DNA profiles is ultimately determined by the NDIS Custodian.
The FBI believes it appropriate to have the review the issue of profile
eligibility separate from the external quality audit of an NDIS participating
laboratory. Thus, the FBI proposes that the review of profile eligibility
remain with the CODIS Unit auditors. The CODIS Unit auditors will conduct
external QAS audits of NDIS Participating Laboratories that will also include
a review of 50-150 DNA profiles per laboratory to ascertain whether DNA
profiles uploaded to NDIS were eligible for NDIS. For forensic caseworking
laboratories, a total of 50 DNA profiles may be reviewed and for offender
databasing laboratories, a total of 100 DNA profiles may be reviewed.

Recommendation #17. Expand the scope of CODIS Unit auditor duties to
                 include verification of compliance with NDIS
                 requirements.

FBI Response: Please refer to the FBI’s response to Recommendation #16
above. Additionally, the CODIS Unit auditors, during the external QAS audit
process, will perform a review of the following NDIS Procedure
requirements:

            1. Documentation to ensure that every CODIS user has complied
               with the Annual Reminder of DNA Data Acceptable at NDIS;




                                      - 139 -
                                                              APPENDIX VIII

            2. DNA profile eligibility (including review of DNA profiles at
               NDIS for required loci);
            3. Confirmation of Interstate Candidate Matches; and
            4. Outsourced DNA data subject to technical review.

Recommendation #18. Alter the annual user certification documentation
                 required from laboratories to include information
                 sufficient to confirm that all CODIS users are
                 completing the forms as required.

FBI Response: The FBI believes that the use of the annual certification
forms has increased the CODIS user’s awareness of the DNA profiles eligible
for NDIS. To ensure that all CODIS users are completing the forms as
required, the FBI now requires that the annual certification form is submitted
by all new CODIS users with the other documentation required for Adding a
CODIS User. Additionally, the CODIS Unit will be proposing changes to the
NDIS Procedures to require that each CODIS State Administrator provide the
NDIS Custodian, on an annual basis, with a listing of those CODIS Users in
their State who have completed and signed their Annual Reminder forms on
DNA Data Accepted at NDIS. The CODIS Unit will then check the CODIS
users identified on this annual listing to ensure that all approved CODIS
users have completed their annual reminder forms. Please refer to response
to Recommendation #12.

Recommendation #19. Ensure that QAS auditor training is based upon a
                 comprehensive written curriculum, including
                 guidance that reaches beyond the contents of the
                 audit document.

FBI Response: The FBI’s DNA Analysis Unit I has been providing auditor
training for five years since September 2000 when the QAS Audit document
was first introduced. To date, over 1,000 individuals have received the FBI
sponsored auditor training. The training is given by the Chief of the DNA
Analysis Unit I and follows a written curriculum. Each student is provided
with a notebook containing the presentation (to assist in documenting the
course, interpreting Standards and note-taking) as well as the FBI Audit
Document. At the conclusion of the auditor training, an examination is
administered to the participants and a grade of pass/fail is given.

To ensure the consistent interpretation of the Standards, appropriate
guidance has been included in the comment and discussion sections of the
QAS Audit Document and that constitutes the written guidance, in addition
to the training materials, provided to the participants. Auditors are




                                    - 140 -
                                                           APPENDIX VIII

encouraged to contact the DNA Analysis Unit I or the CODIS Unit if they
have a question concerning the interpretation of a Standard.

Recommendation #20. Develop web-based training tools for QAS
                 compliance and auditing information, to aid the
                 CODIS community’s awareness, understanding, and
                 consistent interpretation of the QAS.

FBI Response: The FBI is supportive of any mechanism that will facilitate
the CODIS community’s awareness, understanding and consistent
interpretation of the QAS. The FBI believes that the auditor training is one
such mechanism and efforts to expand that training to the internet could
further encourage consistent interpretation of the QAS. The FBI will explore
what additional resources would be needed for the development of
computer-based training tools for QAS compliance and auditing information.
Meanwhile, the integration of the CODIS Unit auditors into the external QAS
audit process and audit reviews are expected to further consistency in
interpreting the QAS.

Recommendation #21.    Monitor NDIS Audit Review Panel member
                 performance to ensure that members are timely, and
                 implement procedures for taking action in cases
                 where members are consistently untimely.

FBI Response: The FBI acknowledges the participation of State and local
forensic DNA scientists in the NDIS audit review process, and without whose
participation, this review process could not have been implemented. The
FBI does not agree that there is any need to formally monitor the
performance of NDIS Audit Review Panel Members to ensure that members
are timely. The overwhelming majority of NDIS Audit Review Panel
Members perform their reviews in a timely and satisfactory manner. While
the OIG audit has found one Panel Member who has been consistently late in
his/her responses, there are currently over 88 NDIS Audit Review Panel
Members. Accordingly, in light of the efforts of the NDIS Audit Review Panel
members who volunteer their time to assist in this endeavor and the lack of
any trend indicating that Panel members are consistently late in their
responses, the FBI does not see any need, at this time, to monitor Panel
Members’ performance for timeliness.

Recommendation #22.    Track information currently collected from
                 NDIS participants to ensure all external QAS audits
                 reported to the CODIS Unit are also submitted to the
                 NDIS Audit Review Panel.




                                   - 141 -
                                                            APPENDIX VIII

FBI Response: The FBI is supportive of efforts to further improve the audit
review process. The CODIS Unit does currently track the audits from receipt
to completion and closure of the audit. The CODIS Unit will also compare
the audit information reported by the State CODIS Administrators in
accordance with NDIS Procedures with the audit information tracked by the
Unit in an effort to ensure that all external audits conducted are subject to
the NDIS Audit Review process.




                                   - 142 -
                                                              APPENDIX IX

  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT

            The FBI response to the draft audit report appears in
Appendix VIII. In its response, the FBI generally agreed with our
recommendations and described the corrective actions it has taken or
intends to take with regard to the recommendations. However, the FBI
disagreed with a few of the recommendations, and these are identified as
“unresolved” in the listing below. The status of the individual
recommendations is as follows:

1.   Resolved. This recommendation can be closed when we receive
     documentation that: (1) the special QAS auditor training classes
     scheduled for the fall of 2006 have been conducted, and that current
     CODIS Administrators who have not yet had this training were in
     attendance; and (2) the NDIS MOU has been revised to reflect a
     requirement that new administrators receive this training prior to
     assuming their full CODIS duties.

2.   Resolved. This recommendation can be closed when we receive a
     description of the changes the FBI has implemented to enhance the
     information sharing capabilities of the CODIS website.

3.   Resolved. This recommendation can be closed when the FBI provides
     documentation that it has developed user-friendly resources, on the
     CODIS website or through other means, for allowing CODIS users to
     expand and test their understanding of profile allowability.

     Relatedly, we believe the FBI needs to reconsider its firm stance
     against a decision-tree type tool. While we acknowledge that every
     factual scenario presents different nuances of detail, there are many
     scenarios that ultimately can be distilled into a series of questions. In
     other words, to determine profile allowability, a CODIS user has to
     answer a series of question for each scenario and these could be
     captured in a tool similar to a decision tree. For example, questions
     could be given in a series, as follows: “Does this profile, in whole or
     part, match the victim’s profile? If yes, then is there a suspect or
     other known profile available to compare to, that enables deduction of
     the victim’s portion? If yes, then the victim’s portion should not be
     uploaded to NDIS.” Such a tool would not address every situation, but
     it would help users reason through the major factors that they should
     consider to determine allowability. The OIG continues to find
     unallowable forensic profiles in its CODIS laboratory audits, even in



                                   - 143 -
                                                              APPENDIX IX

      laboratories with experienced CODIS users. We believe that even
      rudimentary tools that are easy to use and understand would be an
      assistance to CODIS users as they develop their own understanding of
      allowability.

4.    Resolved. This recommendation can be closed when we receive a
      copy of the formal request that has been sent to the SWGDAM
      Chairman regarding the material operational weaknesses identified
      during our audit by CODIS Administrators. The FBI did not provide the
      draft correspondence to SWGDAM noted in its response.

5.    Resolved. This recommendation can be closed when we receive
      documentation that a listing of appropriate contacts for QAS audit
      resolution in each CODIS laboratory has been developed, and that
      guidance has been provided to those contacts on how they can ensure
      that their submissions to the NDIS Audit Review Panel are complete
      and appropriate to facilitate resolution.

6.    Resolved. This recommendation can be closed when we receive a
      written policy or procedure formalizing the process described in the
      FBI’s response, and documentation of its implementation. The FBI did
      not provide the draft copy of a request log noted in its response.

7.    Resolved. This recommendation can be closed when we receive the
      written policy or procedure that formally describes how the CODIS Unit
      ensures that it provides written guidance to the CODIS community to
      the fullest extent possible.

8.    Resolved. This recommendation can be closed when we receive a
      written plan that identifies where delays and hindrances have occurred
      in filling long-standing vacant CODIS Unit positions, and specific
      actions being taken to address those delays and hindrances to
      facilitate full staffing levels. This plan can include such actions as
      pursuing other avenues of advertising the positions, as described in
      the FBI response.

9.    Resolved. This recommendation can be closed when we receive
      documentation that each CODIS Unit position’s duties, responsibilities,
      and routine activities have been memorialized into a form of training
      manual for that position.

10.   Resolved. This recommendation can be closed when we receive
      documentation of the formalization of the three activities we describe
      into performance measurements for the CODIS Unit.



                                   - 144 -
                                                                APPENDIX IX

11.   Resolved. This recommendation can be closed when we receive
      documentation of the completion of the development contract as well
      as a description of how that contract provides for continued flexibility
      to legislative changes to CODIS operations.

12.   Unresolved. The FBI disagrees with the strength of the OIG’s
      evidence to support this recommendation, as well as what it views as a
      generalization that the certification forms have not fully accomplished
      their purpose of ensuring compliance. Yet, the OIG’s evidence shows
      that one-third of the audits we conducted over a 2-year period (6 of
      18) found that the laboratories had not completed the forms as
      required. Further, roughly two-thirds of the audits we conducted in
      that 2-year period (11 of 18) revealed forensic profiles that were not
      acceptable, based upon FBI-established criteria.

      To support its argument, the FBI draws a comparison between our
      results in our 2001 audit and current audit trends. FBI management
      states that we found 40 instances of inappropriate DNA profiles
      uploaded to NDIS by 5 out of the 8 laboratories audited. This
      comparison is false in that it compares the number of profiles
      identified, from our previous report, to the number of laboratories at
      which those profiles were found, as we quote in our current report. To
      be consistent, the comparison should state that our 2001 report
      identified forensic profiles that were not acceptable at 6 of the 8
      laboratories we audited. Consequently, a reduction from a 75 percent
      incident rate (6 of 8) in our 2001 audit report to a 61 percent incident
      rate (11 of 18) in FY’s 2004 to 2005 audit reports is not sufficient to
      support a claim that the annual reminder forms have accomplished
      their intended purpose.

      Further, the FBI argues that other measures are being taken as part of
      the internal controls over the appropriateness of data uploaded to
      NDIS. Such an argument actually supports our recommendation,
      since our recommendation encourages the FBI to take other measures.
      This is particularly true in light of the fact that one of the key
      measures the FBI mentions, the addition of special instruction to each
      CODIS training class, has been implemented since our audit work
      concluded. Consequently, we conclude that the FBI’s support for
      disagreement with our recommendation is not sufficient to set aside
      the legitimate evidence supporting our recommendation.

13.   Resolved. This recommendation can be closed when we receive:
      (1) documentation that a formalized tracking system has been
      implemented to identify common and overturned findings from the



                                    - 145 -
                                                                APPENDIX IX

      audits reviewed by the NDIS Audit Review Panel, and (2) a policy for
      how that information will be used to enhance community consistency
      and compliance.

14.   Resolved. This recommendation can be closed when we receive:
      (1) documentation that a formalized tracking system has been
      implemented to identify auditors who use inconsistent interpretations
      of the QAS, and (2) a policy for what action should be taken when
      such auditors are identified.

15.   Resolved. This recommendation can be closed when we receive
      documentation that a mechanism has been developed to
      systematically communicate the information gathered in response to
      recommendation nos. 13 and 14 to training providers in the DNA
      community, including the FBI’s own QAS audit trainers.

16.   Resolved. This recommendation can be closed when we receive a
      copy of the formal policy for the conducting of profile allowability
      reviews on behalf of the CODIS Unit that reflects: (1) the expanded
      size of the reviews described in the FBI’s response; and (2) the
      objective and independent methods that will be used to ensure that
      those profiles are selected from among all of a laboratory’s profiles at
      NDIS.

      Relatedly, we want to address what appears to be a misunderstanding
      by the FBI regarding the nature of our recommendation. The FBI
      appears to have read our recommendation as advising the FBI to use
      QAS auditors to perform profile allowability reviews. In actuality, the
      OIG’s recommendation, that flows directly from the support in the
      report, only acknowledges that the FBI has already been using QAS
      auditors to perform profile allowability reviews. The recommendation
      communicates that even now, while the FBI is handling the profile
      allowability reviews in this way, changes need to be made to the
      methodology. In our report, as well as in our recommendation, we
      acknowledge the FBI’s stated intention to have the profile allowability
      reviews conducted by the CODIS Unit auditors. However, at the time
      of our audit, no such auditors had reported to duty in the Unit.
      Consequently, our recommendation advises the FBI to implement this
      change in methodology immediately, rather than at some point in the
      future when the CODIS Unit auditors are on staff.

17.   Resolved. This recommendation can be closed when we receive a
      copy of the formal policy or procedure that describes the scope of the
      CODIS Unit auditor’s reviews, demonstrating that those reviews will



                                    - 146 -
                                                               APPENDIX IX

      include an analysis of compliance with NDIS requirements, as
      described in the FBI’s response.

18.   Resolved. This recommendation can be closed when we receive
      documentation that the changes to the NDIS procedures proposed in
      the FBI’s response have been implemented, to annually confirm that
      all approved CODIS users have completed their annual user
      certification forms.

19.   Unresolved. The FBI’s response does not address how it plans to
      ensure that all guidance given at auditor training courses, including
      verbal guidance given extemporaneously in discussion sessions as
      specifically mentioned in our report, is documented in writing for
      future reference to ensure consistency and to disseminate within the
      community. Instead, the FBI asserts that the training is already based
      on a written curriculum. As our report analysis discloses, we agree
      that a written curriculum exists, but do not believe that it
      comprehensively documents verbal guidance given supplemental to
      the audit document in training courses.

20.   Resolved. This recommendation can be closed when we receive
      documentation of the implementation of web-based tools to aid the
      CODIS community’s awareness, understanding and consistent
      interpretation of the QAS.

21.   Unresolved. The FBI disagrees with this recommendation on the
      basis that the OIG did not provide compelling evidence to support it, in
      the form of a trend analysis of how many panel members were
      untimely. Such a trend analysis was not within the scope of the OIG’s
      work on this audit, but through the course of other work performed,
      we noted one glaring incident of a panel member being consistently
      late on audits they reviewed. The FBI argues that since we cite only
      1 out of the approximately 88 panel members, our evidence is
      insufficient. However, the FBI ignores our data analysis of overall
      panel timeliness that revealed, on average, panel members are taking
      almost twice as long as permitted to complete their reviews (54 days
      rather than 30). How many members are implicated by this average
      was not our concern, but rather the fact that panel member timeliness
      impacts the overall timeliness of the panel process. Consequently, our
      audit evidence is sufficient to warrant this recommendation.

22.   Resolved. This recommendation can be closed when we receive
      documentation that the CODIS Unit has implemented a procedure to
      begin comparing the audit information reported annually by the SDIS



                                   - 147 -
                                                       APPENDIX IX

Administrators to the audits received by the NDIS Audit Review Panel,
to ensure all appropriate audits have been submitted to that Panel.




                            - 148 -
